APPENDIX

APPENDIX A
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

No. 11 MAP 2018
COMMONWEALTH OF PENNSYLVANIA,
APPELLEE
v.
THOMAS S. BELL,
APPELLANT
Submitted: Nov. 30, 2018
Decided: July 17, 2019
Appeal from the Order of the Superior Court at
No. 1490 MDA 2016, dated July 19, 2017,
Reconsideration Denied September 26, 2017,
Reversing the Order of the Court of Common Pleas
of Lycoming County, Criminal Division, at
No. CP-41-CR- 0001098-2015, dated August 19, 2016
and Remanding for Sentencing
OPINION

(1a)

2a
Before: THOMAS G. SAYLOR, CHIEF JUSTICE, MAX
BAER, DEBRA TODD, CHRISTINE DONOHUE, KEVIN M.
DOUGHERTY , DAVID N. WECHT, AND SALLIE UPDYKE
MUNDY, Justices.
Opinion by JUSTICE DOUGHERTY .
We granted discretionary review to determine
whether Section 1547(e) of the Vehicle Code, 75
Pa.C.S. § 1547(e),1 which expressly allows the Commonwealth to introduce evidence at trial that a defendant charged with Driving Under the Influence
(DUI) refused to submit to chemical testing, violates
the Fourth Amendment to the United States Constitution2 or Article I, Section 8 of the Pennsylvania
Section 1547(e) provides, “[i]n any summary proceeding or
criminal proceeding in which the defendant is charged with a
violation of [75 Pa.C.S. § 3802 (Driving Under the Influence)]
or any other violation of this title arising out of the same action,
the fact that the defendant refused to submit to chemical testing as required by [75 Pa.C.S. § 1547(a) (deeming drivers to
have given consent to chemical testing)] may be introduced in
evidence along with other testimony concerning the circumstances of the refusal. No presumptions shall arise from this
evidence but it may be considered along with other factors concerning the charge.” 75 Pa.C.S. § 1547(e).
1

2 The Fourth Amendment to the United States Constitution
states as follows: “The right of the people to be secure in their
persons, houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no Warrants
shall issue, but upon probable cause, supported by Oath or affirmation, and particularly describing the place to be searched,
and the persons or things to be seized.” U.S. CONST. amend. IV.

3a
Constitution. 3 We conclude the evidentiary consequence authorized by Section 1547(e) is constitutional. Accordingly, we affirm the order of the Superior Court.
Following his arrest on suspicion of DUI on May
16, 2015, appellant Thomas Bell was transported to
the Lycoming County DUI Center. N.T. 4/28/16 at
37. At the DUI Center, Detective Douglas Litwhiler
read the PennDOT DL-26 form to appellant and he
refused to submit to a blood test. Id. at 38. Appellant was subsequently charged with DUI — general
impairment, 75 Pa.C.S. § 3802(a)(1), and a summary traffic offense for failing to use required lighting,
75 Pa.C.S. § 4302(a)(1).
Appellant filed a pre-trial motion to dismiss arguing he had a constitutional right to refuse to submit to a warrantless blood test and thus evidence of
his refusal should be suppressed and the DUI
charge dismissed. See Appellant’s Motion to Dismiss, 3/8/16 at 5. The trial court denied the motion
on April 28, 2016, and appellant proceeded to a nonjury trial that same day. N.T. 4/28/16 at 6. During
Article I, Section 8 of the Pennsylvania Constitution states
as follows: “The people shall be secure in their persons, houses,
papers and possessions from unreasonable searches and seizures, and no warrant to search any place or to seize any person
or things shall issue without describing them as nearly as may
be, nor without probable cause, supported by oath or affirmation subscribed to by the affiant.” PA. CONST. art. I, § 8.
3

4a
trial, Detective Litwhiler testified regarding appellant’s refusal to submit to blood testing and his assertion he did not want a needle in his arm because
he had previously contracted hepatitis from a hospital needle. Id. at 38. At the conclusion of trial, appellant was found guilty of all charges.
Appellant filed a motion for reconsideration.
Appellant specifically argued the United States
Supreme Court’s decision in Birchfield v. North Dakota, __ U.S.__, 136 S. Ct. 2160 (2016), 4 precludes
states from penalizing DUI defendants for refusing
to submit to warrantless blood testing and, because
he was convicted of DUI based on his refusal, his
DUI charge should have been dismissed or, alternatively, he should be granted a new trial at which evidence of his refusal would be inadmissible. See
Appellant’s Motion for Reconsideration, 7/1/16 at 2.
The trial court ruled the matter was “clearly controlled [by] Birchfield’s main point: a warrantless
blood test violates a defendant’s right to be free from
unreasonable searches and he thus has a constitutional right to refuse it, which refusal cannot provide the basis for him to be convicted of a crime or
otherwise penalized.” Trial Court Op., 8/19/16 at 5
(emphasis omitted). The trial court ultimately determined appellant was entitled to a new trial because the court had relied on his refusal as a basis
for the DUI conviction. Id.
Birchfield was decided on June 23, 2016, after appellant’s
April 2016 trial and his March 2016 pre-trial motion to dismiss.
4

5a
The Commonwealth filed an interlocutory appeal
to the Superior Court pursuant to Pa.R.A.P.
311(a)(6) (new trial awarded and Commonwealth
claims trial court committed error of law). The Commonwealth argued Birchfield did not alter the
admissibility of refusal evidence to show consciousness of guilt. The Commonwealth noted the Birchfield Court explicitly stated it had previously
approved of “ ‘implied-consent laws that impose civil
penalties and evidentiary consequences on motorists who refuse to comply . . . and nothing we say
here should be read to cast doubt on them.’ ” Commonwealth’s Superior Court Brief at 11 (emphasis
omitted), quoting Birchfield, 136 S. Ct. at 2185. The
Commonwealth further contended scenarios involving implied consent are warrantless search of his
home, where such refusal would be inadmissible at
trial. Id. at 13. Appellant responded that Birchfield
created a constitutional right to refuse a warrantless blood test and the admission of his refusal was
improper as it penalized him for exercising this
constitutional right. Appellant’s Superior Court
Brief at 4.
A three-judge panel of the Superior Court
reversed the trial court’s order granting appellant a
new trial and remanded the case for sentencing.
Commonwealth v. Bell, 167 A.3d 744, 750 (Pa. Super. 2017). The panel reviewed Pennsylvania’s implied consent statute, 75 Pa.C.S. § 1547, as well as
case law in which both the United States Supreme

6a
Court and the Superior Court stated motorists suspected of drunk driving have no constitutional right
to refuse chemical testing. Bell, 167 A.3d at 748-49,
discussing South Dakota v. Neville, 459 U.S. 553
(1983) and Commonwealth v. Graham, 703 A.2d 510
(Pa. Super. 1997). Based on this precedent, the
panel held appellant had no constitutional right to
refuse a blood test and it was constitutionally permissible for the Commonwealth to introduce evidence of such refusal at his trial. Id. at 749.
The panel further held the trial court’s reliance
on Birchfield for the opposite conclusion was misplaced, finding the decision did not support the assertion appellant had a constitutional right to refuse chemical testing and thus did not change the
analysis applied by the courts in Neville and Graham.
Instead, the panel agreed with the Commonwealth,
concluding although the Birchfield Court ultimately
held it was unreasonable for implied consent laws
to impose criminal penalties for refusals, the Court
“express[ed] approval of the imposition of civil penalties and evidentiary consequences on motorists
who refuse to comply with chemical testing upon
their arrest[.]” Id. at 750, citing Birchfield, 136 S.
Ct. at 2185. Based on the Supreme Court’s approval
of evidentiary consequences set forth in implied consent laws such as Pennsylvania’s statute, the Superior Court held appellant’s refusal was properly admitted into evidence and thus he was not entitled to
a new trial. Id.

7a
We accepted review to consider the following
question raised by appellant: “Whether § 1547(e) of
the Vehicle Code, 75 Pa.C.S. § 1547(e), is violative
of Article 1 Section 8 of the Pennsylvania Constitution and the Fourth Amendment to the United
States Constitution to the extent that it permits evidence of an arrestee’s refusal to submit a sample of
blood for testing without a search warrant as proof
of consciousness of guilt at the arrestee’s trial on a
charge of DUI?” Commonwealth v. Bell, 183 A.3d
978 (Pa. 2018) (per curiam). As we are presented
with a question of law, our scope of review is plenary
and non-deferential. Commonwealth v. Ali, 149
A.3d 29, 34 (Pa. 2016).
Appellant contends Missouri v. McNealy, 569
U.S. 141 (2013), which rejected a per se exigent circumstances exception to the warrant requirement
for blood testing based on dissipation of blood alcohol content (BAC), and Birchfield, which rejected a
search incident to arrest exception to the warrant
requirement for blood testing, make clear that DUI
suspects have a Fourth Amendment right to refuse
warrantless blood testing. Appellant’s Brief at 7-8.
Appellant submits the cases relied on by the Superior Court, Neville and Graham, are inapposite as
those decisions were based on a Fifth Amendment 5
The Fifth Amendment to the United States Constitution
states, in relevant part, as follows: “No person shall . . . be
compelled in any criminal case to be a witness against himself[.]” U.S. CONST. amend. V
5

8a
analysis and were decided when it was still viewed
as constitutionally permissible to conduct blood
testing without first securing a warrant. Id. at 8-9.
According to appellant, since Birchfield declared a
Fourth Amendment right to be free from warrantless blood testing, we must follow the law as stated
in Commonwealth v. Welch, 585 A.2d 517 (Pa. Super. 1991), which held a defendant’s refusal of a
warrantless search of her bedroom could not be used
as evidence of consciousness of guilt. Appellant’s
Brief at 9, citing Welch, 585 A.2d at 520. In further
support of this proposition, appellant cites Commonwealth v. Chapman, 136 A.3d 126 (Pa. 2016), in
which this Court held a defendant’s refusal to submit to a warrantless blood test for DNA purposes
was inadmissible to demonstrate consciousness of
guilt. Appellant’s Brief at 15, citing Chapman, 136
A.3d at 131.
Appellant further argues the language in Birchfield pertaining to evidentiary consequences was
dicta and does not require a different result here.
Id. at 10, citing Trial Court Op., 8/19/16 at 4. Appellant contends the issue in Birchfield was whether
DUI defendants may be “ ‘ convicted of a crime or
otherwise penalized’” for their refusal and it is clear
that allowing the Commonwealth to introduce his
refusal into evidence penalized him by providing a
basis for his conviction. Id. (emphasis omitted),
quoting Birchfield, 136 S. Ct. at 2172. Additionally,
appellant argues our decision in Commonwealth v.
Myers, 164 A.3d 1162 (Pa. 2017) (plurality) held the

9a
Pennsylvania implied consent statute does not establish an exception to the warrant requirement
and the Commonwealth is required to prove there
was voluntary consent given prior to the extraction
of blood. Id. at 11. Appellant requests we expand the
holding in Myers — which involved an unconscious
DUI suspect — to conscious individuals and hold
there is a Fourth Amendment right to refuse warrantless blood testing. Id.
Appellant alternatively requests we hold there is
an independent right to refuse a warrantless blood
test under Article I, Section 8 of the Pennsylvania
Constitution, and that Section 1547(e) violates it.
Id. at 12-14, citing Commonwealth v. Edmunds, 586
A.2d 887 (Pa. 1991). Appellant contends although
the text of Article I, Section 8 is very similar to that
of the Fourth Amendment, this Court has held Article I, Section 8 to be more protective. Id. at 12, citing, e.g., Commonwealth v. Brion, 652 A.2d 287 (Pa.
1994). Relative to his claim herein, appellant maintains this Court has continuously held the search of
a person involves greater intrusion upon privacy interests than the search of a thing. Id. at 13, citing
Theodore v. Delaware Valley Sch. Dist., 836 A.2d 76,
89 (Pa. 2003). Appellant observes no other jurisdiction has addressed the admissibility of refusal evidence utilizing a state constitutional analysis. Id.
Appellant argues this Court should hold, as a matter of public policy, the severity of the drunk driving
problem does not outweigh individual privacy
rights, and police may use breath tests or their own

10a
observations to prove DUI cases without violating
those rights. Id. at 13-14.6
In response, the Commonwealth asserts the
United States Supreme Court has consistently approved of implied consent laws like Pennsylvania’s
statute. Commonwealth’s Brief at 6-8, citing
Schmerber v. California, 384 U.S. 757 (1966) (holding admission of blood test evidence does not violate
Fifth Amendment) and Neville, supra (holding admission of refusal evidence does not violate Fifth
Amendment). The Commonwealth further asserts
Pennsylvania courts have consistently upheld Section 1547. Id. at 8-9, citing Commonwealth v. Stair,
699 A.2d 1250 (Pa. 1997) (Opinion in Support of Affirmance) (holding no constitutional right to refuse
chemical testing) and Graham, supra (holding admission of refusal evidence does not violate United
States Constitution). Based on this precedent, the
Commonwealth argues there is no constitutional
right to refuse blood testing in the DUI context and
the general rule proffered in Welch regarding a completely separate situation — i.e., evidence of a refusal to consent to a warrantless search of a bedroom is inadmissible for purposes of demonstrating
consciousness of guilt — does not apply here. Id. at
9. To bolster this argument, the Commonwealth
The Defender Association of Philadelphia and the Pennsylvania Association of Criminal Defense Lawyers filed an amicus
curiae brief in which they present arguments similar to those
presented by appellant.
6

11a
points to Chapman, where this Court specifically
stated “ ‘ the admission of evidence of a refusal to
consent to a warrantless search to demonstrate consciousness of guilt is problematic, as most jurisdictions hold (outside the context of implied consent scenarios) that such admission unacceptably
burdens an accused’s right to refuse consent.’ ” Id.
at 9-10 (emphasis in original), quoting Chapman,
136 A.3d at 131.
The Commonwealth contends the implied consent law is the distinguishing factor between Welch
and the case at hand, observing “Welch had not
agreed (by undertaking to engage in a civil privilege
such as operating a motor vehicle) to accept an ultimatum pursuant to which she would either consent
to a search or accept non-criminal consequences of
a refusal to so consent.” Id. at 10. The Commonwealth explains “[a] motorist asked to consent to a
blood test is not in the same position as Welch, and
is not being penalized for exercising a constitutional right. Rather . . . the motorist is subjected to
evidentiary consequences for exercising his statutory choice to refuse a chemical test, the non-criminal consequences of which he has already agreed
to[.]” Id. (emphasis in original). The Commonwealth
further asserts our recent decision in Myers supports this distinction as the lead opinion stated
“Pennsylvania’s implied consent statute ‘imposes an
ultimatum upon the arrestee, who must choose either to submit to a requested chemical test or to face
the consequences that follow from the refusal to do

12a
so.’ ” Id. at 11, quoting Myers, 164 A.3d at 1177 (plurality).
The Commonwealth additionally contends the
decisions in McNeely and Birchfield support the
continued validity of Section 1547(e). The Commonwealth observes the McNeely Court, in rejecting a
per se exigency rule, recognized “ ‘ [s]tates have a
broad range of legal tools to enforce their drunkdriving laws and to secure BAC evidence,’ including
‘allow[ing] the motorist’s refusal to take a BAC test
to be used as evidence against him[.]’ ” Id. at 12,
quoting McNeely, 569 U.S. at 160-61. And, the Commonwealth notes the Birchfield Court “confirmed its
approval of non-criminal consequences related to
implied consent laws” by stating “ ‘ [o]ur prior opinions have referred approvingly to the general concept of implied-consent laws that impose civil penalties and evidentiary consequences on motorists
who refuse to comply . . . and nothing we say here
should be read to cast doubt on them.’ ” Id. at 13-14
(emphasis omitted), quoting Birchfield, 136 S. Ct. at
2185. Accordingly, the Commonwealth asserts the
evidentiary consequences for a refusal to submit to
blood testing remain permissible under the Fourth
Amendment post-Birchfield. Id. at 14.
With regard to appellant’s alternative Article I,
Section 8 argument, the Commonwealth contends it
is waived because appellant never raised it in the
lower courts. Id. at 15-19. The Commonwealth also
argues appellant’s Article I, Section 8 claim should

13a
be deemed waived because he failed to adequately
develop the issue in his brief to this Court. Id. at 1921.
The Commonwealth nevertheless presents an
Edmunds analysis and asks this Court to conclude
Article I, Section 8 provides no greater protections
than the Fourth Amendment in the context of this
case. The Commonwealth agrees the text of Article
I, Section 8 is similar to that of the Fourth Amendment and that this Court has found independent
rights guaranteed by Article I, Section 8 on privacy
grounds. Id. at 22-24, citing Theodore, 836 A.2d at
88. However, the Commonwealth maintains Pennsylvania courts have had numerous opportunities to
consider implied consent in the search and seizure
context and have consistently aligned with the High
Court’s decisions. Id. at 24-25. In fact, the Commonwealth contends, in no case has a Pennsylvania
court suggested Article I, Section 8 provides greater
protections in the implied consent context, and our
courts have instead referred to “ ‘ the Fourth Amendment to the United States Constitution and Article
I, Section 8 of the Pennsylvania Constitution’ together[,]” which suggests they are coterminous in
this context. Id. at 25, quoting Myers, 164 A.3d at
1167.
The Commonwealth recognizes that no state
court has ruled upon the admissibility of refusal evidence in the implied consent context using a state
constitutional analysis, but points to several state

14a
court decisions that have applied a post-Birchfield
Fourth Amendment analysis to hold “a defendant’s
refusal to submit to a chemical test of blood in the
implied consent context may be constitutionally admitted into evidence at trial.” Id. at 26. Specifically,
the Commonwealth cites to an en banc Colorado Supreme Court decision concluding Birchfield was distinguishable from cases involving the admissibility
of refusal evidence, id. at 26-27, citing Fitzgerald v.
People, 394 P.3d 671, 675-76 (Colo. 2017), and a Vermont Supreme Court decision holding “ ‘ criminalizing the revocation of implied consent crosses the
line in terms of impermissibly burdening the Fourth
Amendment . . . [b]ut allowing evidence of a refusal
to submit to a blood test in the context of a DUI
prosecution does not warrant the same constitutional protection.’ ” Id. at 28, quoting State v. Rajda,
196 A.3d 1108, 1121 (Vt. 2018).
Regarding public policy, the Commonwealth
argues Section 1547(e) does not infringe upon privacy rights as the subsection applies only when a
motorist invokes his statutory right to refuse a
blood test. Id. at 30. Where no blood test takes place,
the Commonwealth maintains, the motorist’s privacy has not been invaded. Id. The Commonwealth
further argues the inability to present refusal evidence at trial would prejudice DUI prosecutions because the jury will expect evidence of BAC or an explanation for its absence. Id. at 31-32. Lastly, the
Commonwealth contends it is vital for it to possess

15a
non-criminal means, such as the admissibility of refusal evidence, to encourage motorists to comply
with requests for chemical testing. Id. at 32-34.7
Preliminarily, we agree with the Commonwealth
that appellant’s current claim Section 1547(e) violates Article I, Section 8 is waived. Although appellant stated in his pre-trial motion to dismiss “Pennsylvania’s Implied Consent Law violates Article 1,
Section 8 of the Pennsylvania Constitution and the
Fourth Amendment to the United States Constitution[,]” Appellant’s Motion to Dismiss, 3/8/16 at 2,
he failed at that time to develop an argument that
the Pennsylvania Constitution provided any independent grounds for relief. Furthermore, in his
post-trial motion for reconsideration, appellant did
not reference Article I, Section 8 at all, but only
stated Birchfield provided him with a “constitutional right to refuse testing of blood[.]” Appellant’s
Motion for Reconsideration, 7/1/16 at 2. Although
appellant includes a brief and cursory Edmunds
analysis in his brief to this Court, it is the first time
he has suggested that Article I, Section 8 provides
an independent basis for relief. See Appellant’s
Brief at 12-14. As appellant failed to preserve his
Article I, Section 8 claim we decline to consider it.
See Commonwealth v. Chamberlain, 30 A.3d 381,
405 (Pa. 2011) (declining to consider whether state
The Pennsylvania District Attorney’s Association filed an
amicus curiae brief in which it presents arguments similar to
those presented by the Commonwealth.
7

16a
constitution departed from federal counterpart
where argument was not directly advanced in lower
courts); Pa.R.A.P. 302(a) (“Issues not raised in the
lower court are waived and cannot be raised for the
first time on appeal”). We therefore limit our review
to appellant’s argument Section 1547(e) violates his
rights under the Fourth Amendment.8

Neither appellant’s failure to develop an Edmunds analysis
in the trial court nor his failure to reference Article I, Section 8
in his motion for reconsideration is the basis upon which we
find waiver. Instead, we find waiver on the same basis as did
the Court in Chamberlain — appellant “did not claim before
the trial court that the Pennsylvania Constitution provided an
independent basis for relief.” Chamberlain, 30 A.3d at 405; see
also id. at 406 (“We decline to consider whether state due process should depart from federal due process with regard to
missing evidence where this argument was not directly
advanced in the court below.”) (emphasis added). Although
we recognize appellant stated in his motion to dismiss that
“Pennsylvania’s Implied Consent Law violates Article 1, Section 8 of the Pennsylvania Constitution and the Fourth Amendment to the United States Constitution[,]” see Appellant’s Motion
to Dismiss, 3/8/16 at 2, appellant failed to directly advance
any argument regarding whether the clauses differed. We
find the current situation to be akin to cases where this
Court has repeatedly stated general claims under the state
and federal constitutions do not present independent
questions of state constitutional law. See e.g., Commonwealth
v. Lagenella, 83 A.3d 94, 99 n.3 (Pa. 2013);
Commonwealth v. Galvin, 985 A.2d 783, 793 n.15 (Pa. 2009);
Commonwealth v. Starr, 664 A.2d 1326, 1334 n.6 (Pa. 1995).
Lastly, the fact that the question granted for review in this case
8

17a
The Fourth Amendment to the United States
Constitution provides, in relevant part, “[t]he right
of the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches
and seizures, shall not be violated[.]” U.S. CONST.
amend. IV. It has long been established that a blood
draw for purposes of determining BAC constitutes a
search under the Fourth Amendment. Schmerber,
384 U.S. at 767. As such, the pertinent question under a Fourth Amendment analysis is whether such
a search is reasonable. Birchfield, 136 S. Ct. at
2173. Generally, in order for a search to be reasonable, the Fourth Amendment requires that police
obtain a warrant, supported by probable cause and
issued by a neutral magistrate, prior to searching
an individual or his property. Commonwealth v. Arter, 151 A.3d 149, 153 (Pa. 2016). Although searches
conducted without a warrant are presumed to be unreasonable, there are exceptions to this rule, including searches conducted with the consent of the individual whose person or property is being searched.
Commonwealth v. Wilmer, 194 A.3d 564, 567-68 (Pa.
2018).

included appellant’s claim under Article I, Section 8, see Commonwealth v. Bell, 183 A.3d 978 (Pa. 2018) (per curiam), does
not preclude us from ultimately finding the claim waived. See
Commonwealth v. Metz, 633 A.2d 125, 126 (Pa. 1993) (declining
to address an issue upon which allocatur was granted due to
waiver).

18a
In order to combat the dangers of drunk driving,
states, including Pennsylvania, have enacted laws
which criminalize driving with a BAC that exceeds
a certain level. Birchfield, 136 S. Ct. at 2166. Blood
testing is necessary to determine a motorist’s BAC
but those suspected of DUI routinely decline to submit to testing when given the option. Id. Accordingly, states have also enacted implied consent
laws, which impose penalties on motorists who refuse to undergo BAC testing. Id. These laws are
based on the notion that driving is a privilege rather
than a fundamental right. PennDOT v. Scott, 684
A.2d 539, 544 (Pa. 1996). When partaking in the
privilege of driving on Pennsylvania’s roads, motorists must comply with Pennsylvania’s implied consent statute, 75 Pa.C.S. § 1547. The version of the
implied consent statute in effect at the time of appellant’s arrest provided, in relevant part, as follows:
Any person who drives, operates or is in actual
physical control of the movement of a vehicle in
this Commonwealth shall be deemed to have
given consent to one or more chemical tests of
breath, blood or urine for the purpose of determining the alcoholic content of blood or the presence of a controlled substance if a police officer
has reasonable grounds to believe the person to
have been driving, operating or in actual physical
control of the movement of a vehicle:

19a
(1) in violation of . . . [75 Pa.C.S. §] 3802 (relating to driving under influence of alcohol or controlled substance)[.]
Former 75 Pa.C.S. § 1547(a)(1). 9
Section 1547 also sets forth penalties for motorists who were arrested on suspicion of DUI and refused to submit to chemical testing. These penalties
include requiring PennDOT to suspend the motorist’s license for at least one year, see 75 Pa.C.S. §
1547(b)(1), 10 and the penalty at issue here: expressly allowing evidence of the motorist’s refusal to

9 We refer in this opinion to the version of Section 1547(a) in
effect at the time of appellant’s arrest as former 75 Pa.C.S.
§1547(a). The full citation for this version is as follows: Act of
June 17, 1976, P.L. 162, No. 81, § 1, amended December 15,
1982, P.L. 1268, No. 289, § 5, amended February 12, 1984, P.L.
53, No. 12, § 2, amended May 30, 1990, P.L. 173, No. 42, § 5,
amended December 18, 1992, P.L. 1411, No. 174, § 6, amended
July 2, 1996, P.L. 535, No. 93, § 1, amended July 11, 1996, P.L.
660, No. 115, § 8, amended December 21, 1998, P.L. 1126, No.
151, § 18, amended October 4, 2002, P.L. 845, No. 123, § 3,
amended September 30, 2003, P.L. 120, No. 24, § 9.1, 10,
amended November 29, 2004, P.L. 1369, No. 177, § 2, amended
May 11, 2006, P.L. 164, No. 40, § 2, former 75 Pa.C.S. § 1547(a).
Subsection (a) was amended in the wake of the Birchfield decision. However, subsections (b) and (e) remained unchanged following the amendments.

Section 1547(b) also requires police officers to inform motorists that their refusal would subject them to enhanced criminal penalties if convicted of DUI. See 75 Pa.C.S. §
1547(b)(2)(ii). Such penalties were held to be unconstitutional
10

20a
be admitted at his subsequent criminal trial on DUI
charges. See 75 Pa.C.S. § 1547(e). Section 1547(e)
provides as follows:
In any summary proceeding or criminal proceeding in which the defendant is charged with a violation of [75 Pa.C.S. §] 3802 or any other violation
of this title arising out of the same action, the fact
that the defendant refused to submit to chemical
testing as required by subsection (a) may be introduced in evidence along with other testimony
concerning the circumstances of the refusal. No
presumptions shall arise from this evidence but
it may be considered along with other factors concerning the charge.
75 Pa.C.S. § 1547(e).
With this statutory framework in mind, we now
review the relevant jurisprudence surrounding warrantless blood testing in the context of DUI arrests.
In Schmerber, the United States Supreme Court
considered whether use of the results of a DUI defendant’s warrantless blood test as evidence at his
trial violated, inter alia, the Fourth and Fifth

in Birchfield. In this case, appellant challenges the constitutionality of Section 1547(e) only and, in any event, the Commonwealth has previously conceded that appellant cannot be
subject to enhanced criminal penalties based on his refusal
when this case proceeds to sentencing. See Trial Court Op.,
8/19/16 at 2.

21a
Amendments. 384 U.S. at 759. The High Court reasoned the results of the blood test were not testimonial in nature and thus did not constitute compelled
self-incrimination in violation of the Fifth Amendment. Id. at 760-65. The Court also denied the defendant’s Fourth Amendment claim, concluding it
was reasonable for the officer to conduct a warrantless blood test based on exigent circumstances,
namely that the defendant was rushed to the hospital, the officer had to investigate the scene of the
accident before arriving at the hospital to make the
blood draw, and the amount of alcohol in the defendant’s blood would have begun to dissipate had the
officer first sought a warrant. Id. at 766-72.
The Court later decided Neville, which presented
the question of whether the trial court’s admission
of a DUI defendant’s refusal to submit to a warrantless blood test violated his rights under the Fifth
Amendment. 459 U.S. at 554. The defendant’s refusal was admitted into evidence by way of a South
Dakota implied consent statute which permitted
motorists to refuse the test, but penalized such refusal by revoking their driving licenses for one year
and allowing evidence of their refusal to be used
against them at trial. Id. at 559-60. The Neville
Court ultimately held the admission of refusal evidence did not violate the Fifth Amendment because
the defendant had not been coerced into refusing the
test, but instead was given a choice between submitting to the test or accepting the consequences of refusing the test. Id. at 562-63. In doing so, the Court

22a
recognized the state would prefer the defendant
choose to submit to the test as actual BAC evidence
which exceeds lawful limits is far stronger evidence
of guilt than refusal evidence. Id. at 564. As the refusal was not coerced, the Court held its admission
into evidence was not barred by the Fifth Amendment right against self-incrimination. Id. The Court
additionally held the officer’s failure to warn the defendant that his refusal could be used against him
at trial did not violate his due process rights. Id. at
564-66.
The legal landscape regarding warrantless blood
tests changed with McNeely, in which a DUI defendant challenged the admission of his BAC results
where he had refused to submit to a breath test and
was then transported to a hospital where a warrantless blood draw was performed without his consent.
569 U.S. at 145-47. The Court held suppression of
the blood test results was proper because the warrantless blood test violated the defendant’s Fourth
Amendment rights. Id. at 164-65. The Court rejected Missouri’s argument there should be a per se
rule allowing warrantless blood tests in all DUI
cases, based on the alleged automatic exigency arising from the natural dissipation of alcohol in the
bloodstream. Id. at 151-56. Instead, the Court continued to follow Schmerber and held whether a warrantless blood test is reasonable based on exigent
circumstances must be determined by viewing the
totality of the circumstances of each particular case.
Id. at 156. In support of this conclusion, a plurality

23a
of the Court noted states have other tools to enforce
drunk driving laws and to secure BAC evidence,
that presumably do not implicate Fourth Amendment concerns. Id. at 160-61 (plurality). Included in
these tools, the plurality expressly recognized, are
“implied consent laws that require motorists, as a
condition of operating a motor vehicle within the
State, to consent to BAC testing if they are arrested
. . . on suspicion of a drunk-driving offense” and
“[s]uch laws impose significant consequences when
a motorist withdraws consent[,]” including “allow[ing] the motorist’s refusal to take a BAC test to
be used as evidence against him in a subsequent
criminal prosecution.” Id. at 161 (plurality).
The Court then decided Birchfield. In the introduction to its opinion, the Court noted the penalties
for refusing chemical testing in early implied consent laws were suspension or revocation of a motorist’s license and allowing evidence of a motorist’s
refusal to be admitted in a subsequent trial. 136 S.
Ct. at 2169. The Court also observed that, more recently, in an effort to further strengthen drunk driving laws, states began imposing criminal penalties
on motorists who refuse to submit to chemical testing. Id. Birchfield squarely presented the question
of whether compelling motorists to submit to warrantless breath or blood tests on pain of criminal
consequences violates the Fourth Amendment. Id.
at 2172.

24a
In deciding this question, the High Court first
considered whether the search of a DUI suspect’s
blood or breath was exempted from the warrant requirement as a search incident to arrest. Id. at
2174-84. After an assessment of “the effect of BAC
tests on privacy interests and the need for such
tests,” the Court concluded “the Fourth Amendment
permits warrantless breath tests incident to arrests
for drunk driving” because “[t]he impact of breath
tests on privacy is slight, and the need for BAC testing is great.” Id. at 2184. However, the Court
reached “a different conclusion with respect to blood
tests[,]” concluding “[b]lood tests are significantly
more intrusive,” “their reasonableness must be
judged in light of the availability of the less invasive
alternative of a breath test[,]” and there is no “justification for demanding the more intrusive alternative without a warrant.” Id.
The Court next considered whether the implied
consent statute at issue satisfied the consent exception to the warrant requirement. Id. at 2185-87. The
Court recognized its “prior opinions have referred
approvingly to the general concept of impliedconsent laws that impose civil penalties and evidentiary consequences on motorists who refuse to
comply . . . and nothing we say here should be read
to cast doubt on them.” Id. at 2185, citing McNeely,
569 U.S. at 160-62; Neville, 459 U.S. at 560. However, the High Court held “[t]here must be a limit to
the consequences to which motorists may be deemed
to have consented by virtue of a decision to drive on

25a
public roads” and “motorists cannot be deemed to
have consented to submit to a blood test on pain of
committing a criminal offense.” Id. at 2185-86.
Following Birchfield, this Court decided Myers.
In Myers, police officers arrested a motorist for DUI
and transported him to the hospital as they believed
he was so severely intoxicated he required medical
attention. 164 A.3d at 1165. Notwithstanding the
fact that medical treatment at the hospital rendered
the DUI suspect unconscious, a police officer read
out the PennDOT DL-26 form in his presence and
instructed hospital personnel to draw blood from
him for purposes of securing BAC evidence. Id. This
Court affirmed suppression of the blood test results,
holding a blood draw from an unconscious DUI suspect violates the dictates of Pennsylvania’s implied
consent law as Section 1547(b)(1) provides an absolute right to refuse chemical testing, and an unconscious individual is unable to exercise that right. Id.
at 1172. A majority of the Court also held, albeit
without complete agreement as to reasoning, that a
warrantless blood draw from an unconscious DUI
suspect violates the Fourth Amendment. Id. at
1173-82 (plurality); 1183-84 (Saylor, C.J., concurring).
The United States Supreme Court’s decisions in
McNeely and Birchfield and this Court’s decision in
Myers indicate a warrantless blood test, which is
conducted when no exceptions to the warrant requirement apply, violates the Fourth Amendment

26a
rights of a motorist suspected of DUI. Outside the
implied consent context, such a violation would trigger the application of Welch and a refusal to submit
to the warrantless blood test would be inadmissible
at any subsequent trial on the DUI charges. See
Welch, 585 A.2d at 520 (defendant’s refusal of a warrantless search of her bedroom could not be used as
evidence of consciousness of guilt). However, we
agree with the Commonwealth that the Pennsylvania implied consent statute is the distinguishing
factor between Welch and the case at hand. See
Chapman, 136 A.3d at 131 (“the admission of evidence of a refusal to consent to a warrantless search
to demonstrate consciousness of guilt is problematic, as most jurisdictions hold (outside the context of implied-consent scenarios) that such admission unacceptably burdens an accused’s right to
refuse consent”) (emphasis added). As the Commonwealth aptly states, unlike the defendant in Welch,
appellant “agreed (by undertaking to engage in a
civil privilege such as operating a motor vehicle) to
accept an ultimatum pursuant to which [he] would
either consent to a search or accept non-criminal
consequences of a refusal to so consent.” Commonwealth’s Brief at 10.
Indeed, as the Myers plurality recognized, implied consent laws “authorize a police officer to request a motorist’s submission to a chemical test, at
which point the motorist must choose either (a) to
comply with the test or (b) to refuse and accept the
consequences that accompany refusal.” 164 A.3d at

27a
1174 (plurality). The choice may well be a difficult
one, but this alone does not invalidate the “implied
consent” created by the statute. See Jenkins v. Anderson, 447 U.S. 231, 236 (1980) (“the Constitution
does not forbid ‘every government-imposed choice in
the criminal process that has the effect of discouraging the exercise of constitutional rights’”), quoting Chaffin v. Stynchcombe, 412 U.S. 17, 30 (1973).
As
implied by Birchfield, the pertinent question in determining the constitutionality of a statute demanding this particular choice is whether the consequence for refusing a warrantless blood test under-

28a
mines the inference that the motorist implicitly consented to it, and suggests instead that the “search”
was coerced.11,12
This question fully encompasses the threshold issue in Jenkins and Chaffin and our analysis below answers it. Jenkins,
447 U.S. at 236 (“The ‘threshold question is whether compelling
the election impairs to an appreciable extent any of the policies
behind therights involved.’”), quoting Chaffin, 412 U.S. at 32.
As seen infra, we disagree with the dissent’s assertion that
“[t]he sole purpose of the implied consent law’s consequences of
refusal is to induce a motorist’s compliance with chemical testing.” Dissenting Opinion, slip op. at 21 n.6. See also id. at 29
(“the ‘only objective’ of this practice is to ‘discourage the assertion’ of that constitutional right”), quoting Chaffin, 412 U.S. at
32 n.20. Indeed, the consequence at issue here — allowing evidence of a motorist’s refusal at his subsequent trial for DUI —
does not solely punish a defendant but also has a legitimate
purpose, just as the consequence at issue in Jenkins. See Jenkins, 447 U.S. at 238 (impeachment evidence has the legitimate
purpose of “advanc[ing] the truth-finding function of the criminal trial”). As stated below, the admission of refusal evidence
“furthers the reliability of the criminal process and its truthseeking function by allowing the jurors to understand why the
State is not submitting an evidentiary test in a DUI prosecution.” Rajda, 196 A.3d at 1120. Surely, it cannot be said that
the sole purpose of the admission of refusal evidence “is to induce a motorist’s compliance with chemical testing.” Dissenting
Opinion, slip op. at 21 n.6.
11

The dissent criticizes our decision not to address the High
Court’s jurisprudence regarding the unconstitutional conditions doctrine and the penalization of the exercise of constitutional rights. See Dissenting Opinion, slip op. at 14-15 n.4, 19
& n.5, 20. Although appellant may have raised the unconstitutional conditions doctrine in his motion to dismiss before the
12

29a

trial court, see Appellant’s Motion to Dismiss, 3/8/16 at 2
(“Pennsylvania’s Implied Consent Law violates Article 1, Section 8 of the Pennsylvania Constitution and the Fourth Amendment to the United States Constitution under the Unconstitutional Conditions Doctrine”), we decline to address the doctrine
here because appellant himself, in his brief to this Court, does
not discuss the doctrine or its potential application to his case,
nor does he cite to any of the High Court’s cases discussing the
penalization of constitutional rights, but instead cites solely to
the distinguishable cases of Chapman and Welch. Furthermore, we take considerable issue with Justice Wecht’s spurious
assertion that we prefer “to set a dangerous and unfounded
precedent suggesting that the universe of applicable law is limited to the Table of Citations section of an appellant’s brief.”
See Dissenting Opinion, slip op. at 20. Of course we are not limiting our review. Instead, we apply the longstanding principle
that courts should not act as advocates at the risk of depriving
the parties the opportunity to be heard. Yount v. DOC, 966 A.2d
1115, 1119 (Pa. 2009), citing Luitweiler v. Northchester Corp.,
319 A.2d 899, 901 n.5 (Pa. 1974). Indeed, the Commonwealth
here had no opportunity to present advocacy to this Court as to
whether the unconstitutional conditions doctrine is implicated
because the words “unconstitutional conditions doctrine” do not
even appear in appellant’s brief.
In any event, we find the unconstitutional conditions doctrine
is inapplicable here as the implied consent law does not condition the privilege of driving upon a motorist’s submission to future warrantless blood testing. Indeed, as stated previously,
Section 1547(b)(2) provides an absolute right to refuse all
chemical testing. See Myers, 164 A.3d at 1172. The fact that
certain consequences arise from a motorist’s refusal to submit
to chemical testing, including the evidentiary consequence
presently at issue, does not render the implied consent statute
unconstitutional. The lead opinion in Myers, authored by Justice Wecht, who takes a dissenting position here, recognized as

30a
Our view on this point is substantially aligned
with that of the Supreme Court of Vermont. When
deciding an issue identical to the one at hand, the
court opined:
As the [Birchfield] Court suggested . . . the admission of evidence of a refusal to submit to a
blood draw is a qualitatively different consequence with respect to its burden on the Fourth
Amendment. Criminalizing refusal places far
more pressure on defendants to submit to the
blood test — thereby impermissibly burdening
the constitutionally protected right not to submit
to the test — than merely allowing evidence of
the refusal at a criminal DUI trial, where a defendant can explain the basis for the refusal and
the jury can consider the defendant’s explanation
for doing so. Moreover, the admission of refusal
evidence in the context of a DUI proceeding,
without directly burdening the privacy interest
protected by the Fourth Amendment, furthers
the reliability of the criminal process and its
truth-seeking function by allowing the jurors to
much by stating: “[t]he statute does not authorize police officers
to seize bodily fluids without an arrestee’s permission. Instead,
it imposes an ultimatum upon the arrestee, who must choose
either to submit to a requested chemical test or to face the consequences that follow from the refusal to do so.” Id. at 1177; see
also Jenkins, 447 U.S. at 236 (“the Constitution does not forbid
‘every government-imposed choice in the criminal process that
has the effect of discouraging the exercise of constitutional
rights’ ” ), quoting Chaffin, 412 U.S. at 30.

31a
understand why the State is not submitting an
evidentiary test in a DUI prosecution.
The implied consent statute establishes a bargain in which, in exchange for the privilege of engaging in the potentially dangerous activity of
operating a motor vehicle on the highway, motorists impliedly consent to testing for impaired
driving to protect the public. The critical question is whether civil or criminal sanctions resulting from motorists’ revocation of their implied
consent unconstitutionally coerce them to submit
to testing. In Birchfield, the U.S. Supreme Court
has ruled, with respect to the more invasive blood
test, that only criminalizing the revocation of implied consent crosses the line in terms of impermissibly burdening the Fourth Amendment.
But allowing evidence of a refusal to submit to a
blood test in the context of a DUI prosecution
does not warrant the same constitutional protection. The speculative conclusion that a citizen
will consent to a search that he or she would otherwise resist solely to avoid evidentiary implications at a possible future trial seems too attenuated to meet the U.S. Supreme Court’s test in
practice. Indeed, as the Court in Birchfield
pointed out, states began criminalizing refusals
because the other civil and evidentiary consequences provided an insufficient incentive for
motorists — most particularly repeat DUI offenders — to submit to testing.

32a
Rajda, 196 A.3d at 1120-21 (internal footnotes, quotations, brackets, and citations omitted). Like the
Vermont Supreme Court, and following Birchfield,
we focus our analysis on the nature of the consequences permitted by Pennsylvania’s implied consent statute.
Undeniably, the Birchfield Court rejected criminal prosecution as a valid consequence for refusing
a warrantless blood test by stating “motorists cannot be deemed to have consented to submit to a
blood test on pain of committing a criminal offense.”
136 S. Ct. at 2186. At the same time, the Court did
not back away from its prior approval of other kinds
of consequences for refusal, such as “evidentiary
consequences.” Id. at 2185 (“Our prior opinions have
referred approvingly to the general concept of implied-consent laws that impose civil penalties and
evidentiary consequences on motorists who refuse
to comply. Petitioners do not question the constitutionality of those laws, and nothing we say here
should be read to cast doubt on them.”) (internal citations omitted). 13 Moreover, the Birchfield Court
The Supreme Court of the United States recently decided
the Birchfield-related case of Mitchell v. Wisconsin, ___ U.S.
___, 139 S. Ct. 2525 (2019) (plurality), in which the plurality
determined a warrantless blood test is generally valid under
the 4th Amendment based on exigent circumstances where a
motorist suspected of DUI is unconscious. Although Mitchell is
not
directly relevant here, the opinion signals general approval of
implied consent laws and evidentiary consequences for failing
13

33a
cited to the McNeely plurality which provided a general endorsement of the evidentiary consequence at
issue in this case — evidence of a refusal being admitted at a DUI suspect’s trial. Id. at 2185, citing
McNeely, 569 U.S. at 161 (implied consent laws “impose significant consequences when a motorist withdraws consent; typically the motorist’s driver’s license is immediately suspended or revoked, and
most [s]tates allow the motorist’s refusal to take a
BAC test to be used as evidence against him in a
subsequent criminal prosecution”). Finally, the
Birchfield Court also cited Neville, which approved
of admitting refusal evidence in a DUI trial, albeit
in the context of a Fifth Amendment challenge. Id.,
citing Neville, 459 U.S. at 560. Based on the above,
we find ample support to conclude the High Court
would approve this particular evidentiary consequence in the context of a Fourth Amendment challenge.14
to comply with such laws. See Mitchell, 139 S. Ct. at 2532
(“ ‘ Our prior opinions referred approvingly to the general concept of implied-consent laws that impose civil penalties and evidentiary consequences on motorists who refuse to comply.’ ” ),
quoting Birchfield, 136 S. Ct. at 2185.
Our learned colleague in dissent is deliberate in his attempt to dispute this conclusion. In doing so, Justice Wecht relies on dicta from Birchfield which he finds useful, see Dissenting Opinion, slip op. at 10-11 (quoting dicta from Birchfield regarding the seeking of warrants), while simultaneously criticizing our reliance on the High Court’s expressed intention not to
cast doubt on implied consent laws that impose civil penalties
and evidentiary consequences. Compare id. at 23 (“As I read
14

34a
Accordingly, we conclude the “evidentiary consequence” provided by Section 1547(e) for refusing to
submit to a warrantless blood test — the admission
of that refusal at a subsequent trial for DUI — remains constitutionally permissible post-Birchfield.
We therefore affirm the order of the Superior Court.
Jurisdiction relinquished.

Birchfield’s caveat, the Court merely declined to opine concerning matters outside the scope of the issue upon which certiorari
was granted”) with Birchfield, 136 S. Ct. at 2185 (“Our prior
opinions have referred approvingly to the general concept of
implied-consent laws that impose civil penalties and evidentiary consequences on motorists who refuse to comply . . . and
nothing we say here should be read to cast doubt on them.”).
The dissent also manufactures an illusory circularity problem
where one does not exist in order to reach a conclusion — invalidating all implied consent laws with respect to blood testing
— that no other court has reached. Cf. Rajda, 196 A.3d at 1121
(“[t]he case law interpreting implied consent laws demonstrates that the judiciary overwhelmingly sanctions the use of
civil penalties and evidentiary consequences against DUI suspects who refuse to comply”) (citation omitted); Fitzgerald, 394
P.3d
at
676
(“the
Supreme Court has all but said that anything short of criminalizing refusal does not impermissibly burden or penalize a
defendant’s Fourth Amendment right to be free from an unreasonable warrantless search”). Rather than engaging in a discussion of the dissent’s perceived “paradox,” we need only answer one question: is the evidentiary consequence at issue so
coercive that it renders a motorist’s prospective consent to
blood testing involuntary? As detailed above, the answer to
that question is no.

35a
Chief Justice Saylor and Justices Baer, Todd and
Mundy join the opinion.
Justice Mundy files a concurring opinion in
which Justice Todd joins.
Justice Wecht files a dissenting opinion in which
Justice Donohue joins.

36a

APPENDIX B
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

No. 11 MAP 2018
COMMONWEALTH OF PENNSYLVANIA,
APPELLEE
v.
THOMAS S. BELL,
APPELLANT
Submitted: Nov. 30, 2018
Decided: July 17, 2019
Appeal from the Order of the Superior Court at
No. 1490 MDA 2016, dated July 19, 2017,
Reconsideration Denied September 26, 2017,
Reversing the Order of the Court of Common Pleas of
Lycoming County, Criminal Division, at
No. CP-41-CR- 0001098-2015, dated August 19, 2016
and Remanding for Sentencing
CONCURRING OPINION

37a
Opinion by JUSTICE MUNDY.
I join the Majority as I agree that the evidentiary
consequences of Section 1547(e) remain constitutionally permissible post-Birchfield. See Majority
Opinion at 22. I write separately to add that I would
affirmatively conclude that although Appellant has
the right to refuse a blood test absent a warrant or
a valid exception to the warrant requirement the evidentiary consequences of that refusal are not protected by the Fourth Amendment.
As the Majority indicates, “[t]he United States
Supreme Court’s decisions in [Missouri v.] McNeely
[, 569 U.S. 141 (2013)] and Birchfield [v. North
Dakota, 136 S. Ct. 2160 (2016)], and this Court’s decision in [Commonwealth v.] Myers, [164 A.3d 1162,
(Pa. 2017)] indicate a warrantless blood test, which
is conducted when no exceptions to the warrant requirement apply, violates the Fourth Amendment
rights of a motorist suspected of DUI.” Majority Op.
at 18. It does not follow that the motorist’s right to
refuse the blood test receives the same constitutional protection, or stated differently, there is no
constitutional right of refusal without consequence.
To the contrary, the motorist’s Fourth Amendment
right to be free from a warrantless search is protected when the blood test is not administered absent a warrant, or an exception to the warrant requirement, while the motorist’s implied consent
subjects the motorist to certain consequences. Here,

38a
Section 1547(e) of the implied consent statute allows for the introduction of “evidence along with
other testimony concerning the circumstances of the
refusal. No presumptions shall arise from this evidence but it may be considered along with other factors concerning the charge.” 75 Pa.C.S. § 1547(e).
By asserting Section 1547(e) is unconstitutional,
Appellant urges extension of Birchfield’s holding
that “motorists cannot be deemed to have consented
to submit to a blood test on pain of committing a
criminal offense[,]” to holding any adverse consequence for refusing a blood test is a violation of the
Fourth Amendment. Birchfield, 136 S. Ct. at 2186.
As the case comes to this Court, Appellant was read
the DL-26 form advising him that a refusal to submit to chemical testing could result in an enhanced
penalty. Appellant was not subjected to a warrantless blood test following his refusal, no search was
performed, no BAC evidence exists, and Appellant
was not criminally punished for refusing to comply
with the request for the blood test. Accordingly,
there is no violation of the Fourth Amendment or
the cases decided thus far following Birchfield.
Birchfield did not render implied consent statutes
constitutionally infirm. Rather, it explicitly limited
implied consent statutes by prohibiting states from
criminalizing the refusal to submit to a blood test. I
am hesitant to extend the High Court’s holding beyond the limits of circumstances addressed by the
decision. Therefore, I concur.

39a
Justice Todd joins this concurring opinion.

40a

APPENDIX C
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

No. 11 MAP 2018
COMMONWEALTH OF PENNSYLVANIA,
APPELLEE
v.
THOMAS S. BELL,
APPELLANT
Submitted: Nov. 30, 2018
Decided: July 17, 2019
Appeal from the Order of the Superior Court at
No. 1490 MDA 2016, dated July 19, 2017,
Reconsideration Denied September 26, 2017,
Reversing the Order of the Court of Common Pleas
of Lycoming County, Criminal Division, at
No. CP-41-CR- 0001098-2015, dated August 19, 2016
and Remanding for Sentencing
DISSENTING OPINION

Opinion by JUSTICE WECHT.

41a
In Missouri v. McNeely, 569 U.S. 141 (2013), and
Birchfield v. North Dakota, __ U.S. __, 136 S. Ct.
2160 (2016), the Supreme Court of the United
States altered the Fourth Amendment paradigm in
DUI investigations. The conclusions that the Court
reached, particularly in Birchfield, have a substantial ripple effect upon numerous other question of
constitutional dimension.
Although Birchfield answers quite clearly the
question upon which the Court granted certiorari,
the Court’s discussion regarding the concept of “implied consent” is puzzling. The Birchfield Court’s
opacity on this point prompted substantial disagreement among the members of this Court in Commonwealth v. Myers, 164 A.3d 1162 (Pa. 2017), and we
at that time were unable to reach a consensus regarding the impact of the Birchfield decision upon
Pennsylvania law. This Court has resolved certain
unanswered questions relating to matters such as
the legality of a criminal sentence that implicates
Birchfield. See Commonwealth v. Monarch, 200
A.3d 51 (Pa. 2019). However, since Myers, this
Court has not had an opportunity to address several
other legal questions that remain unresolved in
Birchfield’s wake. These questions relate to the voluntariness of consent, driver’s license suspension,
and admissibility of evidence. In this case, we address the “evidentiary consequence,” Birchfield, 136
S. Ct. at 2185, set forth in 75 Pa.C.S. § 1547(e),
which allows the Commonwealth to introduce evidence at trial of a motorist’s refusal to consent to a

42a
warrantless blood draw, thus suggesting consciousness of guilt.
It is evident to me that all of these unanswered
questions, including the question at bar, have the
same answer. The answer is that a blood test, unlike
a breath test, is an intrusive manner of Fourth
Amendment search, for which there is no readily
available exception to the Fourth Amendment’s
warrant requirement. As such, under established
constitutional doctrine, an individual has a right to
refuse such a warrantless search, and the exercise
of that right may not be penalized, coerced, burdened, manipulated, or involuntarily bargained
away by the State. The Fourth Amendment need not
be strained to reach a contrary conclusion, because
the evidence that is sought remains available, and
the legislative measures designed to secure that evidence all remain permissible. Police officers merely
must obtain search warrants for blood tests, or resort to the exigent circumstances exception when
they cannot. Because, in this case, the failure to obtain a search warrant rendered the blood test unconstitutional, Thomas Bell had a constitutional
right to refuse to consent to that search, and the use
of his refusal as evidence of his guilt placed an impermissible burden upon the exercise of Bell’s
Fourth Amendment rights.
My reasoning follows.

43a

I.

Constitutional Right to Refuse Consent to
an Invalid Search

The instant case implicates constitutional issues
that were not before the Court in McNeely or Birchfield. These decisions nonetheless impact the question presented here, so we must survey the legal
landscape as it now stands in light of the Court’s
analyses in these cases. When a motorist is suspected of DUI, testing of the motorist’s blood alcohol
concentration (“BAC”) is the primary means by
which police officers obtain evidence of the motorist’s crime. Such testing typically requires a sample
of the motorist’s breath or blood. Breath tests and
blood tests both indisputably constitute searches
under the Fourth Amendment. See Birchfield, 136
S. Ct. at 2173 (citing Skinner v. Ry. Labor Execs.’
Ass’n., 489 U.S. 602, 616-17 (1989); Schmerber v.
California, 384 U.S. 757, 767-68 (1966)).
Even in the absence of a search warrant, such
tests once were viewed as constitutional pursuant
to Schmerber, wherein the Court held that a warrantless blood test was permissible because, in light
of the constant dissipation of alcohol from the bloodstream, the officer who arrested a motorist suspected of DUI “might reasonably have believed that
he was confronted with an emergency, in which the
delay necessary to obtain a warrant, under the
circumstances, threatened the destruction of evidence.” Schmerber, 384 U.S. at 770 (citation and
quotation marks omitted). Generalized acceptance

44a
of this theory was particularly understandable following the Court’s dictum in South Dakota v. Neville, 459 U.S. 553 (1983), wherein the Court—addressing whether evidence of a motorist’s refusal to
comply is “testimonial” for purposes of the Fifth
Amendment right against self-incrimination—
stated broadly that “Schmerber . . . clearly allows a
State to force a person suspected of driving while
intoxicated to submit to a blood alcohol test.” Neville, 459 U.S. at 559.
However, in McNeely, the Court clarified
Schmerber, holding that “the natural dissipation of
alcohol in the bloodstream does not constitute an exigency in every case sufficient to justify conducting
a blood test without a warrant.” McNeely, 569 U.S.
at 165. Crucial to the McNeely Court’s reasoning
were the “advances in the 47 years since Schmerber
was decided that allow for the more expeditious processing of warrant applications” such as the remote
communication with a magistrate by telephone, radio, e-mail, and video-conference, as well as “other
ways to streamline the warrant process, such as by
using standard-form warrant applications for
drunk-driving investigations.” McNeely, 569 U.S. at
154-55. In other words, when Schmerber was decided, time constraints created a greater need for an
exception from the warrant requirement than exists
today, with the advent of technology that makes the
acquisition of a search warrant easier and more expeditious than ever before.

45a
Following McNeely, although the dissipation of
BAC evidence “may support a finding of exigency in
a specific case, as it did in Schmerber, it does not do
so categorically.” Id. at 156.1 Rather, “[w]hether a
warrantless blood test of a drunk-driving suspect is
reasonable must be determined case by case based
on the totality of the circumstances.” Id. A question
arose: whether warrantless BAC testing may be justified categorically upon the basis of a different exception to the warrant requirement, such as consent
or the search-incident-to-arrest doctrine? Enter
Birchfield.
The Birchfield decision began with a discussion
of the history, purpose, and operation of “implied
consent” laws, which are designed to encourage a
motorist’s cooperation with BAC testing. “Because
the cooperation of the test subject is necessary when
1 As discussed further below, infra n.9, a plurality of the Supreme Court of the United States now has concluded that, in
the particular circumstance in which a motorist suspected of
DUI is unconscious, the exigent circumstances exception to the
warrant requirement generally will apply. Mitchell v. Wisconsin, __ U.S. __, 139 S. Ct. 2525 (2019) (plurality). This ruling,
however, does not alter McNeely’s application to conscious motorists, nor does it provide any clarity with regard to the question presently at bar. Further, because we do not here consider
a blood draw conducted upon an unconscious motorist, Mitchell
does not inform the analysis with regard to the threshold question of whether the search compelled in this case was permissible under the Fourth Amendment or Article I, Section 8 of the
Pennsylvania Constitution.

46a
a breath test is administered and highly preferable
when a blood sample is taken, the enactment of laws
defining intoxication based on BAC made it necessary for States to find a way of securing such cooperation. So-called ‘implied consent’ laws were enacted to achieve this result.” Birchfield, 136 S. Ct.
at 2168-69.
Although the typical consequences of refusal include suspension or revocation of a motorist’s
driver’s license and the admission of evidence of the
motorist’s refusal in a subsequent prosecution, the
Court observed that “some States have begun to enact laws making it a crime to refuse to undergo testing.” Id. at 2169. Importantly, it was the question of
the constitutionality of criminal punishment for refusal to submit to a warrantless BAC test—and not
the other consequences imposed under implied consent schemes—upon which the Court granted certiorari. See id. at 2172 (“We granted certiorari . . . in
order to decide whether motorists lawfully arrested
for drunk driving may be convicted of a crime or otherwise penalized for refusing to take a warrantless
test measuring the alcohol in their bloodstream.”).
After observing the differences between the facts
of the three petitioners’ cases—Birchfield refused a
blood test and was convicted of a crime; Bernard refused a breath test and was convicted of a crime;
and Beylund submitted to a blood test and his
driver’s license was suspended based upon his

47a
BAC—the Court articulated the framework for resolving the constitutional question at issue. The
Court premised its ratio decidendi upon the following inquiry:
Despite these differences, success for all three petitioners depends on the proposition that the
criminal law ordinarily may not compel a motorist to submit to the taking of a blood sample or to
a breath test unless a warrant authorizing such
testing is issued by a magistrate. If, on the other
hand, such warrantless searches comport with
the Fourth Amendment, it follows that a State
may criminalize the refusal to comply with a demand to submit to the required testing, just as a
State may make it a crime for a person to obstruct the execution of a valid search warrant.
Id. “And by the same token,” the Court added, “if
such warrantless searches are constitutional, there
is no obstacle under federal law to the admission of
the results that they yield in either a criminal prosecution or a civil or administrative proceeding.” Id.
at 2173.
Under Birchfield, the validity of the search is dispositive of the lawfulness of the penalty. Accordingly, the Court began its analysis “by considering
whether the searches demanded in these cases were
consistent with the Fourth Amendment.” Id. The
Court spent the vast majority of its analysis upon
the search-incident-to-arrest doctrine as an excep-

48a
tion to the Fourth Amendment’s warrant requirement, ultimately arriving at the critical distinction
for which the Birchfield decision is now known: “Because breath tests are significantly less intrusive
than blood tests and in most cases amply serve law
enforcement interests, . . . a breath test, but not a
blood test, may be administered as a search incident
to a lawful arrest for drunk driving.” Id. at 2185.
Because a breath test falls within the searchincident-to-arrest doctrine, it is a valid search, and
a state “may criminalize the refusal to comply . . .
just as a State may make it a crime for a person to
obstruct the execution of a valid search warrant.”
Id. at 2172. Thus, Bernard lawfully could be punished for his refusal to comply with a warrantless
breath test. “That test was a permissible search incident to Bernard’s arrest for drunk driving . . . .
Accordingly, the Fourth Amendment did not require
officers to obtain a warrant prior to demanding the
test, and Bernard had no right to refuse it.” Id. at
2186 (emphasis in original).
“Blood tests are a different matter.” Id. at 2178.
The Court reasoned that, due to the necessity of
piercing the skin to extract a vital bodily fluid, due
to the increased expectation of privacy in blood as
compared to breath, and due to the quantum of information that may be gleaned from a blood sample
beyond a mere BAC reading, a blood test is qualitatively different from a breath test. Id. “Blood tests
are significantly more intrusive, and their reasonableness must be judged in light of the availability of

49a
the less invasive alternative of a breath test.” Id. at
2184. The Court added that the government had “offered no satisfactory justification for demanding the
more intrusive alternative without a warrant.” Id.
Thus, the Court held that blood tests do not qualify
for categorical exception from the warrant requirement under the search-incident-to-arrest doctrine.
After concluding that blood tests are too invasive
to fall within the search-incident-to-arrest exception to the warrant requirement, the Birchfield
Court turned to the viability of “implied consent”
laws as an alternative justification for warrantless
blood draws. The Court’s comparatively terse rejection of the proposition has engendered substantial
confusion. The Court reasoned:
Having concluded that the search incident to arrest doctrine does not justify the warrantless taking of a blood sample, we must address respondents’ alternative argument that such tests are
justified based on the driver’s legally implied consent to submit to them. It is well established that
a search is reasonable when the subject consents,
e.g., Schneckloth v. Bustamonte, 412 U.S. 218,
219 (1973), and that sometimes consent to a
search need not be express but may be fairly inferred from context, cf. Florida v. Jardines, 569
U.S. 1, 133 S. Ct. 1409, 1415-16 (2013); Marshall
v. Barlow’s, Inc., 436 U.S. 307, 313 (1978). Our
prior opinions have referred approvingly to the

50a
general concept of implied-consent laws that impose civil penalties and evidentiary consequences
on motorists who refuse to comply. See, e.g.,
McNeely, 133 S. Ct. 1552, 1565-66 (plurality
opinion); South Dakota v. Neville, 459 U.S. 553,
560 (1983). Petitioners do not question the constitutionality of those laws, and nothing we say
here should be read to cast doubt on them.
It is another matter, however, for a State not only
to insist upon an intrusive blood test, but also to
impose criminal penalties on the refusal to submit to such a test. There must be a limit to the
consequences to which motorists may be deemed
to have consented by virtue of a decision to drive
on public roads.
Id. at 2185 (citations modified). Applying the
Fourth Amendment’s governing standard of “reasonableness,” the Court held “that motorists cannot
be deemed to have consented to submit to a blood
test on pain of committing a criminal offense.” Id. at
2186.
An important observation must be made at this
juncture. Post-Birchfield, this Court and many others have considered arguments suggesting that,
pursuant to this passage of Birchfield, warrantless
blood tests conducted under implied consent
schemes do not violate the Fourth Amendment, so
long as refusal does not trigger the imposition of
criminal punishment. Such is the view of the Su-

51a
preme Court of Vermont, upon which today’s Majority relies. See Majority Opinion at 21 (quoting State
v. Rajda, 196 A.3d 1108, 1121 (Vt. 2018) (“In Birchfield, the U.S. Supreme Court has ruled, with respect to the more invasive blood test, that only criminalizing the revocation of implied consent crosses
the line in terms of impermissibly burdening the
Fourth Amendment.”)); see also Fitzgerald v. People,
394 P.3d 671, 676 (Colo. 2017) (“[T]he Supreme
Court has all but said that anything short of criminalizing refusal does not impermissibly burden or
penalize a defendant’s Fourth Amendment right to
be free from an unreasonable warrantless search.”).
Accepting this position requires us to foist upon
Birchfield an untenable reading of the Court’s reasoning. Recall the Birchfield Court’s heuristic for resolving the constitutional question upon which it
granted certiorari: “that the criminal law ordinarily
may not compel a motorist to submit to the taking
of a blood sample or to a breath test” without a warrant, unless “such warrantless searches comport
with the Fourth Amendment,” in which case, “a
State may criminalize the refusal to comply with a
demand to submit to the required testing, just as a
State may make it a crime for a person to obstruct
the execution of a valid search warrant.” Birchfield,
136 S. Ct. at 2172. That is, the validity of the search
is dispositive of the lawfulness of the penalty for
refusal to cooperate—not the other way around. A
State may penalize the obstruction of a valid search,

52a
but it may not penalize an individual for refusing to
acquiesce to an unconstitutional search or seizure.
If we understand Birchfield as holding that warrantless blood draws “comport with the Fourth
Amendment,” id., provided that no criminal penalties attend refusal, then Birchfield cannot be reconciled with itself. If such a search is valid, then its
obstruction may be penalized, “just as a State may
make it a crime for a person to obstruct the execution of a valid search warrant.” Id. But those penalties, under this constricted understanding of Birchfield’s holding, would render the search invalid.
Strike out the penalties, and the search again would
be valid. But as a valid search, it would be permissible to penalize its obstruction. This circular exercise continues ad infinitum, rendering Birchfield incoherent by its own terms.2
2 With respect to this observation, the Majority asserts that I
have “manufacture[d] an illusory circularity problem where
one does not exist.” Majority Opinion at 22 n.14. The problem
is not of my making. Quite simply, the Birchfield Court determined that criminal penalties lawfully may attach to the refusal to submit to a valid search. See Birchfield, 136 S. Ct. at
2172. The Court then concluded (within its discussion of the
government’s alternative “implied consent” argument) that
criminal penalties cannot attach to the refusal to submit to a
warrantless blood test. Id. at 2186. It follows that a warrantless
blood test cannot be deemed categorically valid because, otherwise, the criminal penalties that the Court forbade would be
permissible by its own rationale. What the Majority characterizes as “an illusory circularity problem where one does not exist,” I would call Birchfield’s ratio decidendi.

53a
Avoiding the Birchfield paradox requires only
that we recognize what is implicit in Birchfield’s
reasoning: absent exigent circumstances, a warrantless blood test generally does not “comport with
the Fourth Amendment.” Id. A breath test is categorically valid without a warrant, but a blood test is
not. This was the “compromise” that the Court
reached. See id. at 2198 (Thomas, J., dissenting).
The Court’s thoroughly reasoned distinctions between breath and blood were all in service of that
compromise. At least some consequences of that
compromise are straightforward. Upon lawful arrest of a DUI suspect, police officers may demand
submission to a breath test—without a search warrant—in every case. Birchfield holds that this manner of search “in most cases amply serve[s] law enforcement interests.” Id. at 2185. Because a breath
test is a valid search, refusal to submit may be criminally punished. Id. at 2186. As for blood testing, we
are left with a warrantless Fourth Amendment
search wanting for an exception.
Although statutorily “implied consent” may appear facially to be a viable path to a warrant exception, for all the reasons discussed in our plurality
opinion in Commonwealth v. Myers, 164 A.3d 1162
(Pa. 2017) (plurality), and others, this theory is incompatible with the Fourth Amendment. It bears
mention that the Supreme Court of the United
States has never held that a motorist may be subjected to a warrantless blood draw solely upon the
basis that he or she “consented” to such an intrusion

54a
by obtaining a driver’s license or by driving on public roads. Birchfield certainly does not stand for
such a proposition. Indeed, the suggestion that the
mere omission of criminal penalties renders a blood
draw constitutional under “implied consent” results
in the aforementioned paradox—that obstruction of
a valid search may be penalized but imposing those
penalties renders the search invalid.
Birchfield further undermines the “implied consent” suggestion. In discussing the different benefits that each manner of testing may provide, the
Court noted that, unlike a breath test, a blood test
can
detect substances other than alcohol that may
impair the motorist’s ability to operate a vehicle
safely. The Court reasoned that “[n]othing prevents
the police from seeking a warrant for a blood test
when there is sufficient time to do so in the particular circumstances or from relying on the exigent
circumstances exception to the warrant requirement when there is not.” Birchfield, 136 S. Ct. at
2184 (emphasis added). Similarly, the Court noted
that, unlike a breath test, a blood test may be administered to a person who is unconscious. The
Court stated that it had “no reason to believe that
such situations are common in drunk-driving arrests, and when they arise, the police may apply for
a warrant if need be.” Id. at 2185 (emphasis added).
Finally, a blood test may be necessary where a motorist foils a breath test by failing to provide a sufficient sample. The Court noted that such conduct

55a
may constitute a refusal to comply with breath testing and may be prosecuted as such. “And again, a
warrant for a blood test may be sought.” Id.3 The
Court did not suggest at any point that warrantless
blood testing may be permissible upon the basis of
The Majority characterizes Birchfield’s discussions of the
distinctions between breath testing and blood testing as “dicta”
that I have found “useful.” Majority Opinion at 22 n.14. I must
respectfully disagree with this characterization. Dictum is a
“judicial comment made while delivering a judicial opinion, but
one that is unnecessary to the decision in the case and therefore
not precedential (although it may be considered persuasive).”
Obiter dictum, BLACK’S LAW DICTIONARY (10th ed. 2014). The
distinctions between breath testing and blood testing, and the
relative benefits of each manner of search, were directed toward the Court’s dispositive conclusions that breath tests “in
most cases amply serve law enforcement interests,” Birchfield,
136 S. Ct. at 2185; that the necessity of a blood draw “must be
judged in light of the availability of the less invasive alternative of a breath test,” id. at 2184; that the government had “offered no satisfactory justification for demanding the more intrusive alternative without a warrant,” id.; and, ultimately, the
Court’s conclusion that blood tests do not qualify for categorical
exception from the warrant requirement under the search-incident-to-arrest doctrine. Id. at 2185. Indeed, the drawing of a
constitutionally significant distinction between breath testing
and blood testing was the very core of Birchfield’s holding. If
these passages are “dicta,” it is difficult to discern what is not.
3

By contrast, and by way of illustration, any suggestion in
Birchfield regarding the continued constitutional validity of
“civil penalties and evidentiary consequences” imposed upon
motorists for refusal to consent to a warrantless blood test—
issues that were not before the Court and not essential to its
holding—is more properly characterized as dictum. Id.

56a
a statutory implied consent provision alone. No decision of the High Court ever has so held.
It is incongruous to conclude that a blood test is
too intrusive, and compromises privacy interests too
much, to qualify for categorical treatment under the
search-incident-to-arrest exception to the warrant
requirement, yet may be given categorical treatment under the consent exception. Indeed, comparing the search-incident-to-arrest doctrine to the exception for exigent circumstances, the Birchfield
Court noted that the exigent circumstances exception “has always been understood to involve an evaluation of the particular facts of each case.” Id. at
2183. By contrast, the Court noted, under the
search-incident-to-arrest exception, the “authority
is categorical.” Id. Like the exigent circumstances
exception, the consent exception always has been
understood to require an evaluation of the particular facts of each case, under the totality of the circumstances. See Schneckloth, 412 U.S. at 248-49
(“Voluntariness is a question of fact to be determined from all the circumstances.”); Birchfield, 136
S. Ct. at 2186 (“voluntariness of consent to a search
must be ‘determined from the totality of all the circumstances’”) (quoting Schneckloth, 412 U.S. at
227). It would seem that insulating the more intrusive blood test from such categorical treatment was
the very purpose of the Birchfield Court’s distinction between breath testing and blood testing and
its decision to exclude blood testing from the search-

57a
incident-to-arrest doctrine. If every motorist categorically may be deemed to have consented to this
more intrusive form of search, then the Court’s distinction serves little purpose indeed.
One might construe statutory “implied consent”
to require that a motorist’s Fourth Amendment
rights be curtailed as a condition of exercising the
privilege of driving, or that the decision to exercise
that privilege establishes a motorist’s consent to
blood testing. See Myers, 164 A.3d at 1182 (Saylor,
C.J., concurring) (“[I]t seems to me that the voluntary act of operating a vehicle suffices to establish
the initial consent to chemical testing.”) However,
this understanding of “implied consent” is in tension
with the unconstitutional conditions doctrine. As
the Supreme Court of the United States recently explained, the unconstitutional conditions doctrine
“vindicates the Constitution’s enumerated rights by
preventing the government from coercing people
into giving them up.” Koontz v. St. Johns River Water Mgmt. Dist., 570 U.S. 595, 604 (2013). “[T]he
government may not deny a benefit to a person because he exercises a constitutional right.” Id. (quoting Regan v. Taxation With Representation of
Wash., 461 U.S. 540, 545 (1983)). The Supreme
Court has applied the doctrine “in a variety of contexts” and to constitutional rights as varied as land
ownership, freedom of speech, and the right to
travel. Id. (citing Perry v. Sindermann, 408 U.S. 593
(1972) (speech); Mem’l Hosp. v. Maricopa Cty., 415
U.S. 250 (1974) (travel)).

58a
Under the unconstitutional conditions doctrine,
it is immaterial that driving an automobile is a privilege rather than a fundamental right. See Majority
Opinion at 12-13 (citing PennDOT v. Scott, 684 A.2d
539, 544 (Pa. 1996)). As the Supreme Court of the
United States has explained:
Virtually all of our unconstitutional conditions
cases involve a gratuitous governmental benefit
of some kind. See, e.g., Regan, 461 U.S. 540 (tax
benefits); Mem’l Hosp., 415 U.S. 250 (healthcare);
Perry, 408 U.S. 593 (public employment); United
States v. Butler, 297 U.S. 1, 71 (1936) (crop payments); Frost & Frost Trucking Co. v. R.R.
Comm’n of Cal., 271 U.S. 583 (1926) (business license). Yet we have repeatedly rejected the argument that if the government need not confer a
benefit at all, it can withhold the benefit because
someone refuses to give up constitutional rights.
E.g., United States v. Am. Library Assn., Inc., 539
U.S. 194, 210 (2003) (“[T]he government may not
deny a benefit to a person on a basis that infringes his constitutionally protected . . . freedom
of speech even if he has no entitlement to that
benefit” (emphasis added and internal quotation
marks omitted)); Wieman v. Updegraff, 344 U.S.
183, 191 (1952) (explaining in unconstitutional
conditions case that to focus on “the facile generalization that there is no constitutionally protected right to public employment is to obscure
the issue”).

59a
Koontz, 570 U.S. at 608 (citations modified). Under
this doctrine, and notwithstanding that driving an
automobile is a privilege or a “gratuitous government benefit,” id., the government cannot condition
the exercise of this privilege upon motorists’ relinquishment of their Fourth Amendment rights. The
High Court in Frost long ago reasoned:
It would be a palpable incongruity to strike down
an act of state legislation which, by words of express divestment, seeks to strip the citizen of
rights guaranteed by the federal Constitution,
but to uphold an act by which the same result is
accomplished under the guise of a surrender of a
right in exchange for a valuable privilege which
the state threatens otherwise to withhold. It is
not necessary to challenge the proposition that,
as a general rule, the state, having power to deny
a privilege altogether, may grant it upon such
conditions as it sees fit to impose. But the power
of the state in that respect is not unlimited, and
one of the limitations is that it may not impose
conditions which require the relinquishment of
constitutional rights. If the state may compel the
surrender of one constitutional right as a condition of its favor, it may, in like manner, compel a
surrender of all. It is inconceivable that guaranties embedded in the Constitution of the United
States may thus be manipulated out of existence.
Frost, 271 U.S. at 593-94.

60a
For all these reasons, implied consent does not
pass muster as a basis for dispensing with the warrant requirement for blood tests, or for demanding
that a motorist relinquish his or her Fourth Amendment rights upon occupying the driver’s seat of an
automobile. 4 Absent exigent circumstances, we are

4 Bell placed the unconstitutional conditions doctrine at issue
from the inception of this case. Although the Majority quotes
from Bell’s pre-trial motion to dismiss, it excises Bell’s citation
to the unconstitutional conditions doctrine. Compare Majority
Opinion at 11 (quoting Motion to Dismiss, 3/8/2016, at 2)
(“Pennsylvania’s Implied Consent Law violates Article 1, Section 8 of the Pennsylvania Constitution and the Fourth Amendment to the United States Constitution[,]”) with Motion to Dismiss, 3/8/2016, at 2 (“Pennsylvania’s Implied Consent Law violates Article 1, Section 8 of the Pennsylvania Constitution and
the Fourth Amendment to the United States Constitution under the Unconstitutional Conditions Doctrine.”) (emphasis
added). Regardless, I do not discuss the doctrine as a separate
issue or independent basis for granting relief, but, rather,
merely for the purpose of articulating fully my conclusion on
the threshold issue that underlies the question at bar: that
there is no categorical basis upon which to dispense with the
warrant requirement for blood testing and, thus, no valid
Fourth Amendment search as to which a motorist’s cooperation
lawfully may be compelled.

The Majority opines that the unconstitutional conditions doctrine is “inapplicable” because, due to the statutory right to refuse chemical testing under 75 Pa.C.S. § 1547(b), the “implied
consent law does not condition the privilege of driving upon a
motorist’s submission to future warrantless blood testing.” Majority Opinion at 20 n.12. To the contrary, this is precisely what
the implied consent law does. The statute indeed provides a

61a
left with actual, voluntary consent as the only possible justification for the failure to obtain a search
warrant prior to conducting a blood draw. This is
precisely the inquiry that Birchfield left open when
remanding petitioner Beylund’s case:
The North Dakota Supreme Court held that
Beylund’s consent was voluntary on the erroneous assumption that the State could permissibly
compel both blood and breath tests. Because voluntariness of consent to a search must be ‘determined from the totality of all the circumstances,’
Schneckloth, 412 U.S. at 227, we leave it to the
state court on remand to reevaluate Beylund’s
consent given the partial inaccuracy of the officer’s advisory.
Birchfield, 136 S. Ct. at 2186 (citation modified).
One observation is obvious: an individual has a
constitutional right to refuse to consent to a search
that is not authorized by a warrant or a valid excep-

right of refusal, which allows a motorist to avoid the circumstance in which a blood sample is taken forcibly and against
the motorist’s will. Nonetheless, the statutory scheme, as written, unequivocally demands that a motorist submit to warrantless blood testing. Upon the motorist’s invocation of the statutory right of refusal, the Commonwealth will “suspend the operating privilege” of the motorist. 75 Pa.C.S. § 1547(b)(1). In
other words, the statute unambiguously conditions the privilege of operating a motor vehicle upon the motorist’s submission to warrantless blood testing.

62a
tion to the warrant requirement. Although “the subject’s knowledge of a right to refuse” is not “a prerequisite to establishing a voluntary consent,”
Schneckloth, 412 U.S. at 249, it is nonetheless inherent in the request for consent that the individual
retains a right to decline. For this reason, the Superior Court in the instant case patently erred in concluding that Bell “had no constitutional right to refuse a [warrantless] blood test upon his lawful arrest for DUI.” Commonwealth v. Bell, 167 A.3d 744,
749 (Pa. Super. 2017).
For this conclusion, the Superior Court relied
principally upon a statement to that effect in
Neville. See Neville, 459 U.S. at 560 n.10 (“[A] person suspected of drunk driving has no constitutional
right to refuse to take a blood-alcohol test.”). However, as noted above, Neville addressed only
whether evidence of refusal is “testimonial” for purposes of the Fifth Amendment’s right against selfincrimination. Neville had no Fourth Amendment
component. Accordingly, any comment in Neville regarding the validity of a warrantless blood test under the Fourth Amendment is dictum. Moreover,
Neville’s commentary on this matter was premised
upon the notion that “Schmerber . . . clearly allows
a State to force a person suspected of driving while
intoxicated to submit to a blood alcohol test.” Id. at
559. As noted above, McNeely squarely rejected this
categorical understanding of Schmerber. Accordingly, the Superior Court not only relied upon dicta
for its essential legal conclusion, but outdated dicta

63a
that is irreconcilable with McNeely and Birchfield.
Here, there was no search warrant, no demonstration of exigent circumstances, and no other valid exception to the warrant requirement. Accordingly,
Bell had a constitutional right to refuse to consent
to the unconstitutional search.
II. Penalization of the Exercise of a Constitutional Right

Notwithstanding the fact that the blood test requested of Bell was unconstitutional, authorized by
neither a search warrant nor a valid exception to
the warrant requirement, was it permissible to introduce evidence of Bell’s refusal at trial to prove
his consciousness of guilt? To answer this question
in the affirmative is to disregard the Supreme Court
of the United States’ repeated proclamations that a
State may not penalize the exercise of individual
constitutional rights.
“It has long been established that a State may
not impose a penalty upon those who exercise a
right guaranteed by the Constitution.” Harman v.
Forssenius, 380 U.S. 528, 540 (1965) (citing Frost,
271 U.S. 583). “ ‘ Constitutional rights would be of
little value if they could be . . . indirectly denied’ or
‘manipulated out of existence.’ ” Id. (quoting Smith
v. Allwright, 321 U.S. 649, 664 (1944), and Gomillion v. Lightfoot, 364 U.S. 339, 345 (1960)). Thus, in
Griffin v. California, 380 U.S. 609 (1965), the Court
held that prosecutorial commentary and trial court
instructions that raise an inference of guilt based

64a
upon a defendant’s exercise of his constitutional
right not to testify violate the Fifth Amendment’s
right against self-incrimination. The Griffin Court
reasoned that the use of a defendant’s silence in this
manner “is a penalty imposed by courts for exercising a constitutional privilege.” Id. at 614. “It cuts
down on the privilege by making its assertion
costly.” Id. The Court held that so burdening the exercise of a right is repugnant to the Constitution.
It is true that Griffin, like Neville, was a Fifth
Amendment decision, not premised upon the Fourth
Amendment. However, the Supreme Court has extended Griffin’s reasoning beyond the self-incrimination context to a wholly distinct constitutional
right—the Sixth Amendment right to a jury trial. In
United States v. Jackson, 390 U.S. 570 (1968), the
Court addressed the constitutionality of a provision
of the then-applicable Federal Kidnaping Act, which
authorized the death penalty “if the verdict of the
jury shall so recommend,” but contained “no procedure for imposing the death penalty upon a defendant who waives the right to jury trial or upon one
who pleads guilty.” Id. at 571. The Court reasoned
that the statutory language unconstitutionally disincentivized the defendant’s exercise of the right to
a jury trial:
Whatever might be said of Congress’ objectives,
they cannot be pursued by means that needlessly
chill the exercise of basic constitutional rights.
The question is not whether the chilling effect is

65a
‘incidental’ rather than intentional; the question
is whether that effect is unnecessary and therefore excessive.
Id. at 582. Citing Griffin, the Jackson Court held
that, “[w]hatever the power of Congress to impose a
death penalty for violation of the Federal Kidnaping
Act, Congress cannot impose such a penalty in a
manner that needlessly penalizes the assertion of a
constitutional right.” Id. at 583. Accordingly, the
Court has not limited the rule of Griffin to the right
against self-incrimination, but, rather, has signaled
that Griffin embodies the High Court’s broad disapproval of State action that “impose[s] a penalty upon
those who exercise a right guaranteed by the Constitution.” Harman, 380 U.S. at 540.
Both this Court and our Superior Court, as well
as numerous courts of our sister states, have applied similar reasoning in the Fourth Amendment
context, and have held that the use of an individual’s refusal to consent to a warrantless, unjustified
search cannot be used as evidence of consciousness
of guilt at trial. In Commonwealth v. Welch, 585
A.2d 517 (Pa. Super. 1991), our Superior Court held
that trial testimony regarding a defendant’s refusal
to consent to a search of her bedroom unduly burdened her Fourth Amendment rights. The court reasoned:
As we read the various comments made by the
courts regarding the assertion of one’s Fifth
Amendment right, the overriding tone is that it

66a
is philosophically repugnant to the extension of
constitutional rights that assertion of that right
be somehow used against the individual asserting it. Although the cases have discussed the
Fifth Amendment right we see no reason to treat
one’s assertion of a Fourth Amendment right any
differently. It would seem just as illogical to extend protections against unreasonable searches
and seizures, including the obtaining of a warrant prior to implementing a search, and to also
recognize an individual’s right to refuse a warrantless search, yet allow testimony regarding
such an assertion of that right at trial in a manner suggesting that it is indicative of one’s guilt.
Id. at 519.
This Court recently reached the same conclusion
in Commonwealth v. Chapman, 136 A.3d 126 (Pa.
2016). In Chapman, a capital direct appeal, this
Court addressed the defendant’s claim that “his constitutionally protected refusal to voluntarily surrender a DNA sample to investigators was wrongfully
used against him at trial.” Id. at 129. We rejected
the defendant’s assertion that commentary upon his
failure to consent to a search violated his Fifth
Amendment right against self-incrimination, but
noted that “the circumstances presented implicate a
broader due process concern.” Id. at 131.
“In this regard,” we reasoned, “the admission of
evidence of a refusal to consent to a warrantless
search to demonstrate consciousness of guilt is

67a
problematic, as most jurisdictions hold (outside the
context of implied-consent scenarios) that such admission unacceptably burdens an accused’s right to
refuse consent.” Id. We noted that federal appellate
courts unanimously accept this proposition, as do
numerous state courts. See id. at 131 n.4 (citing, inter alia, United States v. Runyan, 290 F.3d 223, 249
(5th Cir. 2002) (“[T]he circuit courts that have directly addressed this question have unanimously
held that a defendant’s refusal to consent to a warrantless search may not be presented as evidence of
guilt.”); Bargas v. State, 489 P.2d 130, 132 (Alaska
1971) (“It would make meaningless the constitutional protection against unreasonable searches and
seizures if the exercise of that right were allowed to
become a badge of guilt.”)). We further noted, “[a]s
an aside,” that “such treatment contrasts with the
response in scenarios in which a defendant resists
providing a sample during the execution of a duly
authorized search warrant.” Id. (citing United
States v. Ashburn, 76 F.Supp.3d 401, 444-46
(E.D.N.Y. 2014)).
Today’s Majority declines to address the High
Court’s precedents regarding the penalization of the
exercise of constitutional rights. 5 To justify this
The Majority’s insistence to the contrary notwithstanding, I
do not “criticize” the Majority for declining to address the unconstitutional conditions doctrine. Majority Opinion at 19 n.12.
As I explained above, supra n.4, I have discussed that doctrine
for the purpose of addressing the important threshold question
of whether a warrantless blood test may be justified under any
5

68a
omission, the Majority states that Bell does not “cite
to any of the High Court’s cases discussing the penalization of constitutional rights, but instead cites
solely to the distinguishable cases of Chapman and
Welch.” Majority Opinion at 19 n.12. As I discuss
below, Chapman and Welch are not so easily distinguished in light of McNeely and Birchfield. Even
more problematic, however, is the Majority’s perspective with regard to the scope of this Court’s ability to survey applicable and controlling law. Rather
than testing its reasoning against the holdings of
The Supreme Court of the United States, the Major-

of the exceptions to the Fourth Amendment’s warrant requirement—here, consent. The unconstitutional conditions doctrine
is one among several reasons that construing “implied consent”
as a categorical exception to the warrant requirement is a legal
fiction that cannot withstand constitutional scrutiny. See supra
Part I. The doctrine does not control the narrower derivative
question before us, at least not directly.
By contrast, the decisions of The Supreme Court of the United
States disfavoring penalization of constitutional rights are directly relevant to the precise issue presented here. In considering this issue, it is indeed incumbent upon this Court to consult
the limits that the High Court has set in this arena in cases
such as Griffin and Jackson. It is not “spurious” to suggest that
a court of last resort undertake such a review, Majority Opinion
at 19 n.12, nor would the endeavor mean that we would “act as
advocates.” Id. at 20 n.12. Rather, addressing the High Court’s
precedents that bear upon the question before us is part of our
duty as an appellate court to ensure conformity with governing
law.

69a
ity prefers to set a dangerous and unfounded precedent suggesting that the universe of applicable law
is limited to the Table of Citations section of an appellant’s brief.
Notably, the Majority recognizes that “[t]he
United States Supreme Court’s decisions in
McNeely and Birchfield and this Court’s decision in
Myers indicate a warrantless blood test, which is
conducted when no exceptions to the warrant requirement apply, violates the Fourth Amendment
rights of a motorist suspected of DUI.” Majority
Opinion at 18. The Majority also stops short of stating that a statutory implied consent provision supplies such an exception to the warrant requirement.
Faced thus with an individual’s voluntary consent
as the remaining potential justification for the failure to obtain a search warrant for a blood draw, the
Majority declines to recognize the constitutional
significance of the right not to consent, or the impermissibility of penalizing an individual for exercising that right.6 Rather, the Majority avoids ap-

The Majority offers only a conclusory citation to Jenkins v.
Anderson, 447 U.S. 231 (1980), for the proposition that “the
Constitution does not forbid ‘every government-imposed choice
in the criminal process that has the effect of discouraging the
exercise of constitutional rights.’ ” Id. at 236 (quoting Chaffin
v. Stynchcombe, 412 U.S. 17, 30 (1973)); see Majority Opinion
at 18-19. The very next sentence in Jenkins, however, clarifies
that the “threshold question is whether compelling the election
impairs to an appreciable extent any of the policies behind the
6

70a

rights involved.” Jenkins, 447 U.S. at 236 (quoting Chaffin, 412
U.S. at 32). Chaffin, further, noted that the jury sentencing
procedure at issue therein was “utilized for legitimate purposes
and not as a means of punishing or penalizing the assertion of
protected rights.” Chaffin, 412 U.S. at 32 n.20. That is distinct,
Chaffin reasoned, from a practice designed to discourage the
exercise of constitutional rights. Id. (“[I]f the only objective of a
state practice is to discourage the assertion of constitutional
rights it is ‘patently unconstitutional.’ ” ) (quoting Shapiro v.
Thompson, 394 U.S. 618, 631 (1969)).
The sole purpose of the implied consent law’s consequences of
refusal is to induce a motorist’s compliance with chemical testing. Where the motorist has a constitutional right to refuse to
consent—as for a blood test, but not a breath test—the “only
objective” of the evidentiary consequence at issue in this case
is to “discourage the assertion” of that right. Id. In Chaffin’s
parlance, such a practice is “patently unconstitutional.” Id. The
practice is designed to persuade motorists into relinquishing
their Fourth Amendment rights through the promise of future
punishment, so that evidence which otherwise requires a
search warrant may be obtained in the absence of a warrant.
This is a circumvention of the warrant requirement which,
thus, “impairs to an appreciable extent . . . the policies behind”
the Fourth Amendment. Jenkins, 447 U.S. at 236; Chaffin, 412
U.S. at 32. Accordingly, although the Majority is correct that
not every choice in the criminal process that discourages the
exercise of a right is unconstitutional, the choice compelled in
this circumstance bears all of the hallmarks of an unconstitutional practice.
The Majority posits that the evidentiary consequence at issue
“does not solely punish a defendant” but also has a legitimate
purpose of allowing jurors to “understand why the State is not
submitting an evidentiary test in a DUI prosecution.” Majority
Opinion at 19 n.11 (quoting Rajda, 196 A.3d at 1120) (emphasis

71a
plying these principles to the question at bar entirely through resort to dicta and nonbinding authority.
The Majority places substantial weight upon our
parenthetical caveat in Chapman, that “the admission of evidence of a refusal to consent to a warrantless search to demonstrate consciousness of guilt is
problematic, as most jurisdictions hold (outside the
context of implied-consent scenarios) that such admission unacceptably burdens an accused’s right to
refuse consent.” Majority Opinion at 18 (quoting
Chapman, 136 A.3d at 131) (Majority’s emphasis).
Because Chapman involved no such “impliedconsent scenario,” this parenthetical was dictum,
and, as such, has no precedential value. Even more
importantly, the Chapman dictum pre-dates Birchfield. As discussed above, Birchfield necessarily has
altered our understanding of the consequences that
added). Satisfaction of the potential curiosity of a hypothetical
future juror is no justification whatsoever for demanding the
relinquishment of a fundamental constitutional right. Moreover, no such confusion ever is necessary. Police officers simply
can request breath tests—which remain categorically valid under Birchfield even absent a warrant—and/or they can obtain
search warrants for blood tests. In either circumstance, if the
motorist complies, the desired evidence is obtained and may be
placed before the jury. If the motorist refuses, then refusal evidence constitutionally may be introduced, and no juror will
wonder about its absence. There remains no satisfactory justification for compromising the Fourth Amendment simply to
make available evidence easier to obtain.

72a
may attach under statutory implied consent
schemes. Put simply, after Birchfield, there is no
categorical exception to the warrant requirement
for blood tests. Consequently, we must treat a request for consent to submit to a blood test no differently than a request for consent to search a bedroom, as in Welch, or a request for consent to a DNA
test, as in Chapman. As with those other types of
warrantless searches, admission into evidence of
one’s refusal to consent to a warrantless blood test
to demonstrate consciousness of guilt is similarly
“problematic.” Chapman, 136 A.3d at 131. Stated
otherwise, it is unconstitutional.
In addition to the Chapman dictum, the other
central pillar of the Majority’s analysis is the following passage from Birchfield:
Our prior opinions have referred approvingly to
the general concept of implied-consent laws that
impose civil penalties and evidentiary consequences on motorists who refuse to comply. Petitioners do not question the constitutionality of
those laws, and nothing we say here should be
read to cast doubt on them.
Majority Opinion at 21 (quoting Birchfield, 136 S.
Ct. at 2185) (internal citations omitted). The Majority elevates this passage to the same level as the
Court’s holdings on the issue granted for review,
reading the Court’s reservation of these questions
as approval of the practice of penalizing individuals
for their refusal to consent to unconstitutional

73a
searches. See id. (reasoning that the Birchfield
Court “did not back away from its prior approval of
other kinds of consequences for refusal, such as ‘evidentiary consequences’ ” ).
As I read Birchfield’s caveat, the Court merely
declined to opine concerning matters outside the
scope of the issue upon which certiorari was
granted, which was limited to the constitutionality
of criminal punishment for refusal to submit to warrantless BAC testing. To be sure, the Court’s statement that its decision should not be “read to cast
doubt on” such “civil penalties and evidentiary consequences” facially appears to exclude those consequences from the reach of the Court’s holding.
Birchfield, 136 S. Ct. at 2185. However, because the
Birchfield Court resolved the question before it
upon the basis of the validity of the underlying
search, other constitutional doctrines discussed
herein are implicated, and certain consequences of
the Court’s reasoning are inescapable.
Professor Wayne LaFave has addressed the incongruity that results from reading Birchfield’s caveat in the manner that the Majority does today:
While it has been established as a Fifth Amendment matter that a defendant being prosecuted
for driving under the influence may not object to
the admission in evidence against him his refusal
to submit to a sobriety test at the time of arrest,
what of the claim that such evidence is inadmissible as a Fourth Amendment matter? The Court

74a
in Birchfield noted in passing (just as it did earlier in McNeely) that “evidence of the motorist’s
refusal is admitted as evidence of likely intoxication in a drunk-driving prosecution,” and later
cautioned that “nothing we say here should be
read to cast doubt” on such “evidentiary consequences on motorists who refuse to comply.” But
that assertion is misleading at best, for Birchfield’s emphasis on the distinction between when
a defendant’s refusal to submit is constitutionally significant (i.e., for a blood test absent exigent circumstances) and when it is not (i.e., for
all breath tests and for other blood tests) is, by
well-established pre-existing authority, also relevant to the question of whether refusal may be
admitted into evidence to show defendant’s guilt.
What the cases indicate is that when defendant’s
refusal was within the context of a recognized
search-warrant-required category, then the
Fourth Amendment prohibits admission of that
refusal into evidence. . . . But on the other hand,
when it is first determined that no warrant was
required in any event (e.g., taking a breath sample), comment on the refusal is permissible.
4 WAYNE R. LAFAVE & DAVID C. BAUM, SEARCH &
SEIZURE § 8.2(l), at 27 (5th ed. Supp. 2018) (hereinafter, “LAFAVE”) (footnotes and emphasis omitted).
Either the Birchfield Court simultaneously, and
sub silentio, curtailed several distinct constitutional

75a
doctrines—including the principle that an individual may not be penalized for exercising a constitutional right, the bedrock rule that consent to a
search may not be coerced, and the prohibition upon
conditioning the exercise of a privilege upon the relinquishment of a constitutional right—or there is a
simpler answer. I propose a rule that makes sense
of Birchfield and does not run afoul of these other
important constitutional principles. When it comes
to blood testing, the rule is “simple—get a warrant.”
Riley v. California, 573 U.S. 373, 403 (2014). Once
the officer has obtained a warrant for a blood test—
and not a moment before—all of the penalties set
forth in the implied consent law are available and
constitutional.7

Although the consequence of driver’s license suspension is
not at issue herein, I note that Professor LaFave suggests that
the “issue should be resolved in the same fashion” that the
Birchfield Court resolved the issue of criminal penalties, reasoning:
7

While the Birchfield Court stated only that the “limit to the
consequences to which a motorist may be deemed to have
consented by virtue of a decision to drive on public roads” is
passed when “criminal penalties” of any magnitude are imposed, surely the driver who is thus constitutionally protected from a $10 criminal fine must likewise be protected
from the more serious penalty of revocation of driving privileges.

76a
Perhaps the most conceptually challenging consequence of the Birchfield decision is recognizing
that “implied consent” has nothing to do with consent in the Fourth Amendment sense, as it has been
defined in Schneckloth and a legion of other decisions.8 BAC testing generally requires a motorist’s
cooperation, and implied consent laws are statutory
schemes intended “to find a way of securing such cooperation.” Birchfield, 136 S. Ct. at 2168. They do
so by imposing consequences—or penalties—upon
the failure to cooperate. Id. at 2166 (“These laws impose penalties on motorists who refuse to undergo
testing.”) But BAC tests are searches for purposes
of the Fourth Amendment, and Birchfield requires
that, in order to serve as a constitutional basis for
the imposition of such consequences, those searches
must “comport with the Fourth Amendment.” Id. at
2172. Indeed, every time that the Birchfield Court
LAFAVE, § 8.2(l), at 27 (emphasis in original). As with all of the
other consequences set forth in the implied consent law, validation of this penalty is as simple as obtaining a search warrant for a blood test.
8 Indeed, in one of the only mentions of “implied consent” in
the High Court’s recent plurality decision in Mitchell v.
Wisconsin, the Court noted that its previous decisions “have not
rested on the idea that these laws do what their popular name
might seem to suggest—that is, create actual consent to all the
searches they authorize.” Mitchell, 139 S. Ct. at 2533 (plurality). Although the Court’s plurality ruled upon a different basis
and this statement accordingly is not controlling, it provides
insight into the Court’s rationale in Birchfield.

77a
spoke of “implied consent,” it referred to these statutory consequences of refusal, not to an exception to
the Fourth Amendment’s warrant requirement. In
this regard, statutory implied consent provisions
should be regarded as mandates that a motorist cooperate with a valid search, not as mechanisms to
allow circumvention of the requirements of the
Fourth Amendment.
Importantly, where the Majority makes no attempt to recognize or resolve the manifest tension
between its holding and the established constitutional doctrines that its holding compromises, my
analysis of the question at bar not only is consistent
with the reasoning of Birchfield, but provides a constitutionally permissible and jurisprudentially consistent path to the imposition of all of the consequences set forth in the implied consent law. Civil,
criminal, and evidentiary consequences of refusal
all remain constitutional. They have only one prerequisite—a valid search under the Fourth Amendment.
It is perhaps helpful to summarize the application of these principles in practice. Upon conducting
a lawful arrest of a motorist suspected of DUI, a police officer may demand the motorist’s submission
to a breath test. As a valid search incident to arrest,
no search warrant is required. The police officer
may warn the motorist that the failure to cooperate
with the breath test will result in criminal punishment, civil penalties, and evidentiary consequences.

78a
If the motorist complies, then BAC evidence is obtained. If the motorist refuses, then the full complement of consequences set forth in the implied consent law may constitutionally be imposed.
If the police officer wishes to conduct a search of
the motorist’s blood, and the circumstances do not
give rise to an exigency, then a search warrant is
required. Under McNeely, there is no per se exigency. The search-incident-to-arrest doctrine is inapplicable pursuant to Birchfield. Threats of increased criminal penalties, the suspension of the
motorist’s driver’s license, and the use of the motorist’s refusal to consent as evidence of his guilt
should all be regarded as coercive, and inconsistent
with a conclusion “that the consent was in fact voluntarily given, and not the result of duress or coercion, express or implied.” Schneckloth, 412 U.S. at
248. “For, no matter how subtly the coercion was applied, the resulting ‘consent’ would be no more than
a pretext for the unjustified police intrusion against
which the Fourth Amendment is directed.” Id. at
228. At the very least, to ultimately impose any of
these consequences, including the one at issue in
the case at bar, is to penalize the exercise of a constitutional right. Such penalization is impermissible under the well-settled precedents of the Supreme Court of the United States. See, e.g., Harman, 380 U.S. at 540; Griffin, 380 U.S. at 614.

79a
However, once the police officer obtains a search
warrant for a blood test (or establishes a true exigency), the search is valid, and the motorist has no
right to refuse it. At that point, the blood test is
equivalent to a breath test. If the motorist complies,
the desired evidence is obtained. If the motorist refuses, then the full complement of consequences set
forth in the implied consent law may constitutionally be imposed. The only distinction between these
scenarios is that a blood test, but not a breath test,
requires compliance with the Fourth Amendment’s
warrant requirement. Such was the reason that the
Birchfield Court drew a constitutionally significant
distinction between the types of testing at issue.
Things play out very differently under the Majority’s approach. Under today’s holding, the police officer not only may demand the motorist’s submission to a warrantless blood test—an unconstitutional search—but later may testify regarding the
motorist’s refusal to consent to that search, so as to
suggest the motorist’s guilt to a fact-finder. The result is nearly absurd. The police officer is not authorized to perform the search, and the motorist is
therefore constitutionally entitled to refuse consent
to that search. But the motorist, by doing what he
is allowed to do, suffers adverse consequences for
refusing to allow the police officer to do what the
officer is not allowed to do.
To take one further step into the illogical, suppose that the motorist agrees to submit to a breath

80a
test, but not to a blood test. The motorist notes that,
per the Birchfield decision, the breath test may be
compelled, but an officer must get a search warrant
for a blood test. By all appearances, the motorist is
correct, inasmuch as excusing the warrant requirement for the blood test as well would defeat the purpose of the Birchfield Court’s distinction between
breath and blood. Well, replies the officer, although
the motorist is correct with regard to the lawfulness
of criminal penalties that later may attach to a conviction, and although the officer indeed would need
to obtain a search warrant in order for that consequence to be permissible, the motorist nonetheless
must “consent” to the warrantless blood search, or
else face both a lengthy driver’s license suspension
and a prosecutor who will tell the judge or jury that
the motorist was behaving as a guilty person would.
The Majority allows that the warrant requirement applies to blood tests, and that such a test,
“which is conducted when no exceptions to the warrant requirement apply, violates the Fourth Amendment rights of a motorist suspected of DUI.” Majority Opinion at 18. Yet, the Majority contrarily holds
that the blood test nonetheless must be conducted
even without a warrant, lest the motorist face the
penalty at issue in this case. This can be regarded
as nothing other than an end-run around the warrant requirement—a means of permitting the impermissible under the dubious fiction of “consent,”
where such “consent” plainly is compelled by the

81a
threat of sanctions and thus is “no more than a pretext for the unjustified police intrusion against
which the Fourth Amendment is directed.” Schneckloth, 412 U.S. at 248. At no point does the Majority
offer any reason as to why police officers cannot
simply obtain search warrants for blood tests as a
general matter.
With regard to a motorist’s breath, the searchincident-to-arrest doctrine tethers the statutory implied consent consequences to a valid warrantless
search. For a warrantless search of a motorist’s
blood, there is a missing link. To maintain the
Birchfield Court’s distinction between breath and
blood, and to avoid compromising the bedrock constitutional doctrines discussed above, we must conclude that using a motorist’s refusal to consent to a
warrantless and otherwise-unjustified blood test as
evidence of his consciousness of guilt unacceptably
burdens the motorist’s Fourth Amendment rights.
Because there is no categorical basis for dispensing
with the warrant requirement for blood tests, and
because there is a concomitant constitutional right
to refuse to consent to such a warrantless search,
the introduction of a motorist’s refusal to consent to
a warrantless blood test as evidence of his guilt is
“a penalty imposed by courts for exercising a constitutional privilege.” Griffin, 380 U.S. at 614. “It cuts
down on the privilege by making its assertion
costly.” Id. Because the “only objective” of this practice is to “discourage the assertion” of that constitutional right so as to avoid the warrant requirement,

82a
it is “patently unconstitutional” as applied to warrantless blood testing. Chaffin, 412 U.S. at 32 n.20.
Moreover, because the search warrant process
provides a simple, routine, and well-understood
mechanism to validate a blood test, and therefore to
establish a constitutional prerequisite to the imposition of penalties for refusal to comply, the admission of evidence of refusal to consent to a warrantless blood test not only penalizes the exercise of a
constitutional right, but it does so “needlessly.”
Jackson, 390 U.S. at 583 (“Congress cannot impose
such a penalty in a manner that needlessly penalizes the assertion of a constitutional right.”).
Sometimes, Fourth Amendment decisions have
difficult consequences, in that they can result in the
unavailability of evidence necessary to prosecute a
guilty person. This is not one of those cases. The evidence that the Commonwealth seeks remains available in every circumstance, either through a categorically valid warrantless breath test or by “seeking a warrant for a blood test when there is sufficient time to do so” or “relying on the exigent circumstances exception to the warrant requirement
when there is not.” Birchfield, 136 S. Ct. at 2184.
We need not and should not strain the Fourth
Amendment in order to find ways for the Commonwealth to obtain blood evidence without a search
warrant. Rather, for blood tests, we should simply
enforce the Fourth Amendment’s warrant requirement.

83a

III. Article I, Section 8 of the Pennsylvania Constitution

For all of the foregoing, I have relied exclusively
upon federal constitutional jurisprudence, which I
believe clearly establishes Bell’s entitlement to relief in this matter. However, as I noted at the outset,
Birchfield and McNeely have left significant unanswered questions in their wake, questions that have
placed the governing federal law “in a state of flux”
for the past several years. Pap’s A.M. v. City of Erie,
812 A.2d 591, 607 (Pa. 2002). Under such circumstances, “this Court has not hesitated to render its
independent judgment as a matter of distinct and
enforceable Pennsylvania constitutional law.” Id. If
today’s Majority is unwilling to take the short step
necessary to fill in the gaps left by Birchfield as a
matter of federal constitutional law, we should do so
under our own Constitution. 9
As noted above, since this Court undertook consideration of
this appeal, the Supreme Court of the United States decided
Mitchell v. Wisconsin. See supra n.1. Although the Court
granted certiorari to decide “[w]hether a statute authorizing a
blood draw from an unconscious motorist provides an exception
to the Fourth Amendment warrant requirement,” Mitchell, 139
S. Ct. at 2532, a plurality of the Court ultimately ruled upon
the basis of the general applicability of the exigent circumstances exception where a motorist suspected of DUI is “unconscious and therefore cannot be given a breath test.” Id. at 2531.
Mitchell, thus, does not offer any clarity as to the important
questions left open in Birchfield with regard to the contours of
“implied consent” or the validity of the consequences imposed
under “implied consent” statutes. Because the High Court
9

84a
The Majority concludes that Bell’s substantive
claim under the Pennsylvania Constitution is
waived because Bell failed to “develop an argument
that the Pennsylvania Constitution provided any independent grounds for relief” in his pre-trial motion
or in his motion for reconsideration. Majority Opinion at 11. A litigant who already has placed an issue
before the trial court is not required to reassert that
issue in a motion for reconsideration on pain of
waiver. The Majority cites no authority for such a
conclusion. Cf. Pa.R.Crim.P. 720(B)(1)(c) (“Issues
raised before or during trial shall be deemed preserved for appeal whether or not the defendant
elects to file a post-sentence motion on those issues.”).
As for the contents of Bell’s pre-trial motion, the
Majority cites to the inapposite case of Commonwealth v. Chamberlain, 30 A.3d 381 (Pa. 2011).
Chamberlain, however, did not involve a Pennsylvania constitutional claim that was underdeveloped
below, but, rather, one that was not raised at all in
the trial court. See Chamberlain, 30 A.3d at 404-05
(noting Commonwealth’s argument that claim was
waived because “Appellant did not raise a state due
process claim . . . before the trial court”). Because
the claim in Chamberlain was raised for the first
time on appeal, we naturally found it waived under
again has left these important questions unresolved, the need
for independent consideration under our own Constitution is
all the more acute.

85a
Pa.R.A.P. 302(a). But Bell expressly raised an Article I, Section 8 claim before the trial court. See
Motion to Dismiss, 3/8/2016, at 2 (“Pennsylvania’s
Implied Consent Law violates Article 1, Section 8 of
the Pennsylvania Constitution and the Fourth
Amendment to the United States Constitution under the Unconstitutional Conditions Doctrine.”). As
such, both Rule 302 and the reasoning of Chamberlain are inapplicable here.
All that remains, then, is the Majority’s contention that Bell’s claim was “general” and thus insufficient under Commonwealth v. Lagenella, 83 A.3d
94, 99 n.3 (Pa. 2013), Commonwealth v. Galvin, 985
A.2d 783, 793 n.15 (Pa. 2009), and Commonwealth
v. Starr, 664 A.2d 1326, 1334 n.6 (Pa. 1995). See
Majority Opinion at 11-12 n.8. The referenced footnotes contained in Laganella, Galvin, and Starr,
however, all merely note that the respective appellants did not advance the argument in their briefs
to this Court, such that this Court would not embark
upon an independent analysis of the Pennsylvania
Constitution sua sponte, and instead would deem
the applicable constitutional provisions to be coterminous for purposes of the decision. Neither Laganella, Galvin, nor Starr found waiver under Rule
302 for the appellants’ failure to “develop” a Pennsylvania constitutional claim before the lower court,
as the Majority does today. 10
To the extent that the Majority’s opinion may be read to
suggest that such “development” necessitates that a challenger
10

86a
Bell raised his claim before the trial court under
the Fourth Amendment and Article I, Section 8 of
the Pennsylvania Constitution. He was the appellee
in the Superior Court, and thus bore no issuepreservation burden. Bell’s Article I, Section 8 claim
was included expressly within our grant of allocatur.11 Bell develops his claim further before this
Court, and engages in an Edmunds analysis. Under
such circumstances, a retrospective finding of
waiver based upon the absence of preferred language in a pre-trial motion is exceedingly harsh,
and leaves future litigants with little guidance regarding the steps that they must take in the trial

present to the trial court an analysis under Commonwealth v.
Edmunds, 586 A.2d 887 (Pa. 1991)—the form of development
that this Court prefers—I emphasize that we never have required such on pain of waiver. See, e.g., Commonwealth v. Arroyo, 723 A.2d 162, 166 n.6 (Pa. 1999) (failure to engage in an
Edmunds analysis in lower court “does not result in waiver of
a state constitutional claim”).
11

We granted allowance of appeal in order to consider:
Whether § 1547(e) of the Vehicle Code, 75 Pa.C.S. § 1547(e),
is violative of Article 1 Section 8 of the Pennsylvania Constitution and the Fourth Amendment to the United States
Constitution to the extent that it permits evidence of an arrestee’s refusal to submit a sample of blood for testing without a search warrant as proof of consciousness of guilt at the
arrestee’s trial on a charge of DUI?

Commonwealth v. Bell, 183 A.3d 978 (Pa. 2018) (per curiam)
(emphasis added).

87a
court so that this Court will not deem their claims
waived.
I would hold simply that blood tests require compliance with the warrant requirement under Article
I, Section 8 of the Pennsylvania Constitution. Resolution of the remaining questions left open in Birchfield then falls into place.
I respectfully dissent.
Justice Donohue joins this dissenting opinion.

88a

APPENDIX D
IN THE SUPERIOR COURT OF PENNSYLVANIA

No. 1490 MDA 2016
COMMONWEALTH OF PENNSYLVANIA,
APPELLENT
v.
THOMAS S. BELL,
APPELLEE
Argued: May 3, 2017
Filed: July 17, 2019
Appeal from the Court of Common Pleas of
Lycoming County, Criminal Division
No. CP-41-CR- 0001098-2015
OPINION

Before: JACQUELINE O. SHOGAN, GEOFF MOULTON,
Judges, and CORREALE F. STEVENS, President Judge
Emeritus.
Opinion by President Judge Emeritus STEVENS.
The Commonwealth appeals from the order entered by the Court of Common Pleas of Lycoming

89a
County awarding Appellee Thomas S. Bell a new
trial. The Commonwealth claims the trial court
erred in finding that the prosecution’s admission of
evidence of Appellee’s refusal to submit to a blood
test at his trial on driving under the influence (DUI)
charges violated his Fourth Amendment right to be
free from unreasonable searches.
As we conclude that it is constitutionally permissible to deem motorists to have consented to the specific provision of Pennsylvania’s Implied Consent
Law that sets forth evidentiary consequences for the
refusal of chemical testing upon a lawful arrest for
DUI, we reverse and remand for sentencing.
On May 16, 2015, officers initiated a traffic stop
of Appellee’s vehicle after observing that Appellee
did not have his taillights properly illuminated. After approaching the vehicle, officers noticed Appellee’s breath smelled of alcohol and his eyes were
glossy and bloodshot. Appellee admitted to recently
consuming four beers, was unsteady on his feet, and
failed to perform field sobriety testing satisfactorily.
Appellee’s breath test revealed his blood alcohol
concentration (BAC) was .127%. Officers placed Appellee under arrest for DUI and transported him to
the Williamsport Hospital for blood testing. After
Appellee was read the DL–26 Chemical Testing
Warnings, he refused to submit to a blood sample.
On May 18, 2015, Appellee was charged with
DUI—general impairment (75 Pa. C.S.A. §
3802(a)(1)) and a summary charge for required

90a
lighting (75 Pa.C.S.A. § 4302(a)(1)). On March 8,
2016, Appellee filed a pre-trial motion to dismiss the
DUI charge, specifically arguing that he had a constitutional right to refuse to submit to a warrantless
blood test. Thus, Appellee claimed that his refusal
to submit to a blood test should have been suppressed. On April 28, 2016, the trial court denied
Appellee’s motion.
On the same day, Appellee proceeded to a bench
trial in which the Commonwealth was permitted to
introduce testimony from the arresting officer detailing how Appellee had refused a blood test. The
officer explained that Appellee had asserted that he
not want a needle in his arm because he claimed
that he had contracted hepatitis from a hospital
needle on a prior occasion. At the conclusion of the
trial, Appellee was convicted of the DUI charge and
the summary traffic violation.
On July 1, 2016, Appellee filed a motion for reconsideration of the trial court’s denial of his motion
to dismiss, arguing that evidence of his refusal to
submit to a blood test should have been deemed inadmissible at trial. Specifically, Appellee cited to
the recent decision in Birchfield v. North Dakota,
––– U.S. ––––, 136 S. Ct. 2160, 2186, 195 L.Ed.2d
560 (2016), in which the Supreme Court found that
implied consent laws cannot deem motorists to have
given consent to criminal penalties upon their refusal to submit to chemical testing. On August 19,

91a
2016, the trial court entered an order granting Appellee a new trial at which the prosecution would
not be allowed to introduce evidence of Appellee’s
refusal. The Commonwealth filed this timely appeal.
We review a trial court’s decision to grant or deny
a motion for a new trial under an abuse of discretion
standard.1 Czimmer v. Janssen Pharm., Inc., 122
A.3d 1043, 1051 (Pa.Super. 2015). Moreover,
[w]e must review the court’s alleged mistake and
determine whether the court erred and, if so,
whether the error resulted in prejudice necessitating a new trial. If the alleged mistake concerned an error of law, we will scrutinize for legal
error. Once we determine whether an error occurred, we must then determine whether the
trial court abused its discretion in ruling on the
request for a new trial.

1 We note that the trial court entered this order granting a
new trial before entering a judgment of sentence. However,
‘‘[i]nterlocutory appeals as of right are permitted from orders
in criminal proceedings awarding a new trial where the Commonwealth claims that the lower court committed an error of
law.’’
Commonwealth v. MacDougall, 841 A.2d 535, 536–37
(Pa.Super. 2003) (citing Pa.R.A.P. 311). As this is the procedural posture before us, we may proceed to review the trial
court’s actions.

92a
Id. (quoting ACE Am. Ins. Co. v. Underwriters at
Lloyds and Cos., 939 A.2d 935, 939 (Pa.Super.
2007)).
The Commonwealth argues that Appellee is not
entitled to a new trial as it was constitutionally permissible for the prosecution to introduce evidence of
Appellee’s refusal to consent to a warrantless blood
test at his trial on DUI charges to show consciousness of guilt. Appellee asserts that he had a constitutional right to refuse the warrantless blood test
pursuant to Birchfield; thus, Appellee argues the
admission of the refusal evidence penalized him for
exercising a constitutional right.
Before reaching the parties’ specific arguments,
we begin by discussing the statutory scheme and related decisional law governing chemical testing of
individuals suspected of DUI and related traffic offenses. Our courts have established that driving is
a privilege, not a fundamental right. Commonwealth, Dep’t of Transp., Bureau of Driver Licensing v. Scott, 546 Pa. 241, 250, 684 A.2d 539,
544 (1996); Commonwealth v. Jenner, 545 Pa.
445, 681 A.2d 1266, 1273 (1996). To hold this privilege, drivers must meet necessary qualifications
and comply with the terms of the Implied Consent
Law (75 Pa.C.S.A. § 1547), which requires motorists
to submit to chemical sobriety tests when requested
to do so by an authorized law enforcement officer
under the specific circumstances outlined in the

93a
statute. As a general rule, Section 1547 provides in
pertinent part:
Any person who drives, operates or is in actual
physical control of the movement of a vehicle in
this Commonwealth shall be deemed to have
given consent to one or more chemical tests of
breath or blood for the purpose of determining
the alcoholic content of blood or the presence of a
controlled substance if a police officer has reasonable grounds to believe the person to have been
driving, operating or in actual physical control of
the movement of a vehicle:
(1)

in violation of section . . . 3802 (relating to
driving under influence of alcohol or controlled substance) . . .

75 Pa.C.S.A. § 1547(a)(1).
The Implied Consent Law sets forth penalties to
be imposed upon a person who is arrested for DUI
and refuses to submit to chemical testing. First,
Section 1547(b) requires the Pennsylvania Department of Transportation to suspend the driver’s license for at least one year. 75 Pa.C.S.A. § 1547(b).
Second, Section 1547(e) allows for evidence of the
motorist’s refusal to submit to chemical testing to
be admitted at his or her criminal trial on DUI
charges:
(e) Refusal admissible in evidence.—In any
summary proceeding or criminal proceeding in
which the defendant is charged with a violation

94a
of section 3802 or any other violation of this title
arising out of the same action, the fact that the
defendant refused to submit to chemical testing
as required by subsection (a) may be introduced
in evidence along with other testimony concerning the circumstances of the refusal. No presumptions shall arise from this evidence but it
may be considered along with other factors concerning the charge.
75 Pa.C.S.A. § 1547(e).
In addition to license suspension and evidentiary
consequences in DUI prosecution for refusal of
chemical testing, the Legislature also set forth criminal penalties for individuals who are convicted of
DUI charges in a separate section of the Vehicle
Code; Section 3804(c) provides that a motorist who
is convicted of DUI under Section 3802 and refused
to submit to testing shall be sentenced to enhanced
penalties as delineated in that provision. 75
Pa.C.S.A. § 3804(c).
In post-trial motion, Appellee limited his argument to challenge the application of Section 1547(e)
in this case as the prosecution was allowed to admit
evidence of his refusal at his trial on DUI charges.
As the trial court granted Appellee’s post-trial motion and awarded him a new trial before Appellee
was sentenced, Appellee was not subjected to the

95a
criminal penalties set forth in Section 3804(c). 2 The
trial court granted Appellee’s post-trial motion as it
found that the admission of evidence of Appellee’s
refusal to submit to a warrantless blood test penalized Appellee for refusing to waive his Fourth
Amendment right to be free from warrantless
searches.
The Fourth Amendment of the United States
Constitution provides that the “right of the people
to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures,
shall not be violated.” U.S. Const. amend. IV. Blood
tests and breath tests constitute searches under the
Fourth Amendment as they implicate privacy concerns. Birchfield, 136 S. Ct. at 2173. See also
Commonwealth v. Ellis, 223, 415 Pa.Super. 220,
608 A.2d 1090, 1091 (1992) (providing that “the administration of a blood test is a search within the
meaning of the Fourth Amendment if it is performed by an agent of the government”).
As a general rule, the Fourth Amendment requires that, in order to conduct a search of an individual or his or her property, law enforcement must
obtain a warrant, supported by probable cause and
issued by a neutral magistrate. Commonwealth v.

In its appellate brief, the Commonwealth states that pursuant to Birchfield, Appellee’s sentence could not be enhanced
as a result of his refusal of chemical testing
2

96a
Arter, ––– Pa. ––––, 151 A.3d 149, 153 (2016). Although a warrantless search is per se unreasonable,
this rule is subject to several established exceptions,
which includes the consent exception. Commonwealth v. Evans, 153 A.3d 323, 327–28 (Pa.Super.
2016). While trial court recognized Appellee was not
subjected to a governmental search as he refused to
submit to blood testing, the trial court asserted that
Appellee’s “exercise of his Fourth Amendment right
to be free from warrantless searches cannot be used
as evidence of consciousness of guilt.” Trial Court
Opinion, 8/22/16, at 3.
Though not expressly stated, the trial court’s rationale for granting Appellee a new trial derives
from principles set forth in Griffin v. California,
380 U.S. 609, 85 S. Ct. 1229, 14 L.Ed.2d 106 (1965),
in which the Supreme Court of the United States
held that the commentary made by the trial court
and prosecutor suggesting to the jury that the defendant’s failure to testify at trial could be considered evidence of guilt impermissibly burdened the
defendant’s privilege against self-incrimination.
The Court rejected this commentary as “a penalty
imposed by courts for exercising a constitutional
privilege.” Id. at 614, 85 S. Ct. at 1229.
Nevertheless, the Supreme Court declined to extend the penalty analysis set forth in Griffin to a
case involving a defendant’s refusal to submit to
warrantless blood testing. In South Dakota v.
Neville, 459 U.S. 553, 103 S. Ct. 916, 74 L.Ed.2d

97a
748 (1983), the Supreme Court concluded that the
admission of evidence of a defendant’s refusal of a
warrantless blood test did not violate Appellee’s
Fifth Amendment right against self-incrimination
or his Fourteenth Amendment right to due process.
The Court acknowledged its previous decision in
Schmerber v. California, 384 U.S. 757, 86 S. Ct.
1826, 16 L.Ed.2d 908 (1966), in which it had concluded that the prosecution’s admission of the results of a compelled blood test in the defendant’s
trial on DUI charges did not violate the defendant’s
Fifth Amendment right against selfincrimination as
blood evidence was not testimonial, but merely
physical.
In reaching its ultimate conclusion that Appellee’s right against self-incrimination and right to
due process had not been violated, the Neville
Court observed that the specific rule set forth in
Griffin forbidding commentary on a defendant’s refusal to testify at trial was inapplicable as ‘‘a person
suspected of drunk driving has no constitutional
right to refuse to take a blood-alcohol test.’’ Id. at
560 n.10, 103 S. Ct. 916. The Court explained that
the right to refuse a blood or breath test is not one
of ‘‘constitutional dimension’’ but rather is ‘‘simply
a matter of grace bestowed by the [state] legislature.’’ Id. at 565, 103 S. Ct. 916.
Consistent with this federal precedent, this
Court has also emphasized that an individual sus-

98a
pected of drunk driving does not have a constitutional right to refuse chemical testing. In Commonwealth v. Graham, 703 A.2d 510 (Pa.Super. 1997),
the appellant argued that trial counsel was ineffective in failing to move to suppress the results of his
warrantless blood test as the appellant claimed his
consent had been coerced in violation of the Fifth
Amendment when he was informed that his refusal
would be used as evidence of guilt in a trial on DUI
charges. Thus, the appellant claimed that Section
1547(e), which sets forth the evidentiary consequences imposed on a motorist who refuses to submit to chemical testing upon a lawful arrest for DUI,
was an unconstitutional penalty to the exercise of
an individual’s right to refuse the test.
However, the Graham Court concluded that the
evidentiary consequences for the refusal of a blood
test set forth in Section 1547(e) did not violate the
appellant’s constitutional rights, as the appellant’s
‘‘right to refuse the blood test is derived only from
Section 1547 itself and not from the Constitution.’’
Id. at 512. This Court emphasized that there is:
no constitutional right to refuse chemical testing.
. . . [D]riving in Pennsylvania is a civil privilege
conferred on individuals who meet the necessary
qualifications set forth in the Vehicle Code. . . .
Under the terms of the Implied Consent Law, one
of the necessary qualifications to continuing to
hold that privilege is that a motorist must submit
to chemical sobriety testing, when requested to

99a
do so by an authorized law enforcement officer in
accordance with the prerequisites of the Implied
Consent Law. The obligation to submit to testing
is related specifically to the motorist’s continued
enjoyment of the privilege of maintaining his operator’s license.
Commonwealth v. Graham, 703 A.2d 510, 512
(Pa.Super. 1997) (quoting Commonwealth v.
Stair, 548 Pa. 596, 699 A.2d 1250 (1997) (equally
divided Court)). See also Scott, 546 Pa. at 250, 684
A.2d at 544 (same).
Based on the reasoning set forth in Neville and
Graham, we find Appellee had no constitutional
right to refuse a blood test upon his lawful arrest for
DUI and thus, it was constitutionally permissible
for the prosecution to introduce evidence of this refusal at his trial on DUI charges.
The trial court’s reliance on Birchfield is misplaced; this decision does not support the trial
court’s assertion that Appellee had a constitutional
right to refuse chemical testing. In Birchfield, the
Supreme Court of the United States reviewed the
constitutionality of implied consent laws that criminalize a driver’s refusal to undergo warrantless
chemical testing upon a lawful arrest for drunk
driving. In the course of doing so, the High Court
assessed whether the search-incident-to-arrest exception to the Fourth Amendment could justify warrantless chemical testing. After analyzing the impact of blood and breath tests on individual privacy

100a
interests as well as the need for BAC tests in criminal prosecution, the Court concluded that law enforcement may require a motorist to submit to warrantless breath testing as a search incident to an arrest for drunk driving; however, this exception does
not justify warrantless blood testing, which is a
more intrusive process.
Nevertheless, while the High Court rejected the
application of the search-incident-to-arrest exception to compel a motorist to submit to a blood test,
it expressed approval of implied consent laws that
deem a motorist to have consented to be subject to
certain penalties if they refuse to submit to a warrantless blood test upon his or her arrest for DUI.
Acknowledging the consent exception to the warrant requirement, the Court provided as follows:
It is well established that a search is reasonable
when the subject consents, and that sometimes
consent to a search need not be express but may
be fairly inferred from context. Our prior opinions have referred approvingly to the general
concept of implied-consent laws that impose civil
penalties and evidentiary consequences on
motorists who refuse to comply. Petitioners do
not question the constitutionality of those
laws, and nothing we say here should be
read to cast doubt on them.
Birchfield, 136 S. Ct. at 2185 (emphasis added) (citations omitted). See also Missouri v. McNeely,
569 U.S. 141, 133 S. Ct. 1552, 1556, 185 L.Ed.2d 696

101a
(2013) (plurality) (acknowledging with approval
that implied consent laws are employed as a tool to
secure BAC evidence as ‘‘most States allow the motorist’s refusal to take a BAC test to be used as evidence against him in a subsequent criminal prosecution’’).
While expressing approval of the imposition of
civil penalties and evidentiary consequences on motorists who refuse to comply with chemical testing
upon their arrest, the Birchfield Court concluded
that it was unreasonable for implied consent laws to
impose criminal penalties to punish a motorist for
refusing consent. The Supreme Court’s decision in
Birchfield did not provide that the an individual
has a constitutional right to refuse a warrantless
blood test, but stressed that ‘‘there must be a limit
to the consequences to which motorists may be
deemed to have consented by virtue of a decision to
drive on public roads.’’ Birchfield, 136 S. Ct. at
2185 (emphasis added).
Based on the Supreme Court’s language approving civil penalties set forth in implied consent laws,
we conclude that it is reasonable to deem motorists
to have consented to civil penalties such as license
suspension and evidentiary consequences if they
choose to refuse to submit to chemical testing upon
a lawful arrest for DUI.
For the foregoing reasons, we conclude that Appellee was not entitled to a new trial based on the
admission of evidence of his refusal to submit to a

102a
warrantless blood test. Accordingly, we reverse the
trial court’s order and remand for sentencing.
Order reversed. Remand for sentencing. Jurisdiction relinquished.

103a

APPENDIX E
IN THE COURT OF COMMON PLEAS
OF LYCOMING COUNTY, PENNSYLVANIA

No. CR 1098 2015
CRIMINAL DIVISION
COMMONWEALTH OF PENNSYLVANIA,
v.
THOMAS S. BELL,
DEFENDANT
Argued: July 15, 2016
Filed: Aug. 19, 2016
Motion for Reconsideration
OPINION AND ORDER

Before the Court is Defendant’s Motion for Reconsideration, filed July 1, 2016. Argument on the
motion was heard July 15, 2016, following which the
Commonwealth requested and was granted a period
of time in which to file a responsive brief. That brief

104a
was filed August 15, 2016 and the matter is now ripe
for decision. 1
By Order dated April 28, 2016, this court denied
Defendant’s Motion to Dismiss, which sought to dismiss count 1 of the Information, driving under the
influence of alcohol (refusal). 2 Defendant had argued that he had a constitutional right to refuse to
submit a sample of his blood for testing without a
search warrant and that the refusal should be suppressed and the charge dismissed.3 After a nonjury trial, held that date, Defendant was convicted
of the charge and sentencing was scheduled for
August 29, 2016.
In the instant motion for reconsideration, Defendant points to the recent decision of the Supreme
Court of the United States in Birchfield v. North
Dakota, 136 S. Ct. 2160, 2172 (2016), where the
Court addressed the issue of “whether motorists
lawfully arrested for drunk driving may be convicted of a crime or otherwise penalized for refusing
to take a warrantless test measuring the alcohol in
their bloodstream”. With respect to at least blood

1

Defendant filed a response to that brief on August 17, 2016.

2

75 Pa. C.S. Section 3802(a)(1).

3 The motion was denied based on the reasoning in Commonwealth v. Altman, No. CR-2011-2013 (August 15, 2014).

105a
tests,4 the Court answered the question in the negative.
After holding that warrantless blood tests violate a
motorist’s Fourth Amendment right to be free from
unreasonable searches, the Court also rejected the
claim that consent (presumed under the impliedconsent laws) eliminates the need for a warrant,
concluding that “there must be a limit to the consequences to which motorists may be deemed to have
consented by virtue of a decision to drive on public
roads”, 5 and that “motorists cannot be deemed to
have consented to submit to a blood test on pain of
committing a criminal offense”. 6
The Commonwealth agrees that under Birchfield, Defendant’s sentence cannot be enhanced because of the refusal in this case. The issue has thus
become whether Defendant should be granted a new
trial because evidence of the refusal was introduced
to show consciousness of guilt, 7 and, in this case, the
court in explaining its verdict indicated that that
evidence was instrumental in the conviction.
Initially, the Commonwealth argues that Defendant waived his right to now raise this issue as
4

Breath tests were held to not violate the Fourth Amendment.

5

Birchfield v. North Dakota, 136 S. Ct. 2160, 2185 (2016).

6

Id. at 2186.

Defendant is not entitled to have the charge dismissed because the refusal was not an element of the crime.
7

106a
he did not object at trial to the officer’s testimony
regarding Defendant’s refusal. The court does not
agree that the issue has been waived. First, at the
time of trial, evidence of the refusal was necessary
for later sentencing purposes, and any objection
would have been futile. Moreover, Defendant did
raise the issue in his motion to dismiss, which was
argued and ruled on just prior to trial. The court will
therefore address the merits of the issue.
In Commonwealth v. Welch, 585 A.2d 517 (Pa.
Super. 1991), wherein the defendant had refused a
warrantless search of her bedroom, the Superior
Court held that one’s exercise of his Fourth Amendment right to be free from warrantless searches cannot be sued as evidence of consciousness of guilt. 8
In reaching this conclusion, the Court reasoned as follows:
“As we read the various comments made by the courts regarding the assertion of one’s Fifth Amendment right the overriding
tone is that it is philosophically repugnant to the extension of
constitutional rights that assertion of that right be somehow
used against the individual asserting it. Although the cases
have discussed the Fifth Amendment right we see no reason to
treat one’s assertion of a Fourth Amendment right any differently. It would seem just as illogical to extend protections
against unreasonable searches and seizures, including the obtaining of a warrant prior to implementing a search and to also
recognize an individual’s right to refuse a warrantless search
yet allow testimony regarding such an assertion of that right
at trial in a manner suggesting that it is indicative of one’s
guilt. To allow such testimony essentially puts the individual
in the same kind of no win situation that would exist if the
above outlined decisions were to the contrary. With respect to
8

107a
The Court stated: “The point of significance is that
one should not be penalized for asserting a constitutional right. It is the assertion of a right that we
must focus on. We believe that the assertion of a
right cannot be used to infer the presence of a guilty
conscience.” Id. at 520. Since Birchfield has now declared that there is a Fourth Amendment right to be
free from warrantless blood tests following arrest
for drunken driving, it follows under Welch that evidence of a defendant’s refusal to take such a test
cannot be used as evidence of consciousness of guilt.
In their brief, instead of addressing Welch, the
Commonwealth instead points to a recent Franklin
County decision which addressed the same issue
raised herein: Commonwealth v. Oliver, No. 52 of
2015 (Franklin County, Zook. J., August 5, 2016).
Relying on Commonwealth v. Graham, 703 A.2d 510
(Pa. Super. 1997), which relied on Schmerber v.
the Fifth Amendment one would be forced to choose between
speaking
after arrest at the expense of possibly incriminating himself, or
refusing to speak and having this fact brought up at trial
thereby inferentially incriminating himself. With respect to a
search, one would have to choose between allowing a search of
one’s possessions, or having the refusal be construed as evidence that one was hiding something. To the extent an assertion of such a right will often be construed by the lay juror as
an indication of a guilty conscience, allowing testimony of the
assertion of the right will essentially vitiate any benefit conferred by the extension of the right in the first instance, thus,
rendering the right illusory.

108a
California, 384 U.S. 757 (1966), the court concluded
that “a defendant has no constitutional right to refuse a chemical test in the Commonwealth of Pennsylvania” and, therefore, “such evidence is admissible at trial”. Commonwealth v. Oliver, supra, at 910. Schmerber and Graham both addressed the
Fifth Amendment privilege against self-incrimination, however, and cannot control on this issue when
the United States Supreme Court has just announced that there is a Fourth Amendment right to
refuse a warrantless blood test. This court does not
agree with Franklin County’s dismissal of Birchfield simply because it did not address the evidentiary issue presented herein. Rather than being of
“little assistance”, Id. at 5, Birchfield is the foundation upon which the analysis should be built.
The court does recognize the statement in Birchfield, deemed controlling by the court in Oliver,
wherein the Court noted that “[o]ur opinions have
referred approvingly to the general concept of
implied-consent laws that impose civil penalties
and evidentiary consequences on motorists who refuse to comply” and that “nothing we say here
should be read to cast doubt on them.” As the evidentiary issue presented herein was not before the
Court, however, this court concludes that the reference to evidentiary consequences is merely dicta
and does not require a different result from that

109a
reached herein. 9 After all, the Court had framed the
issue as one of “whether motorists lawfully arrested
for drunk driving may be convicted of a crime or otherwise penalized for refusing to take a warrantless
test measuring the alcohol in their bloodstream”.
Birchfield, supra, at 2172. Considering our Superior
Court’s determination, with which this court agrees
that by allowing the use of evidence of one’s exercise
of a constitutional right against him, one is being
“penalized”, the matter is clearly controlled Birchfield’s main point: a warrantless blood test violates
a defendant’s right to be free from unreasonable
searches and he thus has a constitutional right to
refuse it, which refusal cannot provide the basis for
him to be convicted of a crime or otherwise penalized.
Accordingly, in light of this court’s consideration
at trial of Defendant’s refusal, and the weight given
that evidence by this court as factfinder, the court
enters the following:

ORDER
AND NOW, this 19th day of August 2016, the
matter having been reconsidered and for the foregoing reasons. Defendant’s request that Count 1 be
The Court may very well have been referring to civil evidentiary consequences.
9

110a
dismissed is hereby DENIED, but the request for a
new trial is hereby GRANTED. The Deputy Court
Administrator is requested to list this case during
the next trial term. The sentencing hearing scheduled for August 29, 2016 is hereby cancelled.
BY THE COURT
/s/ Dudley N. Anderson
Dudley N. Anderson, Judge

Cc:

Eileen Dgien, DCA
DA
Peter T. Campana, Esq.
Gary Weber, Esq.
Hon. Dudley Anderson

111a
APPENDIX F
IN THE COURT OF COMMON PLEAS
OF LYCOMING COUNTY, PENNSYLVANIA

No. CR-1098-15
COMMONWEALHTH OF PENNSYLVANIA, PLAINTIFF
v.
THOMAS BELL, DEFENDANT
Apr. 28, 2016
TRANSCRIPT OF TRIAL BEFORE THE
HONORABLE DUDLEY N. ANDERSON

APPEARANCES:
FOR THE PLAINTIFF:
ANTHONY CUICA, ESQ.
FOR THE DEFENDANT:
PETER T. CAMPANA, ESQ.
[3]
THE COURT: Okay,
good morning. We
are here for proceedings in the matter of Commonwealth versus Thomas Bell.
I understand we are
scheduled for a non-jury trial. And I understand
there is also recently received here a motion to dismiss, is that correct?

112a
MR. CUICA: That’s correct, Your Honor.
THE COURT: And Mr. Campana, you filed
this, and I think I understand pretty much the background of the whole thing. And I understand that
there is a seminal decision that is pending before, is
it the Supreme Court of the United States?
MR. CAMPANA:

Yes, Your Honor.

THE COURT: And that very basically the issues has been decided in Pennsylvania, but that you
wish to–
MR. CAMPANA:
THE COURT:

Preserve the issue.

Preserve the issue.

MR. CAMPANA: Right. What happened was
the Supreme Court granted certiorari in the cases
from [4] North Dakota and from Minnesota on the
issue after I had filed my omnibus. So that’s why this
was filed late. At the time that I filed the omnibus,
I didn’t know that the U.S. Supreme Court was going
to hear the issue. It had already been decided
against us, so I didn’t bother filing it. But once I realized the U.S. Supreme Court was going to make a
decision, I wanted to file it to preserve the record.
THE COURT:

Okay.

MR. CAMPANA: So it’s untimely, but I believe the interest of justice exception–the Commonwealth won’t be prejudiced by the late filing.
THE COURT: Mr. Cuica, you didn’t say anything about the timeliness. I assume that you are
okay with it?

113a
MR. CUICA: Judge, I am not. I was telling
Mr. Campana that I thought that Your Honor would
still hearing the motion. But for the record, I did
want to object to untimeliness because this arraignment was July 27th of 2015. We did however,
through conversations between Defendant and Commonwealth, agree that as of October 2, 2015, the Defense would have 30 days to file any motions. So the
deadline would be November 2nd of 2015, which is
what I am saying was the deadline, and this, you
know, wasn’t filed until [5] March 8th of this year,
last month. So clearly that’s is past the November
2, 2015 deadline. So I did want to note that it’s
untimely.
THE COURT: But is there any prejudice that
lows to the Commonwealth?
MR. CUICA: Well my answer to that Judge is
that the prejudice would be that we are on the day of
trial arguing this motion. However–
THE COURT:

Well you’re not really.

MR. CUICA: Well not really. So in other
words, what bothers me about that is the rules, the
timeliness rules don’t mean anything in the sense
that well what do they mean, because the deadline
was November 2nd of 2015, and it’s filed in March.
And the prejudice, the only prejudice I can show
Judge is that, you know, we are at the day of trial
now arguing this motion that really should be a motion decided before trial date. But I am not trying to
say there is a strong prejudice, but I believe do that–

114a
I wanted to make it clear for the record that it is an
untimely filing.
MR. CAMPANA: I think this could have been
raised in a motion for judgment of acquittal after the
Commonwealths presentation. Actually I think that
you can preserve the Constitutional issue by a demurrer or [6] a motion for judgment of acquittal.
But the reason it wasn’t filed is because, as I
said, the Supreme Court took these matters up after
November, earlier this year.
THE COURT: How do you want me to handle
it Mr. Campana? You know I am going to follow
Pennsylvania law on it.
MR. CAMPANA:

Right, right.

THE COURT: I am going to follow that. And
I am not going to grant your motion to dismiss. And
do you want me to go ahead and do that and then
you preserve the reconsideration, or are you going to
appeal it or what?
MR. CAMPANA: Well I don’t think there is going to be an appeal of anything, because I think there
is a reasonable doubt about whether or not Mr. Bell
was in fact impaired here. So that I think the Court
is going to find him not guilty anyway.
THE COURT:

Okay.

MR. CAMPANA: So I would just like to have
the Court rule on the substance of the issue, and not
deny it because procedurally it was untimely. Because I don’t think the Commonwealth is prejudice

115a
at all, because the facts are the facts. Refused the
blood test.
[7]
THE COURT: Right. Okay. You’re right Mr.
Cuica, and normally I would strike it for timeliness
if it involved some kind of substantive issue where
you were forced to bring in witnesses and testimony
and that kind of thing. But in this particular instance, I think all the facts are stipulated to.
I think the decision is a foregone conclusion. The
only thing that he is asking the Court to do is to preserve the issue in the event that the Supreme Court-in the event that he loses here, and that the Supreme Court decides against North Dakota, Minnesota and Pennsylvania, okay?
MR. CUICA: Understood Your Honor.
THE COURT: Okay.
So with that
mind, are you ready now to proceed to trial?
MR. CAMPANA:

in

Yes, Your Honor.

THE COURT: With respect to the this particular matter Mr. Cuica, is there anything you would
like to say by way of opening or preface your remarks
in any way or are there any stipulations that you
would like to present to me?
MR. CUICA: No, Your Honor.
THE COURT: Mr. Campana, is there anything as far as opening statement or anything preliminary before we take evidence that you would like
to present to me?

116a
[8]
MR. CAMPANA: No, Your Honor, I waive
opening statement. It’s our position that the Commonwealth will not have sufficient evidence to establish beyond a reasonable doubt of impairment required for DUI.
THE COURT:
proceed?
MR. CUICA:
THE COURT:
your first witness?

Mr. Cuica, are you ready to
We are, Your Honor.
Okay. Would you like to call

MR. CUICA: Yes, Your Honor. The Commonwealth would call Sergeant David Pletz to the stand.
THE COURT:

Good morning Sergeant.

DAVID PLETZ
having been duly sworn, was called as a witness
and was examined and testified as follows:
DIRECT EXAMINATION
BY MR. CUICA:
MR. CUICA: Your Honor, I should make this
clear. I have sequestered my two witnesses that I
would be calling after Sergeant Pletz. I don’t know if
Defense has any witnesses, but if they do, I would
just request they be sequestered at this time.
THE COURT:

Off the record.

(The Judge addresses a high school class that
is observing the case.)

117a
[9]
Q Would you please state your full name for the
record?
A David Pletz.
Q And could you spell your last name?
A Sure, it’s P-l-e-t-z.
Q And what is your current occupation?
A I am a Penn College Police Sergeant at Penn
College.
Q And what is your actual rank?
A Sergeant.
Q How long have you been employed by the Penn
College Police Department?
A It will be 19 years in July.
Q Now Sergeant, do you have training in the detection of impaired drivers?
A Yes, I do.
Q Can you please describe that training?
A Sure. I have been to the standard field sobriety
testing class updates. There is ARIDE training that
I have been to. DUI checkpoint training, DUI detection courses.
Q And over your career, approximately how
many times have you stopped a driver that you believe might be impaired?

118a
A By that question, the way I would answer that
[10] is that would be if I was following a vehicle and
they may do something to lead me to believe they
were impaired, you know, by whatever that is that
they’re doing, I would say 200 times possibly.
Q And Sergeant, do you arrest everyone who you
initially believe to be impaired?
A No.
Q Why not?
A There is multiple steps. There is the driving
portion, you know, you see clues on the road. Then
there is the initial contact phase where you’re actually making face to face contact with the people on a
traffic stop. There is things that you could notice
there. And then there is the field sobriety testing after that.
Q And so after you have conducted personal contact with the drivers that you suspect may be driving
under the influence, you made the determination
that they’re not actually impaired due to alcohol?
A Sure, sometimes that happens.
Q Now how many times have you actually arrested someone? Approximately how many times
have you actually arrested someone for driving while
impaired?
A Fifty or 60 times. I have actually been on day
shift since 1999, so they’re harder to come by.
[11]

119a
Q And Sergeant, when you do arrest someone
that you believe is impaired, do you arrest based on
only one indication of impairment?
A No, it would be a combination of from, you
know, whether it’s driving, the initial contact, and
then the standard field sobriety testing.
Q I am going to direct your attention to the traffic
stop we are here for today. Were you working on Saturday, May 16, 2015?
A Yes, I was.
Q And what were your duties on that date?
A That was part of a saturation patrol we were
working in the City of Williamsport. We were targeting high crime areas. Basically our job was to patrol
those high crime areas and look for criminal activity;
whether it be, you know, initiated by traffic stop or
pedestrian encounter, whatever we came across.
Q And were you working by yourself or did you
have a partner?
A I had a partner. Corporal Bowers from Penn
College Police also, she was with me.
Q And were you in full uniform?
A Yes.
Q Were you in a marked patrol unit?
A Yes, we were.
[12]
Q And who was driving the unit?

120a
A I was driving.
Q Is there an in-car camera recording system on
that unit?
A No, there is not.
Q Where were you at approximately 11 p.m. on
May 16th?
A We were on–in the 700 block of West Fourth
Street traveling west.
Q And what did you observe that brings us to
court here today?
A Well we had noticed a gray VW Beetle. Initially
it was parked along the road on the left-hand side,
like across from the Shamrock or Weightman Block
area. It was facing west also. And we noticed it was–
it pulled out from the curb to the red light. We had a
red light. We were behind it. Once it pulled out to
the red light, we noticed that it had no rear lighting.
So at that point we just–we stayed behind it, you
know, just pulled out, and so we thought, okay, well
they’re turn left, south, onto Campbell Street in the
300 block. We gave a little bit of time. They still
didn’t turn the lights on. And it was dark, I mean it
was completely dark. And then we initiated the traffic stop there in the 300 block of Campbell Street [13]
southbound.
Q And you were conducting that stop on the 300
block of Campbell. Is that within the actual direct
jurisdiction of the Penn College Police Department?
A Yes, it is.

121a
Q Were you eventually able to identify the driver
of the vehicle?
A Yes, I was.
Q Is the driver of that vehicle in the courtroom
here today?
A Yes. It’s the Defendant, the gray polo shirt on–
or button up shirt.
MR. CUICA: Your Honor, would the record
identification of the Defendant?
THE COURT:

It does.

BY MR. CUICA:
Q Did you approach the Defendant’s vehicle on
foot after conducting the stop?
A Yes, I did.
Q And what happened as you approached his vehicle?
A The driver’s door popped open, and the Defendant Mr. Bell, his window didn’t work, it didn’t go
down and that’s why he opened the door.
Q But Mr. Bell was still in the car?
[14]
A He was still in the car, yes.
Q Were you able to smell any odor coming from
the Defendant?
A Yes. Once I got there, I asked for his–. I told
him why I stopped him. Asked for his driver’s
license, registration, proof or insurance. He couldn’t

122a
provide a driver’s license on him at the time. So, you
know, I was able to converse with him briefly, told
him why we out there, why I made the stop. Noticed
the odor of alcohol coming from his breath and he
had glossy eyes.
Q And sir, how many people were in the vehicle?
A Two people; him and a front seat passenger,
who appeared to be sleeping actually when we first
stopped the vehicle.
Q And was there a male or female?
A Female.
Q Now after checking on the Defendant’s information, or obtaining his information, did you go back
to your patrol vehicle to check on anything?
A Yeah. I went back to run the information that
he had given me for his driver’s license. I am sure I
checked for wants and warrants and run the registration check, the insurance card, things like that.
[15]
Q And then you returned to the Defendant’s vehicle, is that correct?
A Yes, I did.
Q Did you ask him to exit the vehicle?
A Yes. I asked him how many he had to drink,
because it was obvious that he was consuming
alcohol. And he had mentioned that he drank four
beers that night prior to driving. I asked him to step

123a
out of the car at the rear of the car to perform field
sobriety tests, which he agreed to do.
As he stepped out of the car, he seemed uneasy
on his feet, kind of, I don’t know, almost like somebody that was sitting for hours and hours, and then
when he first gets up and gets out and just kind of
shaky on the way back to the rear of the vehicle.
Q And to start, did you ask him to perform field
sobriety tests?
A Yes, I did.
Q And it might be a little repetition, but have you
had training in administering field sobriety tests?
A Yes, I have.
Q And what specifically was that training?
A The standard field sobriety testing, as well as
ARIDE, there was a refresher for that in that class,
[16] and the check point class, went over it again.
Q And what is the purpose of administering field
sobriety tests?
A They’re just–they’re just tests you administer
to the drivers who you suspect is impaired. And
there are clues, there are specific clues for each test
that you look for, which, you know if they had a certain number of clues on each test it would indicate
impairment.
Q What test did you administer first to the Defendant?
A The walk and turn test.

124a
Q And did you instruct the Defendant how to perform that test?
A Yes, I did.
Q And did you also demonstrate that test for him
at least in part?
A I did, the entire test.
Q And did you observe the Defendant perform
that test?
A Yes, I did.
Q And could you please describe how he performed on that test?
A Sure. During the walk and turn test, there is
actually eight specific clues that we look for. And
[17] out of those eight clues, I noticed four of the
eight, which would indicate impairment with Mr.
Bell as he did the test. They would be when he first
started walking, the first three steps, he kind of
raised his hands for balance on the first three steps
out. It’s nine steps out, you turn around and nine
steps back basically. So on the first three steps he
used his arms for balance. And after he turned
around for the return steps, between the second and
third steps he missed his heel to toe by more than an
inch and stepped off the line, which was three clues.
And then he ended it on eight steps, which is another
clue, the wrong number steps. So there was four out
of eight total, which based on the training would indicate impairment for that.
Q And what test did you administer next?

125a
A The one leg stand. There is–in that test there
is four specific clues that we look for. And based on
the performance on that test, Mr. Bell, I was able to
see three out of the four clues, two of which at a minimum would indicate impairment.
Those clues in that particular test were the
ones that he showed. He raised his hands for balance, he swayed while he was standing there and he
put his foot down during the test. It’s a [18] timed 30
second test. And then he ended up stopping completely at 25 seconds, which isn’t a specific clue, but
it is a fact.
Q And prior to the Defendant performing the
test, did you instruct him how to perform the test?
A Yes, I did .
Q And did you demonstrate that test for him as
well?
A Yes, I did.
Q And so what did the results of that one leg
stand test indicate to you?
A It indicated clear impairment in my judgment.
Q And Sergeant, based on your experience and
training, and your observations of the Defendant
during this stop, did you form an opinion as to
whether he had imbibed in a sufficient amount of alcohol rendering him incapable of safely driving?
A Yes, I did. I would–I concluded that he was
clearly impaired and incapable of safe driving.
Q And what did you do as a result of that?

126a
A He was taken into custody for suspected DUI
and transported to the Williamsport Hospital DUI
Center for processing.
Q And so when you arrived at the DUI Center,
what did you actually physically do with the Defendant?
[19]
A When we get there, there is like two little
rooms. We were in the first room, Corporal Bowers
and I. Mr. Bell was taken into the second little room
where he was being processed by Officer Litwhiler,
who I believe who was working the DUI Center at
the time. I have paperwork that I have to fill out for
the phlebotomist, and that was what I was doing in
the outer room initially.
Q Did you have any additional contact with the
Defendant after you transferred him to the custody
of the DUI Center?
A I don’t know if I consider contact. But I never
went in the other room, and he never came out while
I was there. Generally speaking you fill out the paperwork out there and then you just leave, you drop
him off. They process them, they give the blood, read
them the DL26, and then we would just leave and go
back on patrol.
In this case there was some verbal communication between the three of us, Litwhiler, and Mr. Bell.
There was a conversation between the two of them
regarding field sobriety, I think maybe Litwhiler

127a
asked if field sobriety was given in the field, and I
indicated yes, it was.
I think Mr. Bell had actually asked [20] to do
it again at the hospital, but Litwhiler was working
by himself. And I guess it’s their policy they don’t do
field sobriety at the DUI Center if they’re working
by their self. So Litwhiler asked me, you know, unless the officer wants to do it again. Any my opinion
at that time was I have already done the field sobriety in the field, you know, he's clearly impaired
based on that, so there was no point in really doing
it over again.
Q Okay.
A Because it would have been the exact same test
again.
MR. CUICA: Okay, thank you Sergeant. I
have no other questions Your Honor.
CROSS EXAMINATION
BY MR. CAMPANA:
Q Sergeant Pletz, you stopped the vehicle at
about 11 p.m., is that correct, a little after 11 p.m.?
A Yeah, that sounds right.
Q And the reason you stopped it was because the
rear lighting was not operating?
A Yeah, there was no rear lighting. I think what
it actually was, I think maybe the car was equipped
with some kind automatic daytime running lights,
and maybe they were on in the front. I am not [21]
sure. But there was no rear lighting.

128a
Q Okay, buy there was headlights, the headlights
were working?
A There may have been headlights.
Q And when the vehicle pulled away from the–it
was what a parked on the south side of Fourth Street
between what is that, Mifflin and Campbell?
A Yes.
Q And it pulled away from the curb?
A Yes.
Q Went to the red light?
A In the left lane.
Q And it stopped?
A Right.
Q But did the vehicle, did the operator put the
left turn signal on?
A I don’t recall for sure. I didn’t–I don’t–I don’t
remember citing him for that, so I would imagine it
was probably on.
Q All right.
A The brake lights worked.
Q The brake lights worked?
A The brake lights worked, which that is why we
knew, okay, that the lights were not on on the car.
Q Okay. Now this was a Volkswagen Beetle?
[22]

129a
A Yes.
Q And did do you tell the Defendant that you
stopped him because the rear lights weren’t on?
A Because the lights weren’t on, yes.
Q Did he tell you that there were two switches,
one for the headlights and one for the rear lights,
and he wasn’t used to the Volkswagen and he only
turned the headlights, is that what he told you?
A I don’t–I don’t recall that.
Q You don’t recall that.
A No.
Q All right. Okay now you said that he did open
the door when you approached, and although he
didn’t have his driver’s license, he did have the insurance card and the registration card?
A Sure.
Q Did he actually tell you his driver’s license
number at that time so that you could check it out?
A He would have either given me that, or more
likely his name and date of birth, and I could verify
it in the vehicle using JNET.
Q All right. Then once you detected an odor of alcohol and had him come out of the vehicle, at that
point you performed these field sobriety tests?
A Yes.
[23]

130a
Q And the reason for these tests is to determine
whether there are reasonable grounds to place the
Defendant under arrest, is that fair to say?
A That’s part of it, yes.
Q All right. And you said on the walk and turn
test that he kind of raised his hands on the first
three steps. What do you mean by kind of?
A Is that what I said? He raised his hands for balance.
Q Well I mean how-A Like if you are walking on a tightrope, and you
raise your hands as, you know, as you go along. It
was–it was was clear the instruction phase of the
test tells you to keep your hands at your sides. And
I demonstrated that. And so he raised them significantly.
Q Okay. How far away from his legs did his arm
go?
A For me to mark that down as a clue, I mean he
would have to–it would have to be clearly out here to
the side at least.
Q All right. So the first three steps he did that,
but then the last–I guess he only took a total of eight
steps?
A On the return. He took nine steps out, [24]
turned around and came back eight, yes.
Q So the first three steps he raised his hands and
then the next six he didn’t, and eight steps back he
didn’t raise his hands?

131a
A Correct.
Q And you said he missed heel to toe between the
second and third. Was that on the way–the first nine
or the last eight?
A The last eight.
Q All right. So the second and third he missed the
heel to toe by a little more than an inch?
A By more than an inch. That’s the basis that you
use. You have to miss your heel to toe by more than
an inch.
Q How much more than an inch?
A It was clearly more than an inch, or I wouldn’t
have marked it, because that’s the standard.
Q All right.
A And he stepped off the line on the same step.
Q Well there actually was no line.
A Right.
Q It’s an imaginary line.
A Right.
Q And this is 11:15 at night?
A Right.
[25]
Q And it was in the middle of Campbell Street
that he was doing this?

132a
A It was on Campbell Street in front of the police
car with the headlights on, with the overhead lights
turned off.
Q Before you had him do the walk and turn, did
you ask him whether he had any difficulty or any injury to his legs?
A I asked if he was able to perform the test.
Q Is it fair to say that there are other reasons
why someone would not perform these tests other
than being impaired by alcohol, such as fatigue, is
that what would interfere with someone’s ability to
do these tests?
A I don’t know that fatigue would play a part in
that test.
Q How about just lack of coordination generally?
A Possibly. I mean it’s a split attention test with
coordination involved.
Q How about age? Would that have an affect on
A Could play a part in coordination. That’s why
there is more to it than just a single test.
Q Okay. If you have a physical defect in your [26]
legs, would that perhaps interfere with your ability
to perform the walk and turn test, as possessed to
being impaired by alcohol?
A I would imagine it would depend on what that
defect is.
Q All right. And the one leg stand, do you recall
which leg he stood on?

133a
A I don’t actually. It was his choice. I didn’t specify which one.
Q Now you said on the one leg stand he swayed
while balancing.
A Right.
Q What do you mean by that?
A Swaying while balancing would mean like,
okay, even if he did keep his hands at the side, which
he didn’t, it would be like, you know, doing this kind
of a number while they’re trying to balance. So that
would be swaying. And then he also did raise his
hands for balancing, and he put his foot down.
Q So he was able to stand on one leg for 20 seconds and then he put his foot down?
A Put his foot down at 25 seconds.
Q Twenty-five seconds?
A It’s a 30 second test, so you’re suppose to remain–it’s–.
[27]
Q So he was able to stand on one leg for 25 seconds?
A Yes.
Q Although he was somewhat unsteady?
A Right.
Q Is that fair to say?
A Right.

134a
Q And at the time you had him doing these tests,
did you know that the vehicle was not equipped with
a video?
A Yes.
Q So based upon these tests, you concluded you
had reasonable grounds to place him under arrest?
A Yes.
Q And then you took him to the DUI Processing
Center and as far as the DL-26 and all, that was
done by the operator at the center?
A Right.
Q Okay. Had you ever seen Mr. Bell before this
night?
A Not that I recall, no.
Q Now you said that his speech seemed somewhat muddled or slurred?
A Yes.
Q Do you know how his speech–how he speaks
[28] normally? Did you ever speak to him before that
night or after that night?
A No.
Q All right. As far as you’re asking him if he had
anything to drink, he said four beers. Did he tell you
when he last consumed one?
A No.
Q Did you ask him?

135a
A He said he was at a party, like a cabin party or
picnic or something like that if I recall.
Q Now you said that you were on saturation patrol. I take it you were not working for Penn College
at the time?
A I got paid by Penn College.
Q But you were on duty under the District Attorney’s request?
A That’s why we were out that night, yes, initially.
Q And Penn College paid you, but they got reimbursed by the County?
A I assume they got reimbursed.
Q And did you think about the possibility that
you would have to get a search warrant to seize his
blood at all, or were you relying completely on the
implied consent law?
[29]
A Yeah, I never considered a search warrant for
blood, no.
MR. CAMPANA:
Honor.
THE COURT:
MR. CUICA:

That’s all I have Your

Any redirect?
Very briefly, Judge.

136a
REDIRECT EXAMINATION
BY MR. CUICA:
Q Sir, did the Defendant ever state that he had
any kind of physical ailments to you that would preclude him from performing the field sobriety tests?
A No.
Q And you smelled an odor of alcohol from the
Defendant?
A Yes.
Q Was it a relatively smooth surface where you
conducted these field sobriety tests?
A Yes. It was right on the street.
MR. CUICA: I have nothing else.
THE COURT:
I assume your car is not
equipped with a video?
THE WITNESS: It is not. We don’t have any
video in any of our cars currently.
RECROSS EXAMINATION
BY MR. CAMPANA:
Q Let me ask you this in response to that.
[30] There is video at the DUI Processing Center.
A Yes.
Q So if the Defendant–if you had allowed the Defendant to do the field sobriety tests there, it would
have been on videotape and you knew that, is that
right?

137a
A I didn’t think about it that way, but yeah, it
would have been.
MR. CAMPANA:

Okay, that’s all I have.

MR. CUICA:

Nothing else.

THE COURT:

Thank you.

MR. CUICA: Your Honor, I will call Corporal
Jen Bowers.
JENNIFER BOWERS
having been duly sworn, was called as a witness and was examination and testified as follows:
DIRECT EXAMINATION
BY MR. CUICA:
Q Good morning.
A Good morning.
Q Could you please state your full name?
A Jennifer Bowers.
Q And would you spell your last name?
A B-o-w-e-r-s.
Q And what is your current occupation?
[31]
A I am a police officer at Penn College in Williamsport.
Q And how long have you been employed by that
Agency?
A Sixteen years.

138a
Q And what is your current rank?
A I am a corporal.
Q Corporal, I am going to direct your attention to
Saturday, May 16th of 2015. Were you working on
that date?
A I was.
Q And what were your duties on that date?
A I was working saturation patrol with Sergeant
Dave Pletz.
Q And were you in full uniform?
A I was.
Q And marked patrol unit?
A Yes.
Q And was Sergeant Pletz driving?
A Yes, he was.
Q Can you tell the Court what happened at approximately 11 p.m. that brings us to court here today?
A Yes. We spotted a vehicle with a taillight out
in the 700 block of West Fourth Street.
[32]
Q And did you and Sergeant Pletz conduct a traffic stop of that vehicle?
A Yes.
Q Do you remember approximately where you
conducted the stop?

139a
A 300 block of Campbell Street.
Q And was the Defendant the driver of that vehicle?
A Yes.
Q Did you approach the vehicle along with Sergeant Pletz?
A Yes.
Q And could you describe how you approached
the vehicle?
A I approached the passenger side.
Q And what did you observe when you arrived at
the passenger side window?
A I observed that he had a passenger in the vehicle, and he was speaking to Sergeant Pletz.
Q And was the passenger in the front seat?
A Yes.
Q Front seat passenger?
A Yes.
Q Was it a male or female?
A Female.
[33]
Q Did you notice anything unusual about the Defendant at all?
A I noticed as he was speaking he was slurring
his speech.

140a
Q And could you smell any odor when you were
next to the vehicle?
A I could smell an alcoholic beverage corning
from the vehicle.
Q Now Sergeant Pletz conducted field sobriety
tests, is that right?
A That’s correct.
Q Were you able to observe these tests at all, or
were you doing something else?
A My function was backup officer, so I usually
make sure our area is safe for Sergeant Pletz and the
Defendant and the passenger. So I was up towards
the vehicle more speaking to the passenger of the vehicle.
Q So you didn’t really observe the field sobriety
tests?
A No, I did not.
Q Did you say anything to Sergeant Pletz about
your observations of the Defendant?
A I had mentioned when he was back at the vehicle that I noticed the odor of an alcoholic beverage
and that he had slurred speech as well.
[34]
Q After Sergeant Pletz conducted the field sobriety tests, was the Defendant taken into custody?
A Yes, he was.
Q And what did you and Sergeant Pletz do with
the Defendant at that point?

141a
A Took him to the DUI Center.
have.

MR. CUICA:

Thank you Corporal, that’s all I

THE COURT:

Mr. Camera, anything?

CROSS EXAMINATION
BY MR. CAMPANA:
Q As far as the odor of alcohol, you said it was
coming from the the vehicle?
A Yes.
Q Did you smell it on the passenger?
A I can’t tell where it’s–. My position, I could just
smell the odor of alcoholic beverage coming from the
vehicle.
MR. CAMPANA:
THE COURT:

These all I have.

Okay, thank you Ma’am.

MR. CUICA: And Judge, my final witness is
Officer Douglas Litwhiler.
DOUGLAS LITWHILER
Having been duly sworn, was called as a witness and was examined and testified as follows:
[35]
DIRECT EXAMINATION
BY MR. CUICA:
Q Good morning.
A Good morning.

142a
Q Could you state your name for the record?
A Douglas Litwhiler.
Q And could you spell your last name?
A Mr. L-i-t-w-h-i-1-e-r.
Q And what law enforcement agency do you work
for?
A Rush Township Police in Schuylkill County.
Q And how long have you been employed by that
agency?
A Since September.
Q Since September of?
A 2015.
Q And did you work for another law enforcement
agency prior to your current position?
A Yes, Montoursville Borough.
Q And how long were you working for that borough?
A From June 2014 to October of 2015.
Q So in total how long have you worked as a police officer?
A Been four years in June.
[36]
Q Did you also work for the County of Lycoming?
A Yes.
Q Okay. In what capacity?

143a
A Detective at the DUI Center.
Q Now Officer, do you have training in the detection of impaired drivers?
A Yes.
Q Could you please describe that training?
A Standard field sobriety testing. Couple DUI
courses I took. Advanced Roadside Impairment Detection Enforcement. ARIDE they call it. It’s about
it.
Q And approximately how many arrests for DUI
have you made during your career?
A I just hit over a hundred. I am not–not–I know
it’s over a hundred. I quit counting after a hundred.
Q Understood. I just want to discuss your work
at the DUI Center. Could you please briefly describe
how the DUI Center operates?
A Yeah. One of the departments will bring somebody in under suspicion of DUI. They come in, we
read their O’onnell warnings to them, and we also
wind up reading–. Everything is recorded. We read
the O’Connell warnings, and then we–after they submit or don’t submit to the test, then we go through
and we [37] read them their Miranda warnings and
ask them a series of questions on a form that is made
up by the District Attorney’s Office.
Q And Officer, were you working at the DUI Center on Saturday, May 16, 2015?
A Yes, I was.

144a
Q Did you Sergeant Pletz and Corporal Bowers
bring the Defendant, Mr. Thomas Bell, to the DUI
Center?
A Yes.
Q Is it standard procedure–. Well you answered
this question. It is standard procedure to use a video
camera at the DUI Center?
A Yes, video and audio.
Q And was a video recording made of Mr. Bell’s
interview?
A Yes, there was.
Q And we will review that recording shortly, but
I just want to go over a few things first. During your
contact with the Defendant at the DUI Center, were
you able to smell any odor coming from the Defendant?
A Yes, I could smell an odor of an alcoholic beverage coming from his facial area.
Q How did his eyes appear to you?
A They were glassy and blood shot and watery.
[38]
Q Did you ask the Defendant to submit to a chemical test of his blood?
A Yes, I did.
Q Did he agree to take that test?

145a
A No, he did not. He said that he got hepatitis
one time in the hospital, and didn’t want a needle in
his arm.
THE COURT: And Your Honor, I am providing a copy, but I will mark this Commonwealth Exhibit 1 to Defense Counsel.
BY MR. CUICA:
Q Do you recognize that document I just handed
to you?
A Yes. It’s the O’Connell Warning, DL26 from
Penn DOT.
Q And could you explain the purpose of this from?
A It’s to inform the driver of the penalties could
suffer for not submitting to a chemical
Q And you would have reviewed this form with
the Defendant, is that correct?
A Yes, I read it word for word.
Q And the fact that he refused is indicated by him
signing this form, is that correct?
[39]
A He signed the form that he was advised.
Q And so he did refuse?
A He did refuse, yes, he did refuse.
Q And is that your handwriting on the form here
at the bottom?

146a
A At the bottom that is my handwriting, and that
is my signature and his signature and the dates, and
the time next to my signature.
MR. CUICA: Judge, at this time I will mark
as Commonwealth Exhibit 2–
THE COURT:
MR. CUICA:
THE COURT:

The video?
The video.
From the DUI Center?

MR. CUICA: Correct, Your Honor. And this is
the first frame of that video.
BY MR. CUICA:
Q And Officer, do you recognize what we are looking at here?
A Yes, that’s Mr. Bell sitting in front of the camera. I am seated to the–if you are looking at the
screen I would be to the right–actually his left.
Q Thank you.
MR. CUICA:

At this time I will play the tape.

(Whereupon the video tape is played for the
Court)
[40]
BY MR. CUICA:
Q Officer, is that a true and accurate video of the
Defendant?
A Yes.

147a
Q Officer, based on your experience and training,
your observations of the Defendant throughout your
interview, did you form an opinion as to whether he
had consumed a sufficient amount of alcohol rendering him incapable of safely driving?
A Well when I worked there, when they call and
say we are bringing somebody in, I wait down in the
hall, and I observed him when they brought him all
the way down through. He was swaggered gait. I
mean I could tell the difference in somebody that is
under the influence. I formed the opinion that he was
under the influence of alcohol, and incapable of
safely driving.
Q Thank you Officer.
A You’re welcome.
MR. CUICA:
questions.

Your Honor, I have no other

CROSS EXAMINATION
BY MR. CAMPANA:
Q Officer–
A Good morning.
Q He was requested to submit to a blood test, [41]
right?
A Yes, sir.
Q Who made that decision?
A What do you mean who made the decision?
Q Well who made the decision whether it should
be blood, or breath, or urine?

148a
A I get to choose.
Q You chose blood?
A That’s what we do, that’s what we do at the
DUI Center, everybody gets blood.
Q Nobody has ever asked for breath or urine?
A It’s not their choice, it’s our choice.
Q All right. And when he said I am not going to
give you blood because I got Hep-C at this hospital
30 years ago, did you think maybe you could you ask
him for a breath test at that point?
A We don’t have a breath test there to give to
him.
Q How about urine? Hospital can test urine, can’t
they?
A I don’t work at the hospital. I have no idea.
Q All right.
A Our procedure is that it’s our choice and we go
with blood sir, that’s the only answer I can give.
[42]
Q Okay. Now on the video, you asked the Penn
College Police whether they have given the field sobriety test and they said yes?
A Yes.
Q Then you said something about that will be on
the video camera in the car?
A I assume they had one.

149a
Q And they didn’t tell you they didn’t have one?
A I didn’t ask them.
Q Well they heard you say that, they were standing right next to you, and neither one of them said
they haven’t got a camera?
A They weren’t right next to me. I had to roll my
chair out in the hall and talk to them.
Q But you could hear their voices on the video?
A Yeah, but at times when they were on the
phone calling for the cab, they were closer to me.
Q All right. So, let me ask you why wasn’t Mr.
Bell given the opportunity to do the field sobriety
test on camera at the DUI Center, which everybody
else is given that opportunity?
A Because we usually have two guys working
there to do it, and I was the only one working there
that night. The other guy called off.
[43]
Q Well you had the other, the police officers
there. Couldn’t you have asked them to wait until
you had him do the tests?
A I could have asked them to wait, but I need
somebody else there to run the camera and do our
procedure. And they’re–I never worked with them
there, so I don’t know if they know the procedure of
the DUI Center or not. I am not going against two
experienced officers, if they have him there for a reason, they gave him field sobriety or not, if there is
not a reason to give it to him again.

150a
Q So you’re going along with the officers because
they’re fellow officers, is that what you are telling
us?
A I have never seen somebody bring in someone
there who was not under the influence of alcohol.
Q Never?
A Not when I worked there.
Q All right. Let me ask you, why have a DUI Center equipped with a videotape where people do field
sobriety tests on a videotape and not use it, what is
the point?
A I can’t answer that question.
THE COURT: Let me ask you, is it possible
for you to do the video by yourself?
[44]
THE WITNESS: No, I can’t video and give
him field sobriety at the same time.
THE COURT:

It takes two guys?

THE WITNESS: It takes two people. I was
the only one working there that night. The other person called off sick.
BY MR. CAMPANA:
Q But there were two Penn College Police Officers right there at the time that Mr. Bell asked for
the opportunity, is that correct?
A That is correct, but they’re not part of the DUI
Center.

151a
Q Well how long had--they came there and they
should have dropped him off and left, but they stayed
there, right?
A I asked them stay so that somebody else was
there. I was unharmed and whatever else.
Q Why didn’t you ask them to stay so he could do
the field test?
A Because I didn’t have anybody else there to
help do it or run the camera.
Q Okay. Let me ask you this question. You said
that you detected an odor of alcohol on the Defendant’s breath. If you had a choice of writing faint,
moderate, or strong, which one did you write?
[45]
A I believe moderate.
Q And his attitude, you described it as cooperative, is that correct?
A Yeah. He wasn’t fighting or anything, arguing.
Q And as far as the speech, you didn’t say it was
thick and slurred, you said it was mumbled, low, and
raspy, is that what you said?
A If that’s what it says on the paper, that’s–
Q Well I showed it to you.
A Yeah, I don’t have the paper in front of me, so
it’s how long ago? I can’t remember everything that
I wrote.
MR. CAMPANA:

That’s all I have.

THE COURT:

152a
Anything else Mr. Cuica?

MR. CUICA:

No Judge, I have no redirect.

THE COURT:

Okay.

MR. CUICA: Judge, at this time I would just
move to introduce Exhibits 1 and 2.
THE COURT:

Any objection?

MR. CAMPANA: We object to the refusal
coming into evidence, but I think you have already
ruled on that Judge.
THE COURT: Well yeah, okay, subject to
your motion. No other objections?
[46]
MR. CAMPANA No other objections.
THE COURT:
MR. CUICA:
THE COURT:

Okay. All right. You rest?
Yes, sir.
Mr. Campana.

DIRECT EXAMINATION
Q Would you state your full name?
A Jeanine D. Fink.
Q And what is your mailing address?
A 1719 Lycoming Creek Road.
Q Williamsport?
A Williamsport.
MR. CUICA: I do have to interrupt at this
point in time. I don’t have a date birth, identifying

153a
information. I don’t have a rap sheet on this person
or any possible crimen falsi. I mean at this point, I
would need a short recess to get that information so
we could get that information. Unless Mr. Campana
wants to make it, you know, representation to the
Court that there is no crimen falsi. I would accept
that from Mr. Campana.
MR. CAMPANA: Well Your Honor, I don’t
have to give them a list of my witnesses before the
trial. I never inquired. She’s got no criminal record
at all.
THE COURT:

Do you want to check?

MR. CUICA: Well Judge, I know Mr. Campana, [47] and I will take his word for it she has no
criminal record.
THE COURT: I am not sure that it’s as critical in a case like this Mr. Cuica, as it might be in–.
Well, okay, I don’t know what he’s going to ask
though. All right, I think Mr. Campana, we are moving on.
BY MR. CAMPANA:
Q You live at that address. You live there with
Mr. Bell?
A Yes.
Q And how long have you guys lived together?
A Thirty-three, 34 years.
Q All right. Now on the day in question, you were
in the car, Volkswagen–

154a
A Yes.
Q – when it was stopped by the Penn College Police, correct?
A A-huh.
Q You have to say yes or no.
A Yes.
Q And that Volkswagen is your Volkswagen?
A Yes.
Q Would you describe how you have to–how you
get the lights on in that Volkswagen?
[48]
A When you turn the key on, the headlights automatically come on. The taillights don’t.
Q So what–
A You have to turn the switch to get full lights,
taillights come on.
Q Now on the morning of May 16th, what time
did you get up that day?
A Oh eight.
Q And was Mr. Bell, did he stay there that night?
club.
A Yeah.
Q You got up together that day?
A Yep.

155a
Q And what did you do that day, you, yourself?
A Started cooking for the picnic.
Q And what picnic is that?
A It was a fundraiser picnic out at the hunting
club.
Q All right. So how long did you cook the food before you went there?
A Oh, I think we left probably about 12:30 to go
out there, got there about one.
Q 12:30 p.m.?
A Yes.
Q And where is the hunting camp located?
[49]
A Gander Mountain Hunting Club, Mosteller
Road.
Q It’s Hepburn Township?
A I am not sure, is it Hepburn Township. Gamble
Township.
Q Okay. It’s how far from where you live on Lycoming Creek Road to the hunting cabin, how far is
it?
A Takes about 20 minutes to drive out there.
Q Okay. And you go out Warrensville Road?
A Yes.
Q And then you come to Mosteller Road?

156a
A Yep.
Q You go up the mountain?
A Yep.
Q About 20 minute drive?
A Yeah.
Q And you say you and Mr. Bell left the house
about 12:30?
A I figure, yeah.
Q Was he with you that morning?
A Yes.
Q At the house?
A Yes.
Q Did he consume any alcohol that morning?
A No.
[50]
Q Did you?
A No.
Q And you took your Volkswagen out to the hunting camp I take it?
A Yes.
Q Who drove? Who drove there?
A I think I drove there.
Q And what was the plan as far as who was going
to drive back?

157a
A Tom was going to drive back.
Q That was decided?
A Yes.
Q Based on what?
A So that I could drink some beer.
Q So he was the designated driver?
A Yes.
Q And how many people were at this party or this
fundraiser?
A Gees, I don’t know, 40 maybe, 30.
Q And you got there about one o’clock. What time
did you leave?
A I think about 11:30.
Q All right. Right before you got stopped?
A A-huh.
Q Is that a yes?
[51]
A Yes.
Q And Mr. Bell drove from the hunting camp to
the place where you were pulled over and got
stopped?
A Yes.
Q How was he operating the vehicle?
A Fine.

158a
Q And the police officers said you were sleeping
in the front seat when they stopped you. Is that correct?
A No, I was awake.
Q In your opinion when you were with Mr. Bell
the whole time that day, I take it you were together
the whole day?
A Yes.
Q You saw him drive the vehicle?
A Yes.
Q In your opinion, was he capable of safely driving the vehicle?
A Yes.
Q And did he safely drive the vehicle?
A Yes.
MR. CAMPANA: Cross examine.
CROSS EXAMINATION
BY MR. CUICA:
Q Miss Fink, if I understood you correctly, the
[52] Defendant decided that he was going to be the
designated driver, correct?
A Yes.
Q But he was drinking at the party, correct?
A He might have had a couple.
Q Well let me ask you this. Do you know how
many drinks he had at this party?

159a
A No.
Q Well he’s admitted to having more than a couple. So do you agree that you don’t know how much
he drank?
A Well he was sober to drive home.
Q Well you don’t know how much alcohol he consumed, correct?
A It couldn’t have been very much.
Q Well why couldn’t it have been very much?
A Because he was sober. He wasn’t–he wasn’t impaired.
Q You were drinking at the party, correct?
A Yes.
Q So you would agree that you were impaired
during the party?
A No, I don’t–no.
Q How many drinks did you have at the party?
A I didn’t keep track.
[53]
Q Give me an estimate.
A I don’t know.
Q Well then do you feel you were impaired?
A I didn’t want to drive home.
Q So you would agree that-A To be safe, yeah.

160a
Q You would agree that any observations you
made during that day were observations made while
you were impaired?
MR. CAMPANA: I am going to object. I don’t
think she admitted that she was impaired. She said
that she didn’t want to drive home.
THE COURT: Why don’t you use different
phraseology. Why don’t we say any observations you
made were after you had been drinking some amount
of alcohol. Is that a fair way to do it?
MR. CUICA: That’s a fair way Your Honor.
Do you want me to rephrase it Your Honor?
THE COURT:
but go ahead.

I think it’s probably obvious,

BY MR. CUICA:
Q Would you agree that any observations that
you made that day were after you had consumed alcoholic beverages?
A I guess so.
[54]
Q And you agree that you don’t know how many
alcoholic beverages you consumed that day?
A No, it wasn’t–. No, I don’t know how many. I
wasn’t keeping track.
Q So it could have been 10 beers?
A No, no.
Q Okay, you seem very certain.

161a
A No.
Q Okay. You know it wasn’t 10 beers?
A Right.
Q Was it nine beers?
A I don’t know. Probably less.
MR. CAMPANA: I think if you go down eight,
seven, six, five, four, three, two, one, she will say I
don’t know.
THE WITNESS:

Yeah.

BY MR. CUICA:
Q Your memory that day is very hazy, would you
agree?
A No, it’s not hazy.
Q You can’t remember specifics as to what you
drank.
A I didn’t have that many beers. I didn’t keep
track and count them. We played cards, we won, so I
wasn’t too impaired.
[55]
Q And you don’t know how many drinks the Defendant Mr. Bell consumed, is that correct?
A No.
MR. CUICA:
Your Honor.
THE COURT:
before you go.

Thank you. I have nothing else
I do have a couple questions

162a
EXAMINATION BY THE COURT:
Q Let me ask you about the nature of this party.
I take it that–was the beer a keg?
A No.
Q So the beer was in cans or bottles?
A Yes.
Q Was it in both?
A You had to bring your own.
Q You have to bring your own?
A Yes.
Q Did you folks bring your own?
A Yes.
Q What did you bring?
A Oh probably a case of beer.
Q Okay, so you brought a case of what kind of
beer? Do you remember?
A The kind? I think it’s Milwaukee’s Best.
Q Okay, Milwaukee’s Best. Do you remember [56]
whether it was bottles or cans?
A Cans.
Q Do you remember whether the cans were 12 or
16 ounces?
A Twelve.
Q Did you take the remainder of the beer home
with you after you had concluded the party?

163a
A I don’t know if we left our cooler there or not.
We could have left it there.
Q So all of this was in a cooler?
A A-huh.
Q And how long were you at the party?
A From about 1:00 o’clock til about 11:30 when
we left.
Q 11:30 at night?
A Yes.
Q Well he was picked up at about 11:00 o’clock at
night I think, so could it have been a little earlier?
A It must have been.
Q Did you stop anywhere between the party and
the time that the Penn College Police Officers–
A No.
Q – stopped you?
A No. I don’t–. No. We stopped to drop [57] somebody off.
Q Okay. I was wondering now–
A When he pulled out, he didn’t hit the switch for
lights. Headlights came out and he just made the left
and–
Q Okay, so you don’t think the cooler was in the
car?
A No. I don’t know. I don’t know if we left it or
not.

164a
Q Did you eat while you were at the party?
A Yes. All day.
Q Did anybody else partake of the beer from your
cooler?
A I imagine. It’s there for everybody.
Q So you guys were at the party for quite awhile.
You were at the party for nine or ten hours, huh?
A It was a setback tournament, fundraiser, so
yeah.
Q So you played cards, ate, and drank?
A Yes.
Q Okay. All right.
THE COURT: We will come back to you Mr.
Campana.

165a
REDIRECT EXAMINATION
[58]
BY MR. CAMPANA:
Q Who were some of the people at the party? Was
there a Judge there for example?
A Gary Whiteman.
Q All right. I just want to–I want the Judge to
have a flavor of what kind of a party it was. It
wasn’t a drunken rebel party, was it?
A No, it wasn’t, no.
Q It was–
A It was a fundraiser, eating and-Q People our age that went?
A Yep.
Q On a Saturday afternoon and had a setback
tournament?
A Yep.
MR. CAMPANA:
Honor.
THE COURT:
MR. CUICA:

That’s all I have Your

Anything else Mr. Cuica?
I have nothing else.

THE COURT: I guess we beat this one to
death. Thank you Ma’am. You can stay in the courtroom if you want.

Bell.

MR. CAMPANA:
THE COURT:

166a
We are going to call Mr.

Good.

THOMAS BELL
having been duly sworn, was called as a witness
and was [59] examined and testified as follows:
DIRECT EXAMINATION
BY MR. CAMPANA:
Q First thing, state your name and address.
A Thomas S. Bell, 1719 Lycoming Creek Road.
Q Do you have any physical defects to your legs?
A Yes.
Q Which legs?
A Left.
Q What happened to your left leg?
A I had a severe back injury, and the nerves got
cut to my leg and my leg looks like polio.
Q Would you show the Judge your leg?
MR. CUICA:

Judge, has he been sworn in?

THE COURT:

Yes.

BY MR. CAMPANA:
Q Show the Judge your leg.
A This is my good leg.
Q Well show the Judge, not me.

167a
THE COURT: Well Mr. Cuica has to see it
too, so you go right in front of the table there where
Mr. Cuica and I can both see it.
(Defendant displayed his leg.)
THE COURT: Okay, I see it. That is [60]
significantly thinner. I am saying this because of the
fact we have a record. And you have pulled your
jeans up to your knees, and the calf on your left leg
is less developed than the calf on your right leg.
BY MR. CAMPANA:
Q Go ahead, sit down. How long has that been
that way Mr. Bell?
A Approximately 10 years.
Q Does it cause you to limp?
A Sometimes, most times.
Q All right, let me ask you this. May 16th, we already know on the video tape, you said you woke up
8:30 that morning or so. What did you do in the
morning?
A Oh I did household things while she cooked.
Q Pardon me?
A Did household things while she cooked.
Q Okay. And what time did you leave to go to the
hunting cabin?
A Around–we wanted to get out there by 1:00
o’clock.
Q And what all did you bring with you?

168a
A She made a big pepper and pasta salad with
cheese and a case of beer.
Q All right. And it was Milwaukee Best?
[61]
A Yes, sir.
Q Is that 12-ounce cans?
A Yes, sir.
Q And did she drive to the party?
A Yes, sir.
Q What was the plan on who was going to drive
back?
A Well I am usually the one who drinks, so I said
I would not drink that much and I would drive home.
Q All right.
A So she can relax. She cooked all day.
Q So you got there about one, and what did you
do there?
A Played cards. Party probably over by seven or
8:00 o’clock. And since I had been drinking, I wanted
to stay until I wore off the booze. And then it started
raining real hard. And we sat on the porch until
10:30, 11 o’clock and come home. Enjoyed the hunting club.
Q And how much beer did you drink?
A I drank four beers. I counted.
Q And starting what time and ending what time?

169a
A About 1:00 o’clock to six, or 2:00 o’clock to six.
[62]
Q And did you eat?
A Yes, I ate all day.
Q And when you left, who all left with you?
A Everybody was gone but the three of us. My
wife and another friend, and which he was waiting
for a ride home.
Q So you drove him home?
A I drove him right in front of the Shamrock. He
lives behind the Shamrock. Dropped him off on
Fourth Street.
Q All right. And when you dropped him off, what
happened there? Well let me ask you this. Tell us the
roads that you took to get from the hunting club to
Fourth Street?
A Went down Warrensville Road and turned on
Four Mile Drive to go over Grampian, and then Market Street to Fourth Street and Fourth Street.
Q Fourth Street to–
A Shamrock.
Q Where you–
A I was going to get on the beltway.
Q So when you pulled over, what happened then?
A I had let the gentleman out, because the back,
the passenger back seat doesn’t–the latch is broke.
So I got out and just instinctively turned the [63] car

170a
off, let him out. And she wanted to go home. She
thought I was going into the bar. And I said no, I am
going home. And we were arguing a little bit. And
then I forgot to turn the lights on and started up.
And the headlights come on, but the taillights don’t.
And we got pulled over in about 150 feet, real quick.
Q All right. And you did the field test at the scene
as the described by Mr. Pletz?
A Yes.
Q Did you feel that you did them properly?
A I know I didn’t do real good on walking, but I
told him I think at the time that I had a bad leg. But
I thought I did pretty good for my situation.
Q Where did you do the–actually where did you
do the field test at the scene?
A On the street, on the street of Campbell Street.
Q Were you in front of a police vehicle?
A Yes.
Q Were you nervous at all?
A Certainly.
Q Why is that?
A Because I don’t want to get arrested for drunk
driving.
Q All right. And then after you did the test, [64]
they placed you under arrest and took you to the DUI
Center?
A Yes.

171a
Q We have seen that. They asked you to give a
blood test?
A Right.
Q Why didn’t you give a blood test?
A Well when I was 19 years old, and I had a bad
nose bleed. And after six pints of blood and last rites
from the priest, they tied my carotid artery off and
saved my life. I went home two days later. And then
a couple years later I found I had hepatitis C after
six blood transfusions. After then, they didn’t screen
for hepatitis C. They didn’t know what it was.
it?

Q So where as the transfusion, where did you get
A In Williamsport Hospital.

Q So when you told the police officer that you
were not going to give blood because you had got Hep
C, that was the truth?
A I have a distrust in Williamsport Hospital. And
then here about three years ago, I took my father to
the hospital. They swabbed his nose and I asked
them why they did that. They said we are checking
for MRSA. He was in hospital for seven days. It was
[65] negative MRSA. He come home for two days. We
took him back to the hospital and they tested him.
He had MRSA. So that was–that–I was scared of the
hospital. I didn’t trust Williamsport Hospital.
Q And have you been drinking this morning?
A No.

172a
Q Do you always speak the way you’re speaking
now?
A Well when I saw the video I said to you, I sound
drunk, and I wasn’t. And you said you always sound
that way.
Q Were you impaired by the–
A No.
Q – alcohol you consumed when you got behind
the wheel and drove home?
A No, that’s why I waited two more hours, plus I
was enjoying the day, the evening.
Q All right.
MR. CAMPANA:
Honor.

That’s all I have Your

THE COURT:

Your turn Mr. Cuica.

MR. CUICA:

Thank you, Your Honor.

CROSS EXAMINATION
BY MR. CUICA:
Q Mr. Bell, you agreed before you went to the
party that you were going to drive home that day, is
[66] that correct?
A That’s correct.
Q So driving is something that you do as a part of
your life, is that correct?
A I would say that would be a normal conclusion.

173a
Q And so your driver’s license is pretty important, correct?
A That’s correct, same as yourself and everybody
I image.
Q Certainly you wouldn’t want to lose your
driver’s license for no reason?
A I suppose that’s–. Is this a question?
Q You wouldn’t want to lose your driver’s license,
is that correct?
A That’s a statement. Are you asking me a question?
THE COURT: No, he’s asking you a question.
You would not want to lose your–
THE WITNESS: No, I would not want to lose
my driver’s license.
BY MR. CUICA:
Q And when we saw you at the DUI Center, the
officer clearly explained to you that you were going
to lose your license for 12 months when you didn’t
give [67] blood, do you agree?
A Would you like to get AIDS from a hospital?
MR. CUICA:
THE COURT:

Your Honor, could you–
Now listen Mr. Bell–

THE WITNESS:

That’s why–

THE COURT: You’re doing fine, but just answer Mr. Cuica’s question, okay?
THE WITNESS:

Excuse me.

174a
THE COURT: You saw how the police officers
answered Mr. Campana’s questions. They may not
have liked Mr. Campana’s questions, but they answered them respectfully and they answered them
politely.
THE WITNESS:
THE COURT:
Cuica.

You do the same thing for Mr.

THE WITNESS:
MR. CUICA:

I apologize.

I apologize.

Thank you Your Honor.

BY MR. CUICA:
Q Mr. Bell, you understood at the DUI Center
that you were going to lose your license for 12
months, is that correct?
A Yes, I did.
Q And you knew that to keep your license, all you
had to do was submit your blood, is that correct?
A I don’t know if that’s correct or not, tell [68] you
truth. I was feared for other medical situations.
Q Well I understand that, but regarding the loss
of your license for a year–
A Yes, that’s correct.
Q And you also would agree with me that by submitting your blood, you would prove that the officers
were wrong about you having alcohol in your system?
MR. CAMPANA: I am going to object Your
Honor. That’s not the point. Because he has alcohol

175a
in his system, you don’t prove anything by giving
blood.
THE COURT: The question is a bit argumentative Mr. Campana, I will agree with you. But I
think what he’s asking him was, he’s asking him
questions about his state of mind. And I agree he’s
leading him, but he can do that on cross examination. So I am going to overrule your objection. I think
that Mr. Cuica gets some latitude here. Go ahead
Mr. Cuica. After all, you do have–. If this was a jury
trial, you would have a consciousness of guilt instruction probably coming from the Court.
MR. CAMPANA:
ple, not one.

You also would have 12 peo-

THE COURT: You would. That doesn’t change
the consciousness of guilt issue. Go ahead.
[69]
MR. CUICA:

Thank you.

BY MR. CUICA:
Q So Mr. Bell, do you agree with me if you had
submitted your blood, it would be tested to see if
there was any alcohol in your blood?
A Yes, sir.
Q And you’re claiming here today that you
wouldn’t have had alcohol in your blood at approximately 11:30 p.m., is that correct?
A I don’t think that at that–

176a
MR. CAMPANA: I am going to object. That
calls for an expert conclusion. He said he drank four
beers from two to six.
THE WITNESS:

I don’t know whether it–

THE COURT: Okay. Why don’t you rephrase
the question to indicate that it was his opportunity
to demonstrate his innocence, or whatever you want
to do.
MR. CUICA:

Certainly Judge.

THE COURT: You know what, technically
Mr. Campana is right. He has never claimed that he
didn’t have any alcohol in his system. What he is
claiming was he was not impaired, okay?
MR. CUICA: Your Honor, I will ask one last
question about this blood test.
THE COURT: You can ask more than one if
you [70] would like Mr. Cuica. I am not limiting you.
BY MR. CUICA:
Q Mr. Bell, do you agree with me that if you had
submitted your blood, you would be able to show that
you were not impaired by the amount of alcohol that
you had?
MR. CAMPANA: Objection Your Honor. He
could be point two oh and claim he’s not impaired.
The amount of alcohol doesn’t prove or disprove
whether you’re impaired or not. Impairment is a
whole different situation.
THE COURT: I guess Mr. Cuica’s question
Mr. Bell is that you could have definitively resolved

177a
the issues that are before the Court by a blood test.
Do you agree to that?
THE WITNESS:

Yes, sir.

MR. CAMPANA I don’t think he could have,
but–I don’t think he could have.
THE COURT: Well I doubt that they would
have charged him with a point oh two.
MR. CAMPANA: What if they had a point oh
eight? What if that point oh eight, he wouldn’t be
looking at–. All right.
THE COURT: Might not be looking at the
same charge. Okay, anything else Mr. Cuica?
[71]
MR. CUICA:
blood test.

Judge, I will move on from the

BY MR. CUICA:
Q Mr. Bell–
THE COURT: I have a question about the
blood test though, I do.
Mr. Bell, are you telling the Court that for
past 30 years you have never had a needle?
THE WITNESS: Not at Williamsport Hospital. Up until when my father got MRSA, that was the
final straw, two years ago. Before that I did, and in
between that I did.
THE COURT: And because your father got
MRSA, you’re telling me you–

178a
That was the final straw.

THE WITNESS:

THE COURT: From now for the rest of your
life you’re not taking any kind of needles?
tal.

THE WITNESS:
THE COURT:

Not at Williamsport Hospi-

Okay Mr. Cuica, go ahead.

BY MR. CUICA:
Q Mr. Bell, I think I heard you state during your
testimony that you’re usually the person who drinks,
and so on this day you wanted to give Miss Fink a
break and let her drink?
A That’s correct.
[72]
Q When you say you’re the person that usually
drinks, how often do you usually drink?
MR. CAMPANA:
Honor, it’s irrelevant.

I am going to object, Your

MR. CUICA: Judge, I think it couldn’t be more
relevant. He just testified under oath that he usually
is the person that drinks. I need to know what his
tolerance is, I need to know his drinking habits are
to show how impaired. He’s the one taking the stand
opening the door for all of this testimony.
THE COURT:
ahead.
MR. CUICA:
BY MR. CUICA:

Overruled Mr. Campana. Go
Thank you, Your Honor.

179a
Q So Mr. Bell, you said you’re the one who usually drinks. How often do you drink alcohol?
MR. CAMPANA: I am going to object, Your
Honor. It’s irrelevant. It’s how often do you drink alcohol and then drive a car? I mean if you want to ask
if he drinks everyday, I mean that’s–. Any probative
value is far outweighed by the prejudice of this type
of examination.
THE COURT: Well he’s kind of right Mr.
Cuica on that one, because you wouldn’t be able to
say how many times have you been arrested for DUI.
MR. CUICA: I am not asking him that Judge. I
[73] am simply–. Mr. Bell just testified that he usually is the one who drinks, and I believe he said a lot,
but I wasn’t sure. But he’s usually the one that
drinks.
THE COURT: He said that. Okay. Now what
is it that–how is this line of questioning going to help
me now?
MR. CUICA: Well because Your Honor, he is
stating that he wasn’t impaired. He’s admitting he
was drinking, but he wasn’t impaired. I think it’s directly relevant and important for the Court to understand what his interpretation of being impaired is or
not based off his drinking patterns.
MR. CAMPANA: Judge, the question is, could
he drive a car safely. He says he could, and as a matter of fact, they haven’t proved that he couldn’t.
THE COURT: Yeah, I am going to sustain the
objection. What else do we have?

180a
BY MR. CUICA:
Q Your last beer was at 6 p.m., did I understand
you correctly?
A That’s the best I can remember, yes.
Q And you agree the traffic stop was little after
11 p.m.?
A Yes, sir.
Q So we are talking a little over five hours [74]
after your last beer?
A Yes, sir.
Q Do you agree with me?
A That’s why I thought I was not impaired.
That’s why I waited at the hunting club so long, so I
wouldn’t be in this situation.
Q And you heard the Officers testify that you had
alcohol coming from your breath?
A Yes sir, I heard that.
Q Do you disagree with the Officers?
A I certainly do.
Q You disagree that you had alcohol odor coming
from your breath?
A I don’t see how I could at that point. But I don’t
know, maybe it’s possible four hours later.
THE COURT:

Excuse me Mr. Cuica.

(The Court confers with his Secretary.)
THE COURT:

Sorry. Go ahead.

MR. CUICA:

181a
Judge, I have nothing else.

MR. CAMPANA:
questions.

I don’t have any further

THE COURT: All right, you’re done Mr. Bell.
Thank you very much. I take it you rest?
MR. CAMPANA:
THE COURT:

Yes.

Any rebuttal?

[75]
MR. CUICA: Judge, I don’t think rebuttal is
necessary. No, I do not.
THE COURT:
All right. Give me a few
minutes here. I will take a quick break here and get
back to you guys.
MR. CUICA: Are we going to do closing right
now Judge or do you want–
THE COURT: No, let’s do it now instead of
breaking it up. Mr. Campana.
MR. CAMPANA: Your Honor, I think the
main thing here is the evidence that was not presented. You know, when you instruct a jury, do you
have a reasonable doubt based upon the evidence
that was presented and that which was not presented. I don’t know what happened to the in-car
video if there was one. They’re claiming there wasn’t
one.
THE COURT: Well I accept the Officer’s testimony. So there is no in-car video.

182a
MR. CAMPANA:
Then why in the world
couldn’t he have been given the opportunity to do the
field test at the DUI Center? And the tape says, well
Lithwiler says to them, “Did you do field sobriety
tests at the scene? They said “Yes.” And he turns to
Mr. Bell and said “Well I will have a video cam of
that,” Right in the presence of the Penn College Police, who don’t [76] correct that situation.
So there is a lack of evidence that–. The reason we have a DUI Center is so that they can do the
field test on the video, for better or for worse. The
only evidence you have in this case as far as impairment is the opinion of Officer Pletz. Officer Bowers
didn’t give an opinion as to the impairment of the
Defendant and admitted that she didn’t know where
the odor of alcohol was coming from when she stuck
her head in the car.
THE COURT:
an opinion.

You have two officers that gave

MR. CAMPANA: Well the one guy, you saw
what he based his opinion on, the same thing you
would base your opinion on. The Defendant’s statements.
THE COURT:

All right.

MR. CAMPANA: He gave his driver’s license
number to Officer Pletz. Do you know your driver’s
license number? I don’t. And I certainly couldn’t remember it if I was drunk.
The walk and turn. The walk and turn and
one leg stand are meaningless in this case. You saw

183a
his leg. He is 65 now? 65 years old. He’s been up
since 8:30 in the morning. He’s drank four beers. He
had food all day long. He’s tired, he’s old. Maybe he’s
not coordinated either. And common [77] sense tells
you that other things besides alcohol can cause
someone to not perform these tests in a manner that
the Officers want perfectly. All right?
THE COURT:

Okay.

MR. CAMPANA: You know the battery of
tests. They can’t use–. There is four tests that were
done. They can only use two in court, because the
other two are not admissible. And it’s the battery of
tests that they’re trained about at the DUI school,
not just two of them.
You have Jeanine Fink’s testimony. She
says he was driving perfectly fine. You have his testimony. You don’t have any objective evidence that
he was impaired. You have opinions and that he refused the blood test. He gave you a reason why he
refused the blood test. And he’s already been punished for refusing the blood test; he lost his license
for 12 months.
I think under the circumstances, Your
Honor, there is at least a reasonable doubt here
about whether he was impaired, at least a reasonable doubt.
You know, if we were here on a civil case,
you might a preponderance, but I don’t even know if
you have that.

184a
I would ask that you give yourself the [78]
reasonable doubt instruction, and after you do so,
you will come to the conclusion that one must hesitate in this case, and there has to be a reasonable
doubt about impairment and you should find him not
guilty.
THE COURT:

Mr. Cuica.

MR. CUICA: Okay Judge. The Defendant admits that he was drinking alcohol prior to driving.
That is his one and only true statement. He claims
he had only four beers, from 2 p.m. to 6 p.m. This
traffic stop is at approximately 11, 12 p.m. We are
talking about more than five hours after his supposed last drink. The two police officers, Sergeant
Pletz and Officer Litwhiler, clearly smell alcohol on
his breath. Corporal Bowers smells it in the car. Remember she’s on the passenger side, so she couldn’t
say for sure it was coming directly from the Defendant’s mouth. But when you put that together with
Sergeant Pletz, Officer Litwhiler, and Corporal Bowers, there is no question that he smelled of alcohol
more than five hours after his last beer.
At the DUI Center he’s asked if he believes
he’s under the influence. And could he states “I don’t
think so.” However, when he’s asked if he was under
the influence of a controlled substance, he states emphatically, “Absolutely not.” That’s why he knows he
[79] didn’t stop drinking at six. And he knows that
he didn’t stop drinking–

185a
MR. CAMPANA: Your Honor, I am going to
object to this. He’s calling him a liar based on no evidence whatsoever. I mean if you are going to call
him a liar, at least have evidence of it.
THE COURT: Listen Mr. Campana, I can sort
out the arguments, okay, I really can. I mean I know,
I know you guys are about ready to farm me out, but
I can still get by that test, okay.
MR. CUICA: Judge, this is my argument. He
states absolutely not about a controlled substance,
because he knows that there is alcohol his system,
and he can’t convincingly state absolutely not under
the influence of alcohol, but he knows he can convinci11gly state he’s not absolutely under the influence–or he’s absolutely not under the influence of a
controlled substance, because he hasn’t been taking
any controlled substances.
His refusal, it’s critical. His assertion rings
completely hollow Judge. You know, it’s interesting
that he seems concerned about losing his opportunity to perform field tests at the DUI Center because he wants to prove his innocence. Yet he refuses
to have the blood test. That is the only way to definitely prove his [80] innocence.
I also think it’s interesting that today we are
hearing and seeing his left leg I believe that is atrophied. And the argument from the Defense is that
therefore the SFST’s are meaningless. Judge, it’s the
SFST’s what would prove his innocence in that argument. You can’t have it both ways Judge. You can’t
say that my SFST’s are not good because of my bad

186a
leg, and then you didn’t videotape me at the DUI
Center so I couldn’t prove my innocence. You can’t
have it both ways Judge. It makes no sense Judge.
He refused the blood test, because he knows
that he’s guilty and the test will prove it. He thinks
if he had a chance to maybe handle these field sobriety tests, and he might get through them, even
though he was drinking. And his assertion that he
can’t give blood because he contracted hepatitis C at
the hospital years ago is simply not credible. He’s
stating that he received a blood transfusion that
gave him Hep C. Judge, we are talking about 30
years later for a blood test. There is no danger that
he is getting blood. He knows he’s not getting a blood
transfusion.
And Judge, you asked a question I was
thinking of. Why is it that in 30 years or more you
have not had a shot, a needle, a blood test? And his
answer is “Well, [81] it’s only at the Williamsport
Hospital that I can’t give blood,” which is going to
get me to keep my license for 12 months, which is
going to prove that I am innocent? Judge, it does not
ring true, because it is not the truth.
If he knows that he’s innocent Judge, if he
knows that the blood test is going to prove his innocence, he can’t jump at the opportunity quick enough
to give his blood? A guilty man knows he has alcohol
in his blood and shouldn’t be driving. And he refused
to provide blood for that reason.
Defense is stating oh Judge, I haven’t shown
you sufficient evidence to prove beyond a reasonable

187a
doubt that he’s incapable? Judge, I have shown you
well more than that. Officer Pletz has 19 years of experience as a police officer. He’s conducted many
DUI related arrests. You heard his testimony. The
Defendant was incapable of safely operating that
motor vehicle based on Officer Pletz’s observations,
of the field sobriety test, odor of alcohol coming from
the Defendant, his glossy eyes, he’s unsteady on his
feet.
Judge, it’s not even a close call. You would
have to your find Sergeant Pletz was not [82] credible, or just simply wrong, even if after his years of
experience, just simply wrong. That, you know, the
odor of alcohol, field sobriety test, the observations
of his eyes were just all wrong.
Judge, we have an admission that he had
been drinking. Clearly he’s been drinking. He just
needs to modify his self serving admission that it
was five hours ago, and, you know, I only had four
beers. Judge, that doesn’t ring true as well.
Miss Fink’s testimony Judge, I don’t see how
you can glean anything from that. This is somebody
who clearly has a bias for the Defendant. Has no specific recollection. She doesn’t know how much she
drank, she doesn’t how much he drank. I don’t find
anything relevant that you could take from that testimony.
We also heard from Corporal Bowers and Officer Litwhiler. Officer Litwhiler testified that based
on his observations, he is the one who can smell the
odor of alcohol as well. It’s not just what you see on

188a
the video, which is enough, but Officer Litwhiler is
the one interviewing, and smelling the odor of alcohol, and who has experience conducting these interviews. And he believes that the Defendant was incapable. [83]
Judge, I am getting animated here because
the evidence received here isn’t even close. It is overwhelming. You have the professional opinion of the
officers, their observations. And then you have the
admissions, although very tailored and serve serving, that the Defendant was drinking. So when you
put it altogether with the refusal, Judge, these are
actions of a man who knows he’s guilty.
So Judge I think I made my case clear. It’s
been proven beyond a reasonable doubt that the Defendant consumed alcohol, and that it impaired his
ability to safely drive. I don’t have to prove to you
that he was drunk, Judge, you know the law. But he
was impaired, and you cannot–nobody can keep a
straight face that he was not impaired after hearing
the Officers’ testimony, the observations, his actions,
including his refusal of a blood test. I think it’s
proven beyond a reasonable doubt that he was incapable of safely driving.
THE COURT: Thank you both. Let me have a
few minutes.
(Whereupon a recess is held from 10:46 a.m. to
10:56 a.m.)
[84]

189a
THE COURT: I will agree with Mr. Campana,
I thought that the police officers, very frankly, and
if I could give you some constructive criticism. You
know, if you don’t have a video in the car, and you
have an opportunity to have them re-videoed at the
DUI Center, take it. It really helps me, because
when I am looking at this case, and I take a look at
it from Mr. Campana’s side, it provides him with a
great deal of argument that well, okay, you know the
guy is 65 years old, he has a bad leg, and what did
he do to violate the test? Well on the heel to toe he
raised his arms starting out, and he had more than
an inch on the third step on the way back, and he did
eight steps.
On the one legged stand, which I am not
sure I could do, he only went for 25 seconds instead
of the required 30 seconds. And so it does provide for
what I think are some reasonable arguments that
Mr. Bell was capable of driving a car safely. And after all, the police officers did not find any fault with
his driving as far as his operation of the vehicle other
than the fact that he failed to activate the rear light.
The difficulty I have though Mr. Campana
is this. I have two trained officers that have both
given the opinion that he was under the influence of
alcohol. [85] More than that, I don’t buy Mr. Bell’s
argument. I don’t buy the fact that wait a minute,
it’s the Williamsport Hospital, and they are the devil
incarnate. And I can’t–I can’t tolerate them sticking
a needle critical in me because they’re so incompetent. Now I am not criticizing the fact that he has a
criticism of the Williamsport Hospital. What I am

190a
concerned about is the fact that I guess maybe you
get here too long, and everybody comes up with the
excuse “I don’t like needles,” when they refuse a
blood test. And the reason for refusing a blood test is
the fact that they know what the result is going to
be and there is a consciousness of guilt.
So I have the opinion of two trained police
officers, and I have the refusal, I wish I had the
video. I really do. That would have helped me a great
deal. And you’re right about that lack of evidence,
that should be against them.
But I am convinced that he was under the
influence of alcohol, and therefore I am going to enter an adjudication of guilt
Let me just indicate to you that I have a sentencing date on August 29th. Will you waive the 90
days?
MR. CAMPANA:

Yes.

THE COURT: Is that sufficient for you? [86]
Otherwise I have to do it on May 24. I can do it on
May 25th if we can get the CRN done. Would you
rather we do it on May 25th?
MR. CAMPANA: I would rather have August,
because I think in the meantime the Supreme Court
is going to help me out.
THE COURT: Well I thought you might,
okay, so I will put it in for August 25th and I will
dictate an order in just a moment, okay? Thank you
all.
(Whereupon an Order is dictated.)

191a
(Whereupon the proceedings are concluded at
11:02 a.m.)

